                 United States Patent and Trademark Office
                 Performance and Accountability Report
                 Fiscal Year 2009



                        transparency



                  global

                                                       performance

accountability


                                         innovation




                  intellectual
                  property

           Today’s Challenges – Tomorrow’s Solutions
                                               FINANCIAL HIGHLIGHTS
                                                                                % Change                September 30,               September 30,
                          (Dollars in Thousands)
                                                                              2009 over 2008                2009                        2008

Fund Balance with Treasury                                                           (8.5%)              $ 1,309,807                $ 1,431,242
Property, Plant, and Equipment, Net                                                    0.8%                     205,802                    204,184
Other Assets                                                                         30.1%                       16,731                     12,864
	     Total Assets                                                                   (7.0%)              $ 1,532,340                $ 1,648,290

Deferred Revenue                                                                     (5.7%)              $      800,256             $      848,505
Accounts Payable                                                                     (6.7%)                      90,188                     96,694
Accrued Payroll, Benefits, and Leave                                                   7.8%                     156,756                    145,435
Other Liabilities                                                                   (12.6%)                     109,346                    125,052
	     Total Liabilities                                                              (4.9%)              $ 1,156,546                $ 1,215,686
Net Position                                                                        (13.1%)                     375,794                    432,604
Total Liabilities & Net Position                                                     (7.0%)              $ 1,532,340                $ 1,648,290

Total Program Cost                                                                     4.7%              $ 1,981,940                $ 1,892,590
Total Earned Revenue                                                                   3.5%                   (1,927,130)                (1,862,174)
Net Cost of Operations                                                               80.2%                $      54,810              $      30,416

Budgetary Resources Available for Spending                                             3.4%              $	 1,981,204               $	 1,916,609

Total Outlays/(Collections), Net                                                  (694.6%)               $	     104,134             $	      (17,514)

Federal Personnel                                                                      2.1%              	        9,716             	        9,518

Disbursements by Electronic Funds Transfer (EFT)                                          —              	         99%              	         99%

On-Time Payments to Vendors                                                          (1.0%)              	         96%              	         97%


                                          PERFORMANCE HIGHLIGHTS
                                                                                                                                        Met/Not
                          Performance Measures                                FY 2009 Target            FY 2009 Actual
                                                                                                                                        Met Score
Patent Average First Action Pendency (months)                                           27.5                     25.8                      Met
Patent Average Total Pendency (months)                                                  37.9                     34.6                      Met
Patent In-Process Examination Compliance Rate                                        93.0%                     93.2%                       Met
Patent Allowance Compliance Rate                                                     96.5%                     96.9%                       Met

Patent Applications Filed Electronically                                             80.0%                    82.5%1                       Met

Trademark Average First Action Pendency (months)                                  2.5 to 3.5                      2.7                      Met
Trademark Average Total Pendency (months)                                               13.0                     11.2                      Met
Trademark First Action Compliance Rate                                               95.5%                     96.4%                       Met
Trademark Final Compliance Rate                                                      97.0%                     97.6%                       Met
Trademark Applications Processed Electronically                                      62.0%                     62.0%                       Met
Percentage of countries on the USTR 301 list, awaiting WTO
    accession, or targeted by OIPPE for improvements that have                       40.0%                     54.0%                       Met
    positively ameneded or improved their IP systems.
Number of countries that implement at least 75% of action
   steps which improve IP protections in the joint cooperation,                             4                       5                      Met
   action or work plans.
1	   This is preliminary data and is expected to be final by December 2009 and will be reported in the fiscal year (FY) 2010 PAR.
                              T a b l e            O f        C ont e nts


Message from the Under Secretary of Commerce for Intellectual Property and
Director of the United States Patent and Trademark Office (USPTO)	                                       3
Management’s Discussion and Analysis	                                                                    7
    Mission and Organization of the USPTO	                                                                8
    Performance Goals and Results	                                                                       12
         USPTO Strategic Plan	                                                                           12
         Strategic Goal 1: Optimize Patent Quality and Timeliness	                                       14
         Strategic Goal 2: Optimize Trademark Quality and Timeliness	                                    18
         Strategic Goal 3: Improve Intellectual Property Protection and 		
         Enforcement Domestically and Abroad	                             22
         Management Goal: Achieve Organizational Excellence	                                             28
    Management Challenges and What’s Ahead	                                                              31
    Accompanying Information on USPTO Performance	                                                       35
         Performance Audits and Evaluations	                                                             35
    Management Assurances and Compliance with Laws and Regulations	                                      40
    Financial Discussion and Analysis	                                                                   44
Financial Section	                                                                                       57
    Message from the Acting Chief Financial Officer	                                                     58
    Principal Financial Statements and Related Notes	                                                    60
    Independent Auditors’ Report	                                                                        89
Other Accompanying Information	                                                                      101
    Top Management Challenges Facing the USPTO	                                                      102
    Improper Payments Information Act (IPIA) Reporting Details	                                      104
    Summary of Financial Statement Audit and Management Assurances	                                  106
    The Nature of the Training Provided to USPTO Examiners	                                          107
    Fiscal Year 2009 USPTO Workload Tables	                                                          111
Glossary of Acronyms and Abbreviation List	                                                          143



        Web address for the USPTO Performance and Accountability Report
                            http://www.uspto.gov/about/stratplan/ar/index.jsp




                                               ABOUT THIS REPORT

   The USPTO Performance and Accountability Report for FY 2009 provides a comprehensive summary
   of program and financial results and is structured to help the President, the Congress, and the
   American public assess our performance relative to our mission and accountability for our financial
   resources.
      FISCAL YEAR 2009
  SUSTAINING PERFORMANCE




President Barack Obama presented the 2008 National Medal of Technology and Innovation in the East
  Room of the White House. The medal is this nation’s highest award for technological achievement.
     Here the President presents the medal to Dr. Forrest Bird, inventor of the portable respirator.
Message from the Under Secretary of Commerce for Intellectual Property
and Director of the United States Patent and Trademark Office (USPTO)




F
        iscal Year (FY) 2009 was a year of                                          money from the Trademarks’ budget.

        great economic turbulence for the                                           However, with 2010 promising to be

        United States of America as well                                            another financially challenging year, we

 as for the United States Patent and                                                are focusing on both short- and

 Trademark Office (USPTO). It was also a                                            long-term solutions to put the agency

 year of extraordinary decisions and                                                back on solid financial footing. We will

 results. It is my honor and privilege to                                           be working with the administration,

 have been sworn in as the Under Secretary                                          Congress and stakeholders to identify

 of Commerce for Intellectual Property                                              and implement those solutions.

 and Director of the United States Patent

 and Trademark Office and to lead this Agency during a time     In 2009, the Agency began to lay the groundwork for new

 of historic transformation.                                    measures to address our biggest challenge--dramatically

                                                                reducing the time it takes to process patent applications.
 As you know, the past year was a challenging one for the
                                                                Secretary of Commerce, Gary Locke, has directed the
 USPTO. The downturn in the economy showed us that the
                                                                USPTO to reduce first action pendency to 10 months and
 Agency is working with an outdated financial model. Due
                                                                overall pendency to 20 months. Shortening pendency time
 to decreased patent filings and maintenance fee payments,
                                                                is imperative to improve predictability and clarity in the
 the Agency found itself in a financial crisis and was forced
                                                                patent system.
 to freeze hiring, curtail mission critical programs, and cut

 back in key efforts relating to the Agency’s mission.          Our technological infrastructure has been neglected, threat-

                                                                ening the ability of the USPTO to drive future growth. We
 With the help of the Department of Commerce, the Office
                                                                need to implement a robust information technology system
 of Management and Budget and Congress, an insurance
                                                                capable of supporting all of the USPTO’s operations on a
 policy was put in place that would have allowed us to
                                                                continual basis, and capable of facilitating full electronic
 borrow from Trademark funds. Due to aggressive cost-
                                                                patent and trademark processing.
 cutting across the Agency, we ended the year without

 having to take unwanted measures such as borrowing




www.uspto.gov	                                                                                                                 3
M ESSAGE FROM THE DI RECTO R




                                                                           We are confident that the USPTO’s financial and perfor-
 “Today, the competition is keener; the challenge is
                                                                           mance data are complete, reliable, accurate, and consistent
 tougher; and that is why innovation is more
                                                                           as we improve our ability to measure progress toward our
 important than ever.”
                                                                           performance goals.     For the 17th consecutive year, we
 			                   -President Barack Obama
                                                                           earned an unqualified audit opinion on our annual financial

                                                                           statements. For FY 2009 financial reporting, the indepen-

     Although many of the financial forces are, to a large extent,         dent auditors did not identify any material weaknesses or

     beyond our control, we must nevertheless accomplish our               instances of non-compliance with laws and regulations.

     statutory mission to foster innovation and competitiveness.
                                                                           The employees at the USPTO have the talent, creativity and
     But despite the Agency’s financial challenges in FY 2009, the
                                                                           innovative spirit to produce tangible results for the American
     patent examining operations increased first action produc-
                                                                           people. I look forward to working with our employees and
     tivity by 10 percent while filings were slightly reduced. This
                                                                           the stakeholders in the intellectual property community to
     combination resulted in a small reduction in the overall
                                                                           ensure we have a USPTO and an IP system that drives
     backlog. Had the funding been available to continue hiring
                                                                           innovation, creates jobs and guarantees America’s
     and to allow overtime for patent examiners, that reduction
                                                                           competitiveness.
     in the backlog could have been much larger.


     The Trademark organization had challenges of a different

     nature. Lower application filings meant managing workflow

     and inventory while keeping pendency at appropriate levels

     consistent with stakeholder expectations. For the fourth              David J. Kappos
                                                                           Under Secretary of Commerce for Intellectual Property and
     year in a row, the Trademark organization met all of its
                                                                           Director of the United States Patent and Trademark Office
     goals, focusing on pendency, quality and e-government                 November 5, 2009
     efforts.




4	                                                                    PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
         2008
Certificate of Excellence
Management's
Discussion and
Analysis


                     performance




                                           vision

     innovation

                                   creativity
                  accountability
                  ac
Mission and Organization
of the United States
Patent and Trademark
Office (USPTO)

Mission

T    he USPTO’s mission is to foster innovation and competitiveness by:
●● Providinghigh quality and timely examination of patent and trademark
  applications

●● Guiding   domestic and international intellectual property policy

●● Delivering   intellectual property information and education worldwide

Intellectual property (IP) includes inventions or creations embodied in the form
of a patent, trademark, trade secret, or copyright. Creativity and innovation are
the wellspring of the nation’s economic growth. As far back as the founding of
the nation, the Constitution’s framers recognized that to promote innovation the
nation requires a robust intellectual property system. With the economy now
struggling, the American spirit of innovation is as essential as ever to creating jobs
and fueling our economic growth. Innovations in science and technology, in
particular, are crucial not just to stimulate growth, but also to maintain global
competitiveness over the long haul. The United States Patent and Trademark
Office is pivotal to the success of our innovators. In fulfilling the mandate of
Article 1, Section 8, of the Constitution, “to promote the progress of science and
the useful arts, by securing for limited times to authors and inventors the exclusive
right to their respective writings and discoveries,” the USPTO is on the cutting
edge of our nation’s technological progress and achievement.




8	                 PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
  Our Organization
  The USPTO is an agency of the United States within the      Advisory Committee. The USPTO has two major business
  Department of Commerce (DOC). The Agency is led by          lines: Patents and Trademarks, as shown in the organization
  the Under Secretary of Commerce for Intellectual Property   chart below. Headquartered in Alexandria, Virginia, the
  and Director of the USPTO who consults with the Patent      USPTO also has two storage facilities located in Virginia
  Public Advisory Committee and the Trademark Public          and Pennsylvania.




www.uspto.gov	                                                                                                              9
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




                                                                            As the clearinghouse for U.S. patent rights, the USPTO is an
                                                                            important catalyst for U.S. economic growth. Through the
                                                                            prompt granting of patents, the USPTO promotes the economic
                                                                            vitality of American business, paving the way for investment,
                                                                            research, scientific development, and the commercialization of
                                                                            new inventions. The USPTO also promotes economic vitality
                                                                            by ensuring that only valid patent applications are approved
                                                                            for granting, thus providing certainty that enhances competi-
                                                                            tion in the marketplace.

                                                                            The Trademark organization registers marks (trademarks, service
                                                                            marks, certification marks, and collective membership marks)
                                                                            that meet the requirements of the Trademark Act of 1946, as
                                                                            amended, and provides notice to the public and businesses of
                                                                            the trademark rights claimed in the pending applications and
  USPTO received the Most Innovative Campaign Technique award               existing registrations of others. The core process of the Trademark
  for the successful launch of the e-pledge system. 63% of all payroll      organization is the examination of applications for trademark
  donors used the new e-pledge process. The USPTO raised more than          registration. As part of that process, examining attorneys make
  $1,451,424 for charities, exceeding its goal of $1,346,500. 87.5% of      determinations of registrability under the provisions of the
  the USPTO employees contributed to the campaign. From left: Kenny         Trademark Act, which includes searching the electronic databases
  Lee, Mariam Hooks, and Bonita Royall.                                     for any pending or registered marks that are confusingly similar
                                                                            to the mark in a subject application, preparing letters informing
                                                                            applicants of the attorney’s findings, approving applications to be
The USPTO has evolved into a unique government agency. In                   published for opposition, and examining statements of use in
1991 – under the Omnibus Budget Reconciliation Act (OBRA) of                applications filed under the Intent-to-Use provisions of the
1990 – the USPTO became fully supported by user fees to fund                Trademark Act.
its operations. In 1999, the American Inventors Protection Act
established the USPTO as an agency with performance-based
attributes; for example, a clear mission statement, measurable
services and a performance measurement system, and known
sources of funding.

The Patent organization examines inventors’ patent applications.
Patent examiners compare the scope of claimed subject matter in
an application to a large body of technological information to
determine whether the claimed invention is new, useful, and
non-obvious. Patent examiners also provide answers on applica-
tions appealed to the Board of Patent Appeals and Interferences
(BPAI), prepare initial memoranda for interference proceedings
to determine priority of invention, and prepare search reports
and international preliminary examination reports for interna-                Technology Center (TC) 2400 Directors and Work Group
tional applications filed under the Patent Cooperation Treaty                 Managers. TC2400 is the newest of eight technology centers
(PCT). The patent process also includes performing an adminis-                and was created by combining the related technology areas of
trative review of newly filed applications, publishing pending                networking, multiplex communications, cable, and network
applications, issuing patents to successful applicants, and dissem-           security. Clockwise from bottom left: Lynn Field, Glenton
inating issued patents to the public.                                         Burgess, Jack Harvey, Timothy Callahan, Kristine Kincaid, and
                                                                              Valencia Martin-Wallace.




10	                                                                      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                 MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




In registering trademarks, the USPTO assists businesses in
protecting their investments, promotes quality goods and
services, and safeguards consumers against confusion and
deception in the marketplace. With notice readily available at
www.uspto.gov, a business can make an informed decision when
it wishes to adopt a new mark or expand the goods or services
marketed under an existing mark. Federal registration provides
enhanced protection for the owner’s investment in the mark and
in the goods and services sold under the registered mark.

Domestically, the USPTO provides technical advice and informa-
tion to executive branch agencies on IP matters and trade-related
aspects of IP rights. Internationally, the USPTO works with
foreign governments to establish regulatory and enforcement
mechanisms that meet international obligations relating to the
protection of IP.




Our People
                                                                    Commerce Secretary Gary Locke congratulates Under Secretary
                                                                    Kappos after he is sworn in on August 13, with his wife, Leslie
At the end of FY 2009, the USPTO work force was composed of         Kimball, holding the Bible.
9,716 federal employees (including 6,243 patent examiners, and
388 trademark examining attorneys).




                                                                    In celebration of the 50th anniversary of the integrated circuit,
                                                                    the National Inventors Hall of Fame 2009 Class of Inductees were
                                                                    all recognized for advances related to or enabled by integrated
                                                                    circuit technology. From left: George Heilmeier (liquid crystal
                                                                    display), John Macdougall (ion implementation), Ken Machester
                                                                    (ion implementation), Dov Frohman-Bentchkowsky (EPROM),
                                                                    Larry Hornbeck (digital micromirror device), and Alfred Cho
                                                                    (molecular beam epitaxy).




www.uspto.gov	                                                                                                                          11
Performance Goals
and Results

USPTO Strategic Plan


I
    n FY 2009, the USPTO continued to implement the 2007-2012 Strategic Plan
    that was formally released in March of 2007. The 2007-2012 Strategic Plan,
    along with an annual performance plan and report that are integrated with the
annual budget request, meet the requirements of the Government Performance and
Results Act (GPRA). These documents can be found at http://www.uspto.gov/about/
stratplan/index.jsp.

In support of the DOC’s strategic objective to “protect intellectual property and
improve the patent and trademark systems,” the USPTO established three strategic
goals and a management goal to guide its policies and operations. Together they
accomplish the mission of fostering innovation and competitiveness. These goals and
the related objectives, initiatives, and performance measures were established with a
focus on four guiding principles:

●● Quality—accurate     and consistent results in examination
●● Timeliness—processing     applications without undue delay
●● Cost-effectiveness—efficiency,     accountability, and a focus on results
●● Transparency—impartiality,      fairness, accessibility, availability, and a
  public-service mentality


The 2007-2012 Strategic Plan is an ever-changing document with the USPTO
continually reviewing, refining, and updating it to adjust to changing conditions, and
to incorporate the best thinking of the IP community and beyond. However, changes
have been limited to a refinement of the performance measures, as noted later in this
report, and minor changes to initiatives have been made. The overall framework,
including the mission, vision, strategic goals and objectives, has proven successful and
continues to drive the Agency in exceeding its statutory obligations. The USPTO’s
budget and performance plan, submitted to the Congress each year, document key
measurements and yearly milestones to justify the funding for the USPTO to achieve
its strategic goals.




12	             PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                       MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




Information related to achieving the Agency’s objectives for each of the goals is described in the following sections of this report.
Detailed information about the performance measures for each of the three strategic goals, including data verification and validation,
is included in the “Accompanying Information on USPTO Performance” section of this report.


                                                         2007-2012 USPTO Strategic Plan
                                                                           Mission
                     To foster innovation and competitiveness by:
                     ■■ Providing high quality and timely examination of patent and trademark applications
                     ■■ Guiding domestic and international intellectual property policy
                     ■■ Delivering intellectual property information and education worldwide

                                                                               Vision
                                 USPTO: Leading the World in Intellectual Property Protection and Policy

          Strategic Goal #1                       Strategic Goal #2                         Strategic Goal #3                      Management Goal
                                                                                  Improve Intellectual Property
 Optimize Patent Quality and             Optimize Trademark Quality and                                                    Achieve Organizational
                                                                                  Protection and Enforcement
 Timeliness                              Timeliness                                                                        Excellence
                                                                                  Domestically and Abroad
              Objectives                              Objectives                                Objectives                              Objectives
 ■■   Provide high quality               ■■   Achieve and maintain                ■■    Support efforts and initiatives    ■■   Function as true business
      examination of patent                   three-month first action                  aimed at strengthening IP               partners across the
      applications                            pendency, and reduce average              protection and curbing theft            organization to achieve
                                              total pendency excluding                  of IP                                   superior enterprise
 ■■   Improve and integrate
                                              suspended and inter partes                                                        performance and provide
      existing electronic systems                                                 ■■    Continue efforts to develop
                                              cases                                                                             strategic leadership
      to promote full electronic                                                        unified standards for
      patent application processing;     ■■   Improve quality of examination            international IP practice          ■■   Ensure operational
      implement better/more secure            by ensuring consistency and                                                       excellence in enterprise-wide
                                                                                  ■■    Provide policy guidance on
      systems                                 quality of searching and                                                          management processes
                                                                                        domestic IP issues
                                              examination, and provide
 ■■   Improve the quality and                                                                                              ■■   Dramatically simplify on-line
                                              internal on-line tools              ■■    Foster innovation and
      timeliness of patent                                                                                                      access to, and availability of,
                                                                                        competitiveness by delivering
      examination by exploring           ■■   Provide electronic file                                                           USPTO information and data
                                                                                        IP information and education
      a range of approaches to                management and workflow
                                                                                        worldwide
      examining applications
                                         ■■   Develop interactive on-line
                                              electronic filing capabilities
                                              and upgrade e-tools



                                                         Performance Measures by Goal
                Goal #1 Measures                                      Goal #2 Measures                                      Goal #3 Measures
 ■■   Patent allowance compliance rate                 ■■   Trademark final compliance rate                   ■■   Percentage of countries on the United
                                                                                                                   States Trade Representative (USTR) 301
 ■■   Patent in-process examination compliance         ■■   Trademark first action compliance rate
                                                                                                                   list, awaiting World Trade Organization
      rate
                                                       ■■   Trademark average first action pendency                (WTO) accession, or targeted by Office
 ■■   Patent average first action pendency                                                                         of Intellectual Property Policy and
                                                       ■■   Trademark average total pendency                       Enforcement (OIPPE) for improvements
 ■■   Patent average total pendency                                                                                that have positively amended or improved
                                                       ■■   Trademark applications processed
                                                                                                                   their IP systems
 ■■   Patent applications filed electronically              electronically
                                                                                                              ■■   Number of countries that implement at
                                                                                                                   least 75% of action steps which improve
                                                                                                                   IP protections in the joint cooperation,
                                                                                                                   action or work plans




www.uspto.gov	                                                                                                                                                    13
Strategic Goal 1: Optimize Patent Quality and Timeliness



H
        igh quality and timely examination of patent applications         Organization for Standardization (ISO) ISO 9001:2008. The ISO
        advances science and technology and creates the certainty         9001 standard is the most widely recognized and established
        innovators need in capital driven markets. The Patent             quality management system framework in the world.
organization is working closely with the public and its stake-
holders to find the best ways to ensure that the U.S. patent              All new patent examiners (588 this year) receive their initial
system continues to promote innovation and U.S. competitive-              training at the Patent Training Academy, which forms the founda-
ness in the global economy. The following are the requirements            tion for their careers as patent examiners. A solid foundation for
for achieving this goal and our accomplishments in FY 2009.               newly hired patent examiners is critical to their success in later
                                                                          years. The Academy provides a robust training program for
                                                                          newly hired patent examiners. The curriculum not only includes
                                                                          intensive patent examining training in lecture and laboratory
PROVIDING HIGH QUALITY AND REDUCING BACKLOG
                                                                          format, but also “soft-skill” courses. Upon graduation, patent
The Patent organization maintained a strong focus on quality and          examiners possess the necessary skills to quickly attain profi-
reduced the backlog of existing applications while exceeding all          ciency and technical competency. Receiving the ISO 9001 certi-
of its goals for the year.                                                fication demonstrates the Patent organization’s commitment to
                                                                          providing the best training services for new patent examiners
Quality training is the key to quality patent examination, which          and confirms that the Patent Training Academy has defined and
is a critical part of the USPTO’s strategic plan. The USPTO was           documented standards to ensure that processes are in place to
proud to announce this year that its Patent Training Academy              achieve consistent quality products and services.
received a certificate of registration for the International
                                                                          The successful implementation of the Patent Training Academy
                                                                          has enabled the hiring and training of large numbers of new
                                                                          examiners over the last several years. The growth and increasing
                                                                          experience and productivity of our examination workforce,
                                                                          combined with a slowdown in filings this year, enabled the
                                                                          Patent organization to begin reducing the size of the application
                                                                          backlog and to address growing patent pendency, which ended
                                                                          the year at 25.8 months from filing to first action and 34.6 months
                                                                          until issue or abandonment. However, electronic filings exceeded
                                                                          this year’s goal, reaching 82.5 percent of total filings. The Patent
                                                                          organization also achieved an allowance compliance rate of
                                                                          96.9 percent and an in-process compliance rate of 93.2 percent.
                                                                          These compliance measures assist with improving quality of
                                                                          products and services by using in-depth reviews of work.

  The Patent Training Academy received ISO 9001:2008 certifica-           As in past years, the USPTO was heavily involved in shaping IP
  tion. From left: John Doll, former Acting Under Secretary, Jin Ng,      law and policy through precedential decisions issued by the
  Director of the Patent Training Academy, and Peggy Focarino,            Agency’s Boards and through domestic litigation. The BPAI
  former Acting Commissioner for Patents.                                 issued numerous precedential and informative decisions on both
                                                                          substantive and procedural issues concerning patentability, the




14	                                                                    PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                        MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




  Patent Quality Performance — The in-process compliance
  rate is the percentage of applications reviewed during prosecution
  and prior to allowance that were found to be free of errors. The
  allowance compliance rate is the percentage of reviewed applica-
  tions allowed by examiners that did not have any errors.




                                                                         Former Acting Under Secretary John Doll and Elizabeth
                                                                         Dougherty speak with students and advisors at the For
                                                                         Inspiration and Recognition of Science and Technology (FIRST)
                                                                         Robotics Competition, which inspires students’ interest and
                                                                         participation in science, engineering, and technology.



                                                                       WORK SHARING
                                                                       The USPTO continues to work with the world’s major intellectual
                                                                       property offices to study, review and implement work-sharing
                                                                       efforts, such as the Patent Prosecution Highway (PPH). The PPH
                                                                       framework leverages fast-track patent examination procedures
                                                                       already available in the USPTO and other participating offices
                                                                       to allow applicants to obtain corresponding patents faster and
                                                                       more efficiently. It also permits each office to utilize the work
                                                                       previously done by the other office and reduce duplication. The
                                                                       results of the PPH programs have been promising, providing:

                                                                       ●● An overall grant rate for the PPH applications of close to
examination of patent applications, and the appeals process.             90 percent;
The BPAI’s precedential opinions help create consistent authority
to be followed in future BPAI decisions and in the Patent              ●● Average number of actions per invention for the PPH application
examining corps. Its informative decisions also have persuasive          approximately half that of other patent applications;
value and illustrate procedural and other norms for the benefit of
the public, the Bar, and the IP community as a whole. This year’s      ●● Faster   processing for PPH cases; and
decisions relate to current issues of concern to the IP community,
including obviousness, indefiniteness, patentable subject matter       ●● A decrease of approximately 20 percent in the number of
under 35 U.S.C. § 101, secondary considerations, and the require-        claims to be examined in the USPTO as compared to the
ments of an antedating affidavit. These decisions help to                average of non-PPH cases.
promote definiteness in claiming practice, and help form the
basis for determining patentable subject matter, as the Agency         Similarly, the Trilateral Strategic Working Group, which includes
implements recent guidance from the U.S. Court of Appeals for          the European Patent Office (EPO) as well as the USPTO and
the Federal Circuit and U.S. Supreme Court.                            Japan Patent Office ( JPO), is implementing related initiatives. In
                                                                       one pilot, when applications are filed in more than one office,
                                                                       the “Office of First Filing” gives the application precedence in



www.uspto.gov	                                                                                                                                 15
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




prosecution so that the “Office of Second Filing” can advanta-
geously utilize those work results on the corresponding applica-            Patent Pendency Performance — The two primary measures
tion. A search-sharing pilot has also been initiated, which will            of Patent organization processing are average first action
leverage the searching expertise of each of the Trilateral Offices          pendency (the time from filing to first action) and average total
by eliminating certain timing issues while at the same time                 pendency (the time from filing until the application is issued as a
providing both applicants and the Offices with the benefits of the          patent or abandoned by the applicant).
search results.



EXPLORING A RANGE OF OPTIONS TO ADDRESS
TIMELINESS CHALLENGE

While continued hiring of patent examiners is key to managing
increasing workloads, hiring alone is not the answer to the
growth of filings and complexity in the patent system. In fact,
the USPTO is exploring a range of innovative concepts to meet
the challenges the Agency faces.

The First Action Interview program is a pilot initiative in which
the applicant is entitled to a first action interview, upon request,
prior to the first office action determination on the merits. An
interview under this pilot program advances prosecution of the
application because it enhances the interactions between the
applicant and the examiner, provides the applicant the opportu-
nity to resolve patentability issues one-on-one with the examiner
at the beginning of the prosecution process, and facilitates
possible early allowance. Interviews early in an application’s
prosecution allow for better understanding of the claimed
invention and a speedy resolution of any unresolved issues.
This, coupled with reduced applicant response periods, should
reduce total pendency for the applications examined under this            Another notable program under way is the Accelerated
initiative. Based upon comments and suggestions from the                  Examination program. New patent applications are normally
public, including both participants and non-participants, the             taken up for examination in the order of their filing date. Under
Patent organization is expanding the First Action Interview pilot         the Accelerated Examination program, the Agency has a
to a variety of art areas, and is modifying the program to enhance        procedure for requesting accelerated examination under which
efficiency and provide more options to participants.                      an application will be advanced out of turn for examination if the
                                                                          applicant files a petition, with the goal of completing examina-
Further, the USPTO conducted a roundtable on February 12, 2009            tion within twelve months of the filing date of the application.
to gauge patent community and/or the public sector support for
the adoption of deferred examination. The Agency webcast the              Certain requirements have been established for the pilot program.
roundtable and invited written comments by any member of the              They include that: the application, petition, and required fees
public on the issues raised at the roundtable, or on any issue            must be filed electronically; at the time of filing, the application
pertaining to deferred examination. The USPTO extended the                must be complete and in condition for examination; and the
comment period until August 31, 2009, so that members of the              number of claims be limited. Additionally, the applicant must
public could submit additional comments, including replies to the         conduct a pre-examination search, provide an accelerated exami-
comments on deferred examination that the USPTO had already               nation support document, and be willing to participate in an
received and posted on the USPTO Web site.



16	                                                                    PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                    MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




 Patent Efficiency — The following metric measures the relative
 cost-effectiveness of the entire patent examination process over
 time, or the efficiency with which the organization applies its
 resources to production.




                                                                       Milestone design patent 600,000 issued on September 15, 2009,
                                                                       for the design of a battery system that works in conjunction with
                                                                       a solar briefcase that recharges the system using sunlight. Under
                                                                       Secretary Kappos was joined by Senator Orrin Hatch (R-Utah) to
interview to discuss the prior art and any potential rejections or     present a commemorative patent copy to Robert Workman, CEO
objections with the intention of clarifying and possibly resolving     of Goal Zero.
all issues with respect to patentability at that time.

The Accelerated Examination program benefits both the Agency         The pilot was conducted in cooperation with the Peer-to-Patent
and the applicant. In exchange for quick examination, examiners      Project, organized by the New York Law School’s Institute for
will receive more focused and detailed information about the         Information Law and Policy. It is currently showcased on the
invention and the closest prior art from applicants. The upfront     White House Web site as an example of how federal agencies are
disclosure by applicants will help examiners to more quickly         using transparent, participatory, and collaborative means to
make the correct decision on whether a claimed invention is          achieve their missions as part of the Administration’s open
patentable. The goal of the Accelerated Examination program is       government initiative.
to enable the applicant to receive a quality patent in less time.

In June 2009, the Agency moved into the evaluation phase of the        E-Filing of Patent Applications — Electronic filings
Peer Review Pilot program. Under the original program plan, the        increased from 2.2 percent in FY 2005 to 82.5 percent
pilot was scheduled to end in June 2008, but in the interest of        in FY 2009.
gathering data from a more diverse group of patent applications,
the USPTO extended the deadline last year by 12 months and
expanded the candidate pool to include applications in the Data
Processing: Financial Business Practice, Management, or Cost/
Price Determination technology. Under the pilot, the public
reviewed on a volunteered basis published patent applications
and submitted technical references and comments on the best
prior art to consider during the examination. Once all of the
pilot’s volunteered applications are examined, the USPTO will
publish a comprehensive report outlining the details, results, and
next steps.




www.uspto.gov	                                                                                                                             17
Strategic Goal 2: Optimize Trademark Quality and Timeliness



T
        rademarks have served an important purpose throughout               to evaluate examination quality at the stage applications are
        recorded history, as owners of goods and services put               approved for publication and ultimately registration – increasing
        their names on their products. In the 21st century, trade-          the number as well as the decisions that were subject to review –
marks represent valuable business properties, serving as the                demonstrating the high degree of quality that applies to the
symbol of a company’s good will and the products and services               majority of the determinations made by the Office. Advances
it offers. By registering trademarks, the USPTO has a significant           have also been made to enable more complete and accurate
role in protecting consumers from confusion as well as providing            filings. Specifically, the Trademark organization has made greater
important benefits to American business.                                    use of on-line tools and has improved the workflow process to
                                                                            better manage and track performance, improved training, and
For the fourth year in a row, the Trademark organization has met            increased the use of electronic filing, which contributed to better
and exceeded all of its performance targets.                                quality of application data and consistency in processing. The
                                                                            Trademark organization’s quality results are a reflection of the
                                                                            cumulative effects of seven years of emphasis on the same
                                                                            criteria for assessing examination quality.
IMPROVING QUALITY

Examination quality continued to demonstrate high levels and                In addition, the Trademark Trial and Appeal Board (TTAB) issued
sustained improvement. 96.4 percent of first actions and more               more than 50 precedential decisions on a wide variety of
than 97 percent of final decisions (approvals and rejections) met           substantive and procedural issues that arise in the ex parte
statutory and compliance rates for quality of decision making               examination of applications for registration of marks. These
and writing, a continuation of the highest levels ever achieved.            decisions provide guidance not only to the Agency’s trademark
In the past year, the measure for final compliance was expanded             examining attorneys, but also to trademark owners and those


  Trademark Quality Performance — In FY 2009, the measure for final compliance was changed and expanded to evaluate examination
  quality at the stage applications are approved for publication and ultimately registration – increasing the number as well as the decisions that
  were subject to review – demonstrating the high degree of quality that applies to the majority of the determinations made by the Trademark
  organization.




18	                                                                    PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                     MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




                                                                        Trademark Pendency Performance — The two primary
                                                                        measures of Trademark organization processing are average first
                                                                        action pendency (the time from filing to first action) and total
                                                                        average pendency (the time from filing until disposal).




  Deputy Commissioner for Trademark Operations Deborah Cohn
  opens the 2009 National Trademark Expo. The United States
  Air Force Band’s brass quintet along with 16 exhibitors and 25
  costumed characters were on hand to welcome guests to the expo.
  This year’s collection of costumed trademark characters was the
  largest in the history of the Expo.


attorneys that represent them before the Office. Further,
following deployment of revised rules of procedure for the
TTAB’s inter partes cases, the TTAB has issued numerous prece-
dential decisions highlighting and explaining the revised rules.
These include subjects such as the amended service requirement,
and the new obligations of parties in inter partes cases to confer-
ence, make disclosures, and consider stipulating to procedural
efficiencies. TTAB decisions covering these points have been
particularly helpful to trademark owners and the attorneys
representing them before the Office during the transition to full
deployment of these new rules of procedure.
                                                                      improvements in the management of resources. Increased use of
                                                                      electronic forms, particularly Trademark Electronic Application
IMPROVING TIMELINESS AND EFFICIENCY                                   System (TEAS) Plus filings, which represent 28.0 percent of new
First action pendency — the length of time between the receipt        application filings, and 31.0 percent of first action approvals have
of a trademark application and when the USPTO makes a prelimi-        improved the efficiency of examination, as well as contributed to
nary decision — was consistently maintained under three months        an increase in number of applications approved for publication.
every month throughout the fiscal year. This is an unprecedented      Electronically filed TEAS Plus applications are disposed and
achievement, and the fourth year in a row that pendency has           registered on average within 9.2 months, whereas those filed on
been maintained at three months or less. Average total pendency       paper average 17.3 months, or 89.0 percent, longer.
also showed significant sustained improvement with disposal or
registration occurring within 11.2 months from filing.                The Trademark organization has continued to make process
                                                                      changes to streamline the examination and post examination
Pendency has improved as electronic processing and filing have        process, reduce costs, and lower disposal pendency. Inventories
become the primary means of conducting business within the            of new applications have been carefully managed in order to
Trademark organization. The production process has improved           ensure sufficient flow of work and consistent first action
and has become more consistent on a monthly basis due to              pendency given the decline in application filings. Production



www.uspto.gov	                                                                                                                              19
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




 Trademark Efficiency — This following metric measures the
 relative cost-effectiveness of the entire trademark examination
 process over time, or the efficiency with which the organization
 applies its resources to production.




                                                                           The 2009 National Trademark Exposition held at the USPTO
                                                                           campus May 8 and 9, highlighting the importance of trademarks
                                                                           in the global economy. The Expo features educational workshops,
                                                                           themed displays, costumed characters, and company booths.
                                                                           Expo team leaders (from left): Trademark examining attorneys
                                                                           Carol Epils, Giselle Agosto, Lana Pham, and Nancy Clarke.
incentive awards were curtailed due to lower filings, reducing
operation costs. Processing times have continued to decrease
between the time for approval for publication by the examining           ●● 86percent of all eligible Trademark employees are working
attorney, publication in the Official Gazette, and registration.           from home at least one day per week; and
Process changes for preparing registration certificates that were
                                                                         ●● 72percent of all Trademark employees now telework at least a
implemented in the last quarter of FY 2009 will further reduce
processing costs and time frames. Incremental process improve-             part of their work week.
ments have had a direct and positive impact on improving
efficiency and reducing and maintaining average total pendency           In the past year, three new pilot programs were established to
to a historical low.                                                     provide work-at-home opportunities for employees in the
                                                                         Examination Support Unit (ESU), the Intent-To-Use/Divisional
                                                                         Unit (ITU), and Pre Examination. As a result, programs exist
                                                                         throughout the organization to expand the number of employees
STRENGTHENING RELATIONSHIPS
                                                                         and functions supported by telework.
The USPTO hosted the Trademark Expo that was attended by
more than 7,000 over a two-day period. The event was designed            The Trademark organization continued programs for a second
to spotlight the vital role trademarks play in the national and          year in support of the Trademark Human Capital Strategic Plan.
global economy. Three seminars were conducted covering “Anti-            The Trademark Plan, which was developed to further the
counterfeiting;” “Trademarks 101,” that is, basic information about      objectives of the Office of Personnel Management Federal
trademark law and Intellectual Property; and “What Every Small           Human Capital Strategic Plan, has shown results. Seven teams
Business Must Know About Intellectual Property.” The Expo was            have continued work on programs and training in support of the
supported by 14 businesses that helped sponsor this year’s               three “human capital” objectives of talent management, results-
successful event.                                                        oriented performance culture, and leadership and knowledge
                                                                         management. Progress has been made on specific programs and
The Trademark organization continues to improve upon its                 actions that support the objectives that include:
successful telework program through the continued expansion of
telework opportunities and by expanding the use of remote                ●● Hiring   to retain a highly qualified diverse workforce;
access and collaboration tools:
                                                                         ●● Improving    training opportunities;
●● 85percent of eligible examining attorneys work from home
                                                                         ●● Expanding    and improving the Telework Program;
  nearly full time;



20	                                                                   PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                       MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




                                                                      The Trademark organization continues to make progress in its
  Trademark Applications Processed Electronically — This              long-term goal to replace manual, paper-based processes with a
  measure reports the percentage of trademark applications that       fully electronic operation. Progress has continued with the imple-
  were filed, processed, and disposed relying completely on elec-     mentation in Post Registration of the electronic docketing system
  tronic systems and communications. This measure replaced the        known as the First Action System for Trademarks (FAST).
  electronic filing target which has been achieved.                   Additional features were added to support evaluation of
                                                                      examining attorney actions and use of standard form paragraphs
                                                                      for preparing office actions. The implementation of FAST for
                                                                      processing post registration requirements extends electronic
                                                                      docketing and file management tools, which include the routing
                                                                      and assignment of new work, and monitoring of cases in process
                                                                      beyond the core examination operation. This system significantly
                                                                      improves the processing and management of applications as well
                                                                      as providing access to on-line production reports to monitor the
                                                                      status of individual performance.

                                                                      To further improve the functionality of electronic filing, the
                                                                      USPTO has redesigned the TEAS page in an effort to present
                                                                      clearer categories for different filings and better explanations,
                                                                      and releasing additional forms and enhancements for existing
                                                                      TEAS forms. A new concept was introduced for filing of any
●● Ensuring
          performance appraisal plans have measurable                 trademark document for which a TEAS form is not currently
  performance standards that align with the Agency goals;             available. The new “global” form provides options to identify the
                                                                      type of document being filed by selecting from a drop-down list
●● Maximizing awareness and use of incentive awards and               and then uploading a document in either the JPG or PDF format
  recognition programs; and                                           containing the matter being filed. This approach provides the
                                                                      same following benefits of a TEAS filing:
●● Improving   internal and external communications.
                                                                      ●● Electronic   confirmation of receipt at the USPTO;

                                                                      ●● Entry of the appropriate prosecution history label in the
PROVIDING E-MANAGEMENT AND E-TOOLS
                                                                        Trademark Reporting and Monitoring (TRAM) database (viewable
A new performance measure was created to address the major              externally in the Trademark Application and Registration
USPTO strategic challenge to complete full electronic workflow          Retrieval (TARR) system);
and file management for receiving and processing trademark
applications and related documents. This new measure,                 ●● Upload for viewing in the Trademark Document Retrieval
“Applications Processed Electronically,” reports the percentage of      (TDR) system; and
trademark applications that were filed, processed, and disposed
of relying completely on electronic systems and communications.       ●● Automatic    routing to the proper work unit.
The target was set at 62.0 percent for electronically processing
applications that were disposed. The result by the end of the first   Use of the “global” form will not result in an automated upload
year was 62.0 percent. This measure demonstrates the extent the       of data into the USPTO databases, which is one of the primary
Trademark organization has electronic systems in place and its        benefits of true electronic filing. The USPTO views the “global”
ability to encourage applicants to conduct correspondence             form approach as an interim step until specific TEAS forms are
electronically. This measure replaced the electronic application      developed.
filing performance measure which has been achieved with
97.8 percent of Trademark applications filed electronically.




www.uspto.gov	                                                                                                                                21
Strategic Goal 3: Improve Intellectual Property Protection and
Enforcement Domestically and Abroad



T
       he USPTO plays a leadership role in promoting effective        PROTECTING IP AND CURBING IP THEFT
       domestic and international protection and enforcement of       During FY 2009, the USPTO continued to improve the enforce-
       intellectual property rights (IPR) by advocating U.S.          ment of IP rights in the United States and around the world. The
Government IPR policy, working to develop unified standards for       USPTO supported the Office of the U.S. Trade Representative
international IPR, providing policy guidance on domestic IPR          (USTR), Department of State, and other U.S. Government
issues, and fostering innovation. The USPTO advises the               agencies in international negotiations and consultations
President and Federal agencies on national and international IPR      throughout the year. Attorneys from the USPTO assisted with the
policy matters and trade-related aspects of IPR, and conducts         drafting, reviewing, and implementation of IP obligations in
technical assistance and capacity-building programs for foreign       bilateral and multilateral treaties and trade agreements, such as
governments seeking to develop or improve their IPR regulatory        Oman’s implementation of its Free Trade Agreement (FTA)
and enforcement mechanisms.                                           commitments, and ongoing review of Malaysia’s IP regime. In
                                                                      addition, the USPTO also continued to participate in the ongoing
                                                                      negotiations to establish an Anti-Counterfeiting Trade Agreement,



                                           Foreign postings of ip experts




22	                                                                PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                   MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




a state-of-the-art agreement to combat counterfeiting and piracy,    IP Offices participating in the programs to work toward stream-
which is intended to assist in the efforts of governments around     lining procedures. Two Heads of Offices meetings and one
the world to more effectively combat the proliferation of coun-      technical level meeting were conducted to advance progress in
terfeit and pirated goods.                                           this area. The PPH framework is an important step toward the
                                                                     goal of maximizing reutilization of work done by other offices.
The USPTO’s IP experts and their teams posted at American
embassies in key locations around the world continued to             The USPTO, as a member of the World Intellectual Property
develop long-term and direct working relationships with foreign      Organization (WIPO), deposited its instrument of ratification of
government agencies and the private sector. They also delivered      the Singapore Trademark Law Treaty with the WIPO. The
targeted capacity-building programs for foreign officials and        Singapore Treaty updates and improves the WIPO Trademark
continuously pressed for stronger legal frameworks for IPR           Law Treaty (TLT) of 1994 that harmonizes formalities and
protection, improved IPR enforcement, greater certainty for U.S.     simplifies procedures for registering and renewing trademarks.
innovators and creators, and enhanced public awareness and           The Treaty modernizes some aspects of the earlier TLT and
support for IPR.                                                     allows national Trademark offices to move to an entirely
                                                                     electronic system for trademark application and processing
As part of the Administration’s Strategy Targeting Organized         while, at the same time, preserving the rights of developing
Piracy (STOP!) initiative, the USPTO advanced work with other        countries to maintain paper systems.
U.S. Government agencies to fight piracy and counterfeiting. As
part of STOP!, the USPTO continued managing a hotline that           The USPTO engaged in fruitful multilateral cooperation with its
helps small and medium-sized businesses leverage U.S.                Trademark Trilateral partners, namely, the JPO and the European
Government resources to protect their IP. The USPTO responded        Union’s Office for Harmonization in the Internal Market (OHIM).
to 723 STOP! hotline calls in FY 2009.                               The Trademark Trilateral continues to negotiate an ever expanding
                                                                     list that identifies goods and services that can be used by
                                                                     trademark applicants filing trademark applications in any of the
WORKING TO UNIFY INTERNATIONAL IP PRACTICE                           three offices. Additionally, the Trademark Trilateral partners
                                                                     entered into an agreement with the Canada Intellectual Property
Multilateral efforts
                                                                     Office, allowing the latter to participate in the identification
The USPTO continued meeting with the world’s five largest patent     project. Finally, the partners continue to exchange information
offices, including the EPO, the JPO, the Korean Intellectual         about best practices in trademark operations.
Property Office (KIPO), and the State Intellectual Property Office
(SIPO) of the People’s Republic of China and within the Trilateral
                                                                     Bilateral Efforts
cooperation framework of USPTO, EPO, and JPO to advance
progress on cooperative work sharing initiatives and to develop      The USPTO established cooperative agreements with other IP
foundation tools to support work sharing. A series of meetings       offices and organizations for increased technical cooperation.
throughout the year resulted in an agreed implementation strategy    Agreements were signed with the State Administration for
for moving forward on developing the foundation support tools,       Industry and Commerce and the National Copyright Administration
as well as, increased emphasis on work sharing activities.           of China to establish bilateral frameworks to improve effective-
                                                                     ness of IP systems through the exchange of information, best
The USPTO increased the number of work sharing partnerships          practices, and participating in trademark and copyright technical
with other intellectual property offices. The USPTO and the          capacity building activities. An agreement was signed with SIPO
Korean Intellectual Property Offices implemented the PPH on a        for reviewing the possibility of establishing patent-related work
full-time basis leveraging fast-track patent examination proce-      sharing initiatives and to develop foundation support tools to
dures available in both Offices to allow applicants in both          facilitate work sharing. The USPTO and the United Nations
countries to obtain corresponding patents faster and more effi-      Economic Commission for Europe (UNECE) signed an agreement
ciently. The USPTO also implemented pilots with the IP Offices       to conduct joint capacity building programs and activities for
in Denmark, Germany, Singapore, and Finland bringing the             government officials and rights owners in UNECE member states
USPTO’s total number of PPH work sharing programs to 10. The         on protecting commercialization and for enforcement of intel-
USPTO and the JPO worked collaboratively to bring together the       lectual property rights.



www.uspto.gov	                                                                                                                            23
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




  International Policy Efforts — Measures the results of OIPPE
  engagement to moving toward improving IP systems worldwide.
  They focus on FTA negotiations and implementation, WTO acces-
  sions, 301 reviews, trade policy reviews, technical assistance,
  expansion of foreign postings, work details of USPTO employees to
  other U.S. Government agencies, as well as development of specific
  plans for strategic cooperation; for example, the work plans with
  China, Egypt, India, Brazil, and Association of Southeast Asian
  Nations (ASEAN).




                                                                                                  Representative Jim Moran (D-VA) spoke to the graduating class of
                                                                                                  the Patent Examiner Training Academy on January 26.


                                                                                                GIVING DOMESTIC IP POLICY GUIDANCE
                                                                                                Proposed patent reform legislation continued to be an important
                                                                                                subject of consideration in the first session of the 111th Congress.
                                                                                                As in previous Congresses, the proposed legislation is intended
                                                                                                to improve patent quality, reduce patent litigation costs, and
                                                                                                further the international harmonization of patent laws. The
                                                                                                USPTO monitored, analyzed and provided technical assistance
                                                                                                within the Administration and to Congress on patent reform
                                                                                                legislation and various other patent, trademark, and intellectual
                                                                                                property-related legislation during the year. These included bills
                                                                                                to: expand telework opportunities within the Federal govern-
                                                                                                ment and specifically within the USPTO; establish a 10-year pilot
                                                                                                program in select district courts to enhance judges’ expertise in
                                                                                                patent cases; require broadcast radio stations to pay royalties to
                                                                                                musicians for use of their works; and promote the availability of
                                                                                                biosimilar drugs.

                                                                                                Consistent with the USPTO’s efforts to educate decision makers
                                                                                                and create outreach opportunities on IP matters, the Office of
                                                                                                Governmental Affairs (OGA) organized and participated in a
                                                                                                congressional staff delegation to Geneva, Switzerland, in
  *	 New outcome-oriented performance measures that replaced previously reported measures.      February 2009. Participants included House and Senate Judiciary
                                                                                                Committee staff who met with IPR attachés and WIPO officials
                                                                                                to discuss and learn about IPR, anti-counterfeiting, and anti-
Additionally, the USPTO and the JPO signed an agreement to                                      piracy initiatives from a European perspective. In addition, the
enhance the existing priority document exchange service                                         OGA coordinated visits to congressional offices by USPTO IP
between the two Offices. The USPTO and the KIPO continued                                       attachés, stationed in critical areas throughout the world, to
actions to promote work sharing among the two Offices in accor-                                 discuss the nature, importance, and success of the IP attaché
dance with their signed cooperative agreement.                                                  program.




24	                                                                                          PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                         MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




Members of Congress continue to express a strong interest in
USPTO operations and employees. The OGA launched a
successful new outreach program that brings members of
Congress to speak at the Patent Academy graduations.
Representatives Jim Moran (D-Virginia) and Darrell Issa
(R-California) spoke at the Academy graduations in January and
March 2009, respectively. Other speaking engagements included
local Representative Jim Moran as the keynote speaker at the
opening ceremonies of the USPTO Trademark Expo in May
2009. Representative Joseph Cao (R-Louisiana) and Maryland
State Delegate Susan Lee spoke at the Annual Asian Pacific
Heritage Celebration held at the USPTO in May 2009.
                                                                            The USPTO received the 2009 Tele-Vision Award from the Telework
Briefings were also conducted for the Chairman and Ranking                  Exchange, a public-private partnership focused on eliminating
Member of the House Judiciary Committee on progress relating                gridlock. USPTO’s Office of General Law Telework Program was
to a USPTO-commissioned study, launched in October 2008, to                 recognized in the “Best Use of Innovation and Technology to
review the assumptions the Agency uses to establish production              Support Telework” category. Accepting the award were Tracy
goals for patent examiners. USPTO officials also provided                   Burns, Jennifer McDowell, Michael Lewis, James Toupin, William
briefings for Congressional staff on the Strategic Plan, captioned          Covey, Rachel Irish, and Roderick McCracken.
the “Information Technology Roadmap,” for the improvement of
the Agency’s information systems.
                                                                          Court has granted certiorari (review of a decision of a lower
The USPTO continues to heavily shape IP law and policy through            court) in this case – making it the first time in over 30 years that
domestic litigation and the decisions of its boards: the TTAB and         the Supreme Court has considered the issue of patent-eligibility.
the BPAI. The Agency’s litigation responsibilities fall primarily on      The USPTO will be assisting the Solicitor General in defending
the USPTO’s Office of General Counsel (OGC), which defends                the Federal Circuit’s decision. The Supreme Court is expected to
the decisions of the Agency’s administrative boards as well as the        issue a decision sometime in 2010. The USPTO is currently in
Agency’s rule making and policies in court. The OGC also                  the process of drafting guidelines to implement the Bilski
advises the Solicitor General of the United States on IP matters          decision and to address any issues left open by the court.
before the U.S. Supreme Court. Further, the BPAI and TTAB
issued in excess of 60 decisions on a wide variety of topics,             Another landmark IP policy case was In re Kubin. The Kubin
affecting both Agency practice and substantive law of patent              case considered whether knowledge of the structure of a
applications and trademark registration.                                  protein along with general methods of cloning and sequencing
                                                                          DNA render obvious – and thus unpatentable – claims to a
On the IP policy front, OGC has urged the U.S. Court of Appeals           DNA-encoding the protein. The Federal Circuit acknowledged
for the Federal Circuit to clarify the standards for patent-eligibility   that the Supreme Court further developed the “obvious to try”
under 35 U.S.C. § 101 in a series of important cases over the past        standard for obviousness in KSR v. Teleflex that it previously
several years. One recent case, In re Bilski, considered the metes        rejected in In re Deuel. Applying that standard, the Court
and bounds of patent-eligibility for process inventions – the             affirmed the USPTO’s rejection. Thus, Kubin represents an
number and type of which has greatly expanded with the success            expansion of the Federal Circuit’s obviousness precedent
of the Internet. Given the magnitude of the question raised in            post-KSR.
Bilski, the Federal Circuit decided to hear the case en banc. The
court’s decision specifically adopts the test for a patent-eligible       On the Agency rule-making front, OGC defended the USPTO’s
“process” recommended by the USPTO: that a patent-eligible                new regulations regarding patent claims, requests for continued
process must either be implemented by a machine or transform              examination, and continuation applications in Tafas v. Dudas.
subject matter into a different state or thing. The U.S. Supreme          The Federal Circuit panel that originally heard the case concluded




www.uspto.gov	                                                                                                                                  25
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




                                                                           six schools selected to participate in the pilot. Two schools held
                                                                           a summer 2009 clinic with a total of 12 students practicing over
                                                                           the shortened summer session. On behalf of the law school
                                                                           clinic’s clients, the students filed a total of 37 trademark applica-
                                                                           tions and 10 patent applications. The Law School Pilot program
                                                                           is scheduled to continue through the spring of 2010.



                                                                           DELIVERING IP EDUCATION WORLDWIDE

                                                                           The USPTO Global Intellectual Property Academy (GIPA) was
                                                                           established in 2006 and offers capacity building programs in the
                                                                           United States and around the world on IPR protection, enforce-
  Under Secretary Kappos meets for the first time with officials from
                                                                           ment, and capitalization. Capacity building programs are offered
  the Government of India to discuss work under a Memorandum
                                                                           to patent, trademark, and copyright officials, judges, prosecutors,
  of Understanding on Bilateral Cooperation on IPR between USPTO
                                                                           police, customs officials, foreign policy makers, examiners, and
  and India’s Department of Industrial Policy and Promotion.
                                                                           rights owners. In delivering capacity building programs, GIPA
  From left: Under Secretary Kappos; Ambassador of India to
                                                                           works closely with other U.S. Government agencies, trading
  the United States, H.E. Ms. Meera Shankar; and Ajay Shankar,
                                                                           partners, international organizations, and rights holders. Through
  Secretary, Department of Industrial Policy and Promotion.
                                                                           GIPA programs, foreign officials learn about international IP obli-
                                                                           gations and norms, and are exposed to a U.S. model of protecting
that the USPTO’s rules are within the Agency’s rule making                 and enforcing IPR and discussion of IP issues in a collaborative
authority. The panel also concluded that the rules regarding               learning environment.
requests for continued examination, claims, and examination
support documents are consistent with the Patent Act, but that             In 2009, the GIPA provided training to more than 2,226 officials
the rule regarding continuation applications conflicts with the            from 128 countries on a variety of topics, including IP protection
Patent Act. Nonetheless, the Federal Circuit recently vacated the          and enforcement, and technology transfer.
panel’s decision and decided to hear the case en banc.
A decision by the en banc court is expected in 2010.                       The GIPA also initiated a new pilot program exposing patent
                                                                           officials from other countries to the USPTO Patent Training
The Agency, through its OGC, has an interest in law schools                Academy’s patent examiner training program. The six-month
helping to support young lawyers in gaining experience in                  long International Examiners in Residence (IEIR) Program
USPTO practice. Therefore, OGC launched a two-year pilot                   included most of the Patent Training Academy’s new examiner
program in the fall of 2008, during which time six law school              training curriculum. In addition, the IEIR covered other IP topics,
clinical programs with an Intellectual Property (IP) specialization,       such as copyright, trademark, and enforcement issues. In order
selected through a competitive process, are participating in the           to provide a full perspective of the U.S. IP system, the IEIR also
pilot. Each IP Law School Clinical program is required to meet             included visits to the BPAI, the Federal District Court of the
and maintain certain requirements for USPTO certification in               Eastern District of Virginia, the Court of Appeals for the Federal
order for student practitioners to practice before the Office. For         Circuit, and the Supreme Court to witness oral hearings at each
example, each school must have a Law School Clinic Faculty                 of these judicial proceedings. Eight patent examiners in various
Supervisor who is authorized to practice before the Office and             technologies from the patent offices in China, Germany, Korea,
agrees to supervise the clinic students in their filing and prosecu-       and Saudi Arabia participated in the pilot program.
tion of applications before the Agency.
                                                                           GIPA also conducted a two-week long advanced trademark
The Law School Clinical Certification Pilot Program (Law School            examination program for 16 examiners from the IP Offices in
Pilot) launched its inaugural semester in the fall of 2008. Over           Brazil and India. The program provided the senior examiners
the fall 2008 and spring 2009 semesters, the Law School Pilot had          with an in-depth analysis of the U.S. approach to the examination
between 45 and 50 students practicing in the program from the              of trademark applications. One participant remarked,



26	                                                                     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                     MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




     “I was impressed with the USPTO staff...They were
     always very attentive, friendly and willing to help. The
     teachers, all super-prepared, were able to transmit the
     entire contents of the program in a dynamic way,
     alternating lectures, roundtable and simulations of
     situations that occur daily at the PTO…The content of
     the course provided are already of great value here
     [Brazil].”

In the area of enforcement, the GIPA organized and hosted two
joint Asian-Pacific Economic Cooperation (APEC) - Association of
South East Asian Nations (ASEAN) - Pacific Island Forum (PIF)
capacity building events, namely, the Colloquium for Public
Prosecutors and the Judiciary on IPR Enforcement in Kuala              Officials from the Russian Federal Service for Intellectual Property,
Lumpur, Malaysia, and the Workshop on the Border Enforcement           Patents, and Trademarks (Rospatent) visited the USPTO on
of Intellectual Property Rights in Honolulu, Hawaii. GIPA also         September 30, to gather information about designing and devel-
conducted a successful two-week study tour program on IPR              oping a telework program for their examiners.
enforcement and the U.S. legal system for 23 foreign government
judges and prosecutors. These are just a few examples of the
wide range of GIPA programs the USPTO delivered both in the          Products Association (NAMM) tradeshow where they discussed
United States and overseas during the past year.                     patent, trade secret, trademark, and copyright protection and
                                                                     enforcement, and provided information about U.S. Government
In FY 2009, the USPTO developed and produced GIPA’s new              and other resources to help U.S. right holders protect their IP.
Distance Learning Modules, a new method for delivering IP
education, which provide presentations addressing the basics of      The USPTO continued its relationships with Federal agencies that
trademarks, geographical indications, patents, copyright, enforce-   share the goal of bringing awareness of IPR to SMEs. Under a
ment, and trade issues, as well as information on international      2008 memorandum of understanding between the USPTO and
standards and the U.S. experience. The modules will be available     the Minority Business Development Agency (MBDA), the USPTO
on-line to anyone who wishes to access them, and include a           delivered IP-related presentations for regional directors of
video presentation and an accompanying PowerPoint presenta-          business centers and operated an IP information booth at an
tion on each topic. The Distance Learning Modules will also be       MBDA trade event. The USPTO has also worked with the
accessible in a number of foreign languages, including Arabic,       Department of the Interior’s Indian Arts and Crafts Board (IACB)
French, and Spanish.                                                 since 2005 to help improve understanding of and appreciation
                                                                     for IP among Native American artists and craftspeople. In
While every IP-based business is vulnerable to counterfeiting and    addition to providing numerous presentations for these groups,
piracy, small businesses can be at a particular disadvantage         the USPTO is also working with IACB to revise its informational
because they lack the resources and expertise available to larger    brochure on IP.
corporations. Small businesses also often lack the familiarity
with the process of protecting IP. This year, the USPTO offered
free programs and materials to help subject matter experts
(SMEs) improve their understanding of IPR, increase the value of
IP in their businesses, and to protect against counterfeiting and
piracy. For example, in conjunction with the Trademark Expo at
the USPTO’s headquarters in Alexandria, Virginia, the USPTO
offered SMEs very well-received seminars on “What Every Small
Business Must Know About Intellectual Property (The Top 13
Mistakes that YOU May Be Making).” The USPTO also provided
experts to staff trade shows, such as the International Music



www.uspto.gov	                                                                                                                              27
Management Goal: Achieve Organizational Excellence



F
      ulfilling the USPTO’s mission and goals requires strong lead-
      ership and collaborative management. While the three
      strategic goals focus on the core mission, the management                                                    USPTO’s Chief
goal focuses on the organizational excellence that is a prerequi-                                                  Administrative
site for achieving those goals. Collectively, the USPTO leadership                                                 Officer Stephen Smith
is responsible for core management activities in these critical                                                    conducted a two-day,
areas.                                                                                                             on campus retreat
                                                                                                                   with key leaders from
                                                                                                                   the offices of Human
Working as Partners for Superior                                                                                   Resources, Corporate
Performance                                                                                                        Services, and Civil
                                                                                                                   Rights to develop a
During FY 2009, USPTO business units worked as true partners                                                       forward looking frame-
across the organization to achieve superior performance and                                                        work for improving the
provide strategic leadership, as follows:                                                                          quality of services to
                                                                                                                   USPTO employees.
Human Capital — Human Capital Implementation Plans were
developed by business units to carry out the Agency’s Human
Capital Strategic Plan by developing initiatives, programs, and            Customer Service process and the Conference Services process.
training in support of the three “human capital” objectives of talent      Additional efforts are anticipated to continue into the future.
management, results-oriented performance culture, and leader-              Improved processes within OCAO yield improved morale and
ship and knowledge management. The 2008 Federal Human                      greater efficiencies for the Agency. They also help USPTO
Capital Survey (FHCS) results were shared with each business               employees to maintain their focus on the Agency’s mission.
unit. Although the overall survey results were very favorable and
show an improvement over the 2006 survey, there are areas that             EXPANSION OF TELEWORK — The USPTO is still considered
need attention. The Office of Human Resources (OHR) continues              a leader in Federal telework programs and several outside
to coordinate with business units on the implementation of their           organizations continue to rate our program as the best. This year
Human Capital plans and share best practices, lessons learned,             the USPTO expanded its telework population to 5,068, translating
and challenges for the future. The Business Units are in the               to 81.3 percent of eligible positions that are teleworking.
process of developing human capital action plans to address the
top ten challenges from the 2008 FHCS results.                             DIVERSITY — Skillful EEO management is critical to organizational
                                                                           excellence. The Office of Civil Rights (OCR) works closely with
PROCESS IMPROVEMENT — To continue to strive for organizational             the OHR to develop a comprehensive diversity recruitment
excellence, the Office of the Chief Administrative Officer (OCAO)          strategy. This year, the OCR created a cross-trained team as an
implemented a Lean Six Sigma Process Improvement Program.                  entry point to customer services. This team is charged with rapid
This program has resulted in significant improvements to                   resolution of both EEO complaints and disability accommodation
the Facilities Help Desk process and the Equal Employment                  requests. The OCR continued to promote the Agency’s efforts
Opportunity (EEO) Dispute process. Presently, the program is               to increase the diversity of the workforce. Notably, the USPTO
focused on improving processes related to the Human Resources              has one of this highest Asian-American representation rates in



28	                                                                     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                    MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




Government. Over 20 percent of the Agency’s total workforce is       the orientation process was critical since it often contributes to
Asian. In addition, the OCR led Black History; Hispanic Heritage;    an employee’s first impression of the Agency. By improving
and Lesbian, Gay, Bisexual, and Transgender observations.            the exit process, the OHR is now able to target and evaluate
The OCR remains proactive in preventing discrimination and           the most common reasons why employees leave the USPTO,
harassment by providing training to all new hires and many of        and in turn, look at ways to reduce attrition. OHR held many
the Agency’s new managers.                                           successful OHR on Wheels events where they take OHR services
                                                                     out to our customers. Positive feedback has been received about
SAFE WORKPLACE ENVIRONMENT — The USPTO continually                   each of these areas of improvement. Additionally, our careers
aims to create a workplace environment that is modern, safe,         Web site (www.usptocareers.gov) was recognized by the Web
secure, attractive, and energy efficient. In FY 2009, the Agency’s   Marketing Association for Outstanding Achievement in Web site
emergency preparedness program was enhanced by the rollout of        Development. This Web site was designed to provide a realistic
several new and proactive initiatives including our Continuity of    job preview that clearly and simply describes the type of work
Operations Plan (COOP) computer-based training. The USPTO’s          and the challenges of the job. It also markets the USPTO as an
COOP plan was expanded to include a Pandemic Annex;                  employer of choice.
lockdown and shelter-in-place drills which were successfully
conducted in all buildings; and an Emergency Preparedness/           FEE MANAGEMENT — The current fee structure establishes
Occupant Emergency Plan webcast that was broadcast to                relatively low filing fees to encourage entry into the patent
all employees. To further support emergency preparedness,            process, with the cost of examination heavily subsidized by
COOP-related tabletop exercises were held with Business Unit         patent issuance and maintenance fees. These substantially higher
COOP managers, Emergency Response Group personnel, and               fees are paid later in the process by those who are successful in
Reconstitution Team members.                                         obtaining patent rights and who wish to maintain those rights
                                                                     for the full patent term. The public policy behind this approach
In response to an expiring lease at the South Tower Building in      has been the view that by keeping financial barriers to entry low,
Crystal City, Virginia, the USPTO also completed the design and      inventors of all economic means can share their innovations with
interior construction of the Randolph Square Building in nearby      the public by filing patent applications.
Arlington, Virginia, accepting 160,000 square feet of new office
space exclusively for USPTO personnel. The nine-story building       The USPTO is conducting a study and analysis of the fees
features distinctive architecture and interior design, including     charged for providing products and services under the current
a two-story entry lobby, with historical patent representations      fee schedule. This review will provide recommendations for
inscribed on the walls of each floor to signify the space as being   altering the fee schedule to encourage innovation, while enabling
uniquely for the USPTO.                                              the USPTO to provide high quality and timely examination of
                                                                     patent and trademark applications. Certain fees are established
In response to the national call to conserve energy resources,
                                                                     to recover, on average, the full costs of providing products and
the USPTO embarked on a number of new green initiatives,
                                                                     services, whereas the major patent processing fees have been
including the launching of an internal Web site dedicated to
                                                                     established in statute. A review of full costs related to PCT
helping employees achieve more sustainable lifestyles at both
                                                                     International transmittals and searches resulted in adjustments to
work and home, as well as the Agency’s first-ever “Green Fair”
                                                                     those fees during the fiscal year.
featuring a broad range of exhibitors from both local and Federal
organizations attended by more than 1,000 employees.
                                                                     The USPTO is continuing an effort to modernize the Revenue
                                                                     Accounting and Management (RAM) system, a mission-critical fee
                                                                     collection system that provides automated support and controls
ENSURING EXCELLENCE IN MANAGEMENT PROCESSES
                                                                     for processing fee payments, debits and credits to customer
HUMAN RESOURCES MANAGEMENT — The transformation of the               deposit accounts, and refunds. RAM interfaces with more than 20
OHR continues to be an area of focus to enhance organizational       automated information systems to provide fee information (e.g.,
excellence. In particular, the OHR’s customer service was enhanced   fee history, payment detail, etc.) and to allow customers to pay
by significantly improving our new employee orientation program      various fees over the Internet via credit card, Electronic Funds
and participation in our employee exit survey process. Improving     Transfer (EFT), or via a USPTO-established deposit account.



www.uspto.gov	                                                                                                                             29
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




                                                                         In fulfilling responsibilities under 44 U.S.C. § 3504(h), the USPTO
                                                                         uses a Capital Planning and Investment Control (CPIC) process to
                                                                         prioritize investments and determine funding levels for subsequent
                                                                         fiscal years. Projects are carefully managed throughout their life
                                                                         cycle, and progress reviews are conducted at key milestone
                                                                         dates to compare the project’s status to planned benefit, cost,
                                                                         and schedule, along with technical efficiency and effectiveness
                                                                         measures. All major IT system investments are reported in the
                                                                         Office of Management and Budget’s (OMB) Circular A-11, Exhibit
                                                                         53 submission and the USPTO’s IT Investment Portfolio for
                                                                         FY 2009.


  Leadership development opportunities are offered at all levels of
                                                                         ENHANCING ON-LINE ACCESS TO INFORMATION
  the agency.
                                                                         In keeping with the Administration’s commitments for Transparency,
The USPTO has performed a business process reengineering                 Participation, and Collaboration, the USPTO provided the 2009
on the fee collection process and has determined where                   Patent Application and Grant datasets to the Data.gov Web site.
recommendations will fit into the RAM Modernization program.             The purpose of Data.gov is to increase awareness and access
A five-year program to modernize RAM has been created using              to machine-readable information produced by the U.S. Federal
a combination of commercial off-the-shelf, Government off-the-           Executive Branch. Through Data.gov, the public can easily find,
shelf, and custom web services technology. Modernization                 download, and use these datasets.
will optimize these processes to obtain greater efficiencies and
improved customer service and ensure compliance.                         The USPTO continued to make improvements in our IT enterprise
                                                                         architecture, internal processes, and organizational alignment to
AUTOMATED INFORMATION SYSTEMS MANAGEMENT — The                           improve our ability to be more responsive and better manage and
Office of Inspector General (OIG) indicated that the USPTO’s             deliver quality products at enhanced service levels. In particular,
process for certifying contractor and government systems                 these initiatives directly support efforts to:
produced sufficient information to enable the authorizing officials
                                                                         ●● Improve    overall efficiency;
to make credible risk-based accreditation decisions. As a result,
the USPTO believes that the improvements in IT Security realized
                                                                         ●● Improve availability of and streamline access to USPTO
this year provide the evidence which led to the resolution of the
material weakness. The Office of the Chief Information Officer             information, data, and services;
(OCIO) continues to work diligently with the OIG and the DOC
                                                                         ●● Serve   an increasingly geographically dispersed workforce;
to improve the USPTO’s overall IT security program and the
quality of the certification and accreditation (C&A) packages.
                                                                         ●● Implement    faster, more secure information exchange; and
The OCIO continues to work on improving the visibility of IT
                                                                         ●● Continueexpansion and improvement of e-filing, e-processing,
costs by instituting a standardized budget execution tool with
assistance from the Office of the Chief Financial Officer (OCFO).          and other e-Government efforts.
This has allowed the OCIO to work with all of the USPTO
Business Units to create an improved long-term IT investment
strategy, which is discussed further in the USPTO Strategic
Information Technology Plan (SITP) (www.uspto.gov/web/
offices/cio/sitp/index.html).




30	                                                                   PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
Management Challenges
and What’s Ahead

T
      he USPTO will continue to lead the world in IP policy by optimizing patent and
      trademark quality and timeliness, and improving IP protection and enforcement
      domestically and abroad by addressing the following challenges:



MAKE EFFICIENCY GAINS FOR THE FUTURE,
WHILE KEEPING QUALITY HIGH
The Patent and Trademark organizations will build on their accomplishments and
work toward meeting the objectives of the 2007-2012 Strategic Plan while working
with customers to ensure that the objectives remain aligned with their needs.

The Patent organization’s biggest challenge is to address the growth of pendency and
the backlog of patent applications waiting to be examined while maintaining high
patent quality. The Patent organization must address the dual challenges of heavy
workloads and a shift of applications from traditional arts to more complex technolo-
gies. Consequently, the Patent organization will continue to hire, train, and retain
additional examiners, and explore and implement process improvements. These
actions will help to make the Agency even more responsive to the ever-increasing
demand for patents.

The Trademark organization must strike a proper balance between forecasting levels
of new filings, existing inventories, and managing an appropriately sized staff to
ensure sufficient resources are available to maintain pendency goals on a consistent
basis. The Trademark business’ biggest challenge is to maintain the gains it has made
in quality and pendency given the uncertainty of trademark filings, future revenues,
and controlling costs. Efficiency gains have been realized through process improve-
ment and cost reduction along with greater use of information technology. First-action
pendency has reached the long-term target range of 2.5 to 3.5 months. Maintaining
first-action pendency on a consistent monthly basis, given monthly fluctuations in
filings, the unpredictability of projecting new filings given the continued uncertainty
of the economy and the need to secure congressional approval for funding to support
a high quality operation presents any number of challenges that must be carefully
managed.




www.uspto.gov	                                                                      31
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




The Trademark organization will continue to assess the efficiency
of its operations going forward, and incorporate process
improvement in the incremental redesign of the electronic
workflow and file management system. Completing the elec-
tronic workflow and file management system throughout the
entire process will provide better automated tools and consis-
tency for managing workloads and yield better services to its
customers. The USPTO will also continue to use e-government
as the primary means of doing business with applicants and
registrants, and as a means of processing work within the
Trademark organization. Continued high quality actions and
consistent low first-action pendency will ensure low disposal
pendency which translates to certainty for business owners in            Danette Campbell, Senior Advisor, Telework, Linda Dobbs, OHR,
making investments in new products and services.                         and Janice Chiverton, OHR, collaborate during senior leadership
                                                                         training.

ECONOMIC AND FINANCIAL UNCERTAINTY
The financial crisis that began last year in the U.S. has created      CONTINUE TO MOVE TO AN ELECTRONIC
challenges for the USPTO as the world economy has fallen into          WORKPLACE
a recession. The USPTO derives its budgetary resources from            The Patent and Trademark organizations are moving rapidly to
user fees and the recent economic downturn impacted patent             eliminate paper documents from their processes. Electronic
and trademark operations and revealed vulnerability in the             communications are improving, thereby encouraging more appli-
method for financing the Agency. The downturn in patent                cants to do business electronically through the use of Web-based
allowance, maintenance, and application fees stems directly from       systems. Both Patent and Trademark organizations have made
the financial constraints that even the nation’s most innovative       significant progress in support of the long-term goal to create an
companies face.                                                        e-government operation. The Trademark organization relies
                                                                       exclusively on data submitted or captured electronically to
Patent and Trademark application filings, which historically           support examination, publish documents, issue registrations, and
increase year after year, declined between FY 2008 and 2009.           to a large extent communicate with applicants. Because of the
Filing forecasts were lowered in expectation that the downturn         high degree of reliance on electronic operations, the Trademark
in the economy would impact filings and revenues – specifically        organization is dependent on the management and support of
as they relate to the gross domestic product (GDP) and financial       internal information technology systems and services to manage
indicators such as venture capital. Continued uncertainty exists       its operations and provide services to the public.
for the next two to three years in planning and managing staffing
and budget requests that are supported by fee revenues,                The Trademark organization, along with the support of the
especially if current fee rates remain unchanged.                      OCIO, still has the challenge of completing an electronic docket
                                                                       and file management system for the pre-exam and petitions
The USPTO sought legislation to enable it to temporarily use           operations that support core examination and to link all opera-
Trademark unobligated balances through June 2010 to forestall          tions and processing with one system. A fully electronic workflow
the need for a furlough, if needed. The USPTO is also exploring        will allow the Trademark organization to better manage the
the use of new financing tools, such as fee setting authority,         fluctuations in filings and be more efficient, as well as timely, in
borrowing authority, operating reserves, and investment authority      processing and responding.
that would permit adjustment for volatility in the economy and/
or demand for products and services without putting the Office         This increased reliance on electronic systems presents other chal-
in an operational crisis. Such tools would also permit the USPTO       lenges to the USPTO in the event of an unplanned outage or
to undertake long-term strategies for improvement in a finan-          disruption in processing. To address this need, the USPTO has
cially reasonable way.                                                 embarked on an aggressive, phased business continuity/disaster



32	                                                                 PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                    MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




                                                                     intends to take over the next five years for IT. The primary
                                                                     purpose is to establish a strategic framework for guiding the
                                                                     course of IT initiatives through the Agency’s strategic planning
                                                                     and decision making process. While the Road Map was primarily
                                                                     infrastructure focused, the SITP will incorporate the business area
                                                                     strategies for taking advantage of IT.



                                                                     STRENGTHEN GLOBAL INTELLECTUAL PROPERTY
                                                                     RIGHTS SYSTEMS
                                                                     An effective IPR system is important to trade because it provides
                                                                     confidence to businesses that rights will be respected and that
  USPTO held a public roundtable discussion on February 12, on
                                                                     profits will be returned to IPR holders. The tremendous ingenuity
  the topic of deferred examination. John Whealan, associate Dean
                                                                     of American inventors, coupled with a strong IP system, encour-
  for Intellectual Property Law Studies, The George Washington
                                                                     ages and rewards innovation and helps propel the economic and
  University Law School, moderated the roundtable.
                                                                     technological growth of our nation.

recovery program. The current phase involves establishing a          The challenges to maintaining an effective IPR system include
remote data bunker, which stores backups of mission critical         deepening the dialogue on global IP policy, facilitating technical
data.                                                                cooperation with foreign countries, surveying and exchanging
                                                                     information on the current status of IPR protection and adminis-
In addition, IT infrastructure and attendant hardware and            trative systems, and arriving at agreement on standards of
software systems had been neglected for a number of years, both      enhanced IP enforcement. These standards of enhanced IP
from a resource perspective and from the lack of a holistic          enforcement include increased criminal and civil protection, as
strategy. In response, the USPTO initiated the OCIO IT               well as tighter controls on circumventing technological protec-
Modernization Road Map plan in FY 2008 to address the IT infra-      tion. Reaching bilateral and multilateral agreements will require
structure needs of the USPTO. The Road Map initiatives focused       all sides to openly communicate and strive toward a more global
on both the “remediation” of existing issues, but also forward-      convergence of patent and trademark standards.
looking strategies for taking the Office into the next decade.
                                                                     The USPTO will continue strong advocacy policies that ensure
The Road Map focuses on four goals in an effort to revitalize the    that IP rights, such as patents, trademarks, and copyrights, are
USPTO’s technology environment:                                      recognized as essential tools for economic growth in both
                                                                     developed and developing economies. This is particularly
●● Stabilize
           the existing infrastructure environment and strengthen    important in light of the misperception that strong IP protection
  the core competencies of the IT workforce;                         hinders development. The USPTO will continue to work with
                                                                     international partners to promote a strong and effective IP regime
●● Consolidatethe existing infrastructure and application systems    that provides adequate and effective incentives for innovation
  to avoid unnecessary duplication and excessive cost;               and creativity worldwide, including within organizations such as
                                                                     the WIPO, the WTO, and the United Nations Human Rights
●● Optimize
          the IT infrastructure to improve performance, facilitate   Commission.
  governance, and ensure compliance; and
                                                                     The USPTO must continue to advocate pro-IP principles as
●● Maintain    and enhance the services delivered to customers.      endorsed by the “Group of Eight” (G8) countries — Canada,
                                                                     France, Germany, Italy, Japan, Russia, the United Kingdom, and
In FY 2010, the OCIO will take a more holistic approach to           the United States — to assist all countries in adopting and effec-
out-year planning by integrating the Road Map into the Agency’s      tively enforcing adequate levels of IP protection for the benefit
SITP. This plan will present the course of action the Agency         of all citizens. This will be accomplished by advising other



www.uspto.gov	                                                                                                                             33
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




Federal agencies on domestic and international IP policy, and by
continually expanding our IP training and technical assistance
internationally.

The USPTO will continue to search for solutions to its workload,
examination quality, and e-government challenges by taking the
lead on cooperative initiatives with other IP offices throughout
the world. This will result in progress in the areas of work-
sharing, examination practice uniformity, and electronic access
and compatibility. Finally, the Agency will continue to address
policy and legal matters relating to all legislative proposals
relating to IP and the USPTO, especially in the context of the
continuing debate over proposed changes to the patent laws of                                                     OHR on Wheels…Bringing Human Resources to You. A cross-
the United States.                                                                                                functional team of OHR specialists answer or research employee
                                                                                                                  questions on employee benefits or other human resources related
                                                                                                                  topics.
ENSURING PROPER FEE RATES
Under current authority, any change to statutory fees requires
legislation.1 This limits the USPTO’s ability to adjust its fees in                                           ATTRACT AND RETAIN THE RIGHT SKILLS AND TALENT
response to changes in market demand for patent and trademark
                                                                                                              Work at the USPTO is highly technical in nature and requires a
services, in processing costs or in other factors. To assure
                                                                                                              well-educated, well-credentialed, and diverse workforce.
adequate funding levels for the long term, the USPTO needs
                                                                                                              Consequently, the Agency is faced with employment, manage-
authority to set and adjust fees administratively, so that it can
                                                                                                              ment, training, and leadership challenges. Customer demands
properly establish and align fees in a timely, fair and consistent
                                                                                                              continue to increase while recruiting challenges escalate in a
manner to recover the actual costs of USPTO operations and
                                                                                                              highly competitive environment, particularly for patent examiners,
without going through the inherently long delays in the legisla-
                                                                                                              IT specialists, human resource specialists, and acquisition
tive process.
                                                                                                              professionals.
Any fee adjustments could be subject to oversight, review and
                                                                                                              The USPTO is focusing on ways to manage the new generation
comment by the USPTO’s Public Advisory Committees, its stake-
                                                                                                              of employees in an increasing virtual workplace. While the
holders and Congress. This would provide assurances that the
                                                                                                              Agency has strong performance management processes in place,
USPTO has all the necessary oversight, checks, and balances.
                                                                                                              there are still management challenges. Patent funding shortfalls
                                                                                                              have adversely impacted hiring patent examiners and organiza-
                                                                                                              tional support for the patent process, the ability to retain
                                                                                                              employees, provision of adequate resources and tools for
                                                                                                              employees to do their jobs, and succession planning.




1	   The following patent fees are set by statute (“statutory patent fee”): the filing fee, the application size fee, the excess claims fee, the examination fee, the issue fee, the disclaimer fee, the appeal fees,
     the application revival fee, the extension of time fees, the maintenance fees, and the assignment recordation fee. The remaining patent fees are set by regulation (“regulatory patent fees”), and these
     fees include the request for continued examination fee, the eighteen-month publication fee, the reexamination filing fees, and many petition fees. Trademark application filing fees are set by legislation
     in the 2005 Appropriations Act.




34	                                                                                                     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
Accompanying Information
on USPTO Performance

Performance Audits and Evaluations


T
      he Office of the Inspector General (OIG) issued two audit reports during
      FY 2009, both of which were for an agency that the USPTO is the funding
      source for. The first audit report, International Intellectual Property
Institute (IIPI), DC, Audit Report No. ATL-9999-9-3418, Audit of MOU No.
2006-069-039, focused on IIPI’s audit report for the period ended December 31,
2007, to review their compliance to OMB Circular A-133 reporting requirements. The
OIG noted questioned costs of $28,842 on expenditures billed to the USPTO for which
the related expenditures were not recorded in the IIPI general ledger. The manage-
ment at IIPI is currently focusing on improving documentation for general ledger
account reconciliations. The USPTO has prepared a corrective action plan to
document that the Agency’s accounts payable procedures prevent erroneous payments,
which upon subsequent review of the questioned costs showed that the Agency
properly recorded IIPI payments.

The second audit report, International Intellectual Property Institute (IIPI),
DC, Audit Report No. ATL-9999-8-3178 and Audit Report No. ATL-9999-8-
3179, Audit of MOU No. 2004-141-007, focused on the organization’s audit report
for the period ended December 31, 2004 and 2005, to review their compliance to
OMB Circular A-133 reporting requirements. Due to the late submission of the audit
reports by the IIPI, the OIG will not monitor the report findings. If the IIPI has not
corrected the findings prior to the next audit, the OIG may monitor a resolution at
that time.



Performance Data Verification and Validation
In accordance with GPRA requirements, the USPTO is committed to making certain
the performance information it reports is complete, accurate, and consistent. The
USPTO developed a strategy to validate and verify the quality, reliability, and
credibility of USPTO performance results and has taken the following actions:




www.uspto.gov	                                                                     35
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




ACCOUNTABILITY — Responsibility for providing performance                  PERFORMANCE GOAL 1: OPTIMIZE PATENT QUALITY
data lies with managers of USPTO programs who are held                     AND TIMELINESS
accountable for making certain that procedures are in place to
                                                                           PATENT QUALITY
ensure the accuracy of data and the performance measurement
sources are complete and reliable.                                         Quality improvement continues to drive many of the Patent orga-
                                                                           nization’s new initiatives. The Patent organization continues to
QUALITY CONTROL — Automated systems and databases that                     improve the quality of its products and services using in-depth
collect, track, and store performance indicators are monitored             reviews of work in progress and enhanced end-process reviews
and maintained by USPTO program managers, with systems                     to provide feedback to examiners on areas for improvement,
support provided by the OCIO. Each system, such as Patent                  targeted training, and safeguards to ensure competencies. The
Application Location and Monitoring (PALM) or TRAM, incorpo-               in-process compliance rate is the percentage of applications
rates internal program edits to control the accuracy of supporting         reviewed during prosecution and prior to allowance that were
data. The edits, typically, evaluate data for reasonableness,              found to be free of errors. The allowance compliance rate is the
consistency, and accuracy. Crosschecks between other internal              percentage of reviewed applications allowed by examiners that
automated systems also provide assurances of data reasonable-              did not have any errors.
ness and consistency. In addition to internal monitoring of each
system, experts outside of the business units routinely monitor                     Measure: Patent Allowance Compliance Rate
the data-collection methodology. The OCFO is responsible for                   FISCAL YEAR            TARGET               ACTUAL
monitoring the Agency’s performance, providing direction and                       2005                96.0%                95.4%
support on data collection methodology and analysis, ensuring                      2006                96.0%                96.5%
that data quality checks are in place, and reporting performance                   2007                96.0%                96.5%
management data.                                                                   2008                96.0%                96.3%
                                                                                   2009                96.5%                96.9%
DATA ACCURACY — The USPTO conducts verification and vali-                    Target Met.
dation of performance measures periodically to ensure quality,
reliability, and credibility. At the beginning of each fiscal year,
and at various points throughout the reporting or measurement                 Measure: Patent In-Process Examination Compliance Rate
period, sampling techniques and sample counts are reviewed                     FISCAL YEAR            TARGET               ACTUAL
and adjusted to ensure data are statistically reliable for making                  2005                84.0%                86.2%
inferences about the population as a whole. Data analyses are                      2006                86.0%                90.0%
also conducted to assist the business units in interpreting                        2007                90.0%                92.2%
program data, such as the identification of statistically significant              2008                92.0%                92.5%
trends and underlying factors that may be impacting a specific                     2009                93.0%                93.2%
performance indicator. For examination quality measures, the
                                                                             Target Met.
review programs themselves are assessed in terms of reviewer
variability, data entry errors, and various potential biases.
                                                                           PATENT PENDENCY
Following is specific information, including data verification and
                                                                           The two primary measures of Patent organization processing
validation, for each performance measure:
                                                                           time are: (1) average first action pendency, which measures the
                                                                           average time in months from filing until an examiner’s initial
                                                                           determination is made of the patentability of an invention; and
                                                                           (2) average total pendency, which measures the average time in
                                                                           months from filing until the application is issued as a patent or
                                                                           abandoned by the applicant. The Patent organization met their
                                                                           pendency targets due to a significantly increased retention rate




36	                                                                     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                   MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




and to efficiencies gained within the examination corps, which     Patent Efficiency
are reflected in the percent of examination time increasing by     Measures the relative cost-effectiveness of the entire patent
over two percent from last year.                                   examination process over time, or the efficiency with which the
                                                                   organization applies its resources to production.
        Measure: Patent Average First Action Pendency
    FISCAL YEAR           TARGET               ACTUAL
                                                                                       Measure: Patent Efficiency
        2005                21.3                  21.1
        2006                22.0                  22.6                 FISCAL YEAR               TARGET                   ACTUAL
                                                                           2005                   $4,122                    $3,877
        2007                23.7                  25.3
                                                                           2006                   $4,214                    $3,798
        2008                26.9                  25.6
                                                                           2007                   $4,253                    $3,961
        2009                27.5                  25.8
                                                                           2008                   $3,982                    $3,773
  Target Met.
                                                                           2009                   $3,562                    $3,523

                                                                     Target Met.

            Measure: Patent Average Total Pendency
    FISCAL YEAR           TARGET               ACTUAL
        2005                31.0                  29.1             Performance Goal 2: Optimize Trademark
        2006                31.3                  31.1             Quality and Timeliness
        2007                33.0                  31.9
        2008                34.7                  32.2             Trademark Quality
        2009                37.9                  34.6
                                                                   The Trademark organization measures for assessing examination
  Target Met.
                                                                   quality include an evaluation for all issues that could be consid-
                                                                   ered deficient in making a first and final action substantive
                                                                   decision. Evaluations are conducted on a random sample of
PATENT E-FILING AND E-MANAGEMENT                                   applications to review the quality of decision making of the
The USPTO also created a fully electronic patent application       examiner’s first office action and final action – an approval for
management process whereby all patent examiners, technical         registration or a final refusal.
support staff, and adjunct users can access an electronic image
of all patent applications. Patent automation includes more than   The “in-process review” standard for assessing excellent and
a dozen specialized applications used in patent examination,       deficient work creates a comprehensive, meaningful, and
multiple search systems, databases, and commonly used office       rigorous review of what constitutes quality.
applications.
                                                                   The results of an examiner’s first action and final office action are
                                                                   reviewed for the quality of the substantive basis for decision
       Measure: Patent Applications Filed Electronically
                                                                   making, search strategy, evidence, and writing. The measures
    FISCAL YEAR           TARGET               ACTUAL              consider elements for review and evaluation with training
        2005                4.0%                 2.2%
                                                                   targeted to topics that warrant improvement. Examiners are given
        2006               10.0%                 14.2%
                                                                   feedback about excellent, as well as deficient work to further
        2007               40.0%                 49.3%
                                                                   improve quality.
        2008               69.0%                 71.7%
        2009               80.0%                82.5%*
                                                                   In FY 2009, the measure for final compliance was expanded to
  Target Met.                                                      evaluate examination quality at the stage applications are
  * Preliminary data                                               approved for publication and ultimately registration – increasing
                                                                   the number, as well as the decisions, that were subject to




www.uspto.gov	                                                                                                                            37
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




review – demonstrating the high degree of quality that applies to
the majority of the determinations made by the Trademark                              Measure: Trademark Average First Action Pendency

organization.                                                                       FISCAL YEAR              TARGET                   ACTUAL
                                                                                        2005                    6.4                      6.3
                                                                                        2006                    5.3                      4.8
           Measure: Trademark Final Compliance Rate
                                                                                        2007                    3.7                      2.9
      FISCAL YEAR              TARGET                    ACTUAL                         2008                 2.5 to 3.5                  3.0
         2008                  Baseline
                                                                                        2009                 2.5 to 3.5                  2.7
         2009                   97.0%                     97.6%
                                                                                  Target Met.
  Target Met.

  Final Action Compliance Rate is being replaced in FY 2009 by the
  Final Compliance Rate, which is a more comprehensive measure of                        Measure: Trademark Average Total Pendency
  quality to include all actions that would result in an application being
  completed or disposed.                                                            FISCAL YEAR              TARGET                   ACTUAL
                                                                                        2005                    17.5                    17.2
                                                                                        2006                    16.3                    15.5

        Measure: Trademark First Action Compliance Rate                                 2007                    14.8                    13.4

      FISCAL YEAR              TARGET                    ACTUAL
                                                                                        2008                    14.3                    11.8

         2005                   92.5%                     95.3%                         2009                    13.0                    11.2

         2006                   93.5%                     95.7%                   Target Met.
         2007                   95.5%                     95.9%
                                                                                  Average Total Pendency Including Suspended and Inter Partes
         2008                   95.5%                     95.8%                   Proceedings in FY 2009 is replaced by Average Total Pendency
         2009                   95.5%                     96.4%                   Excluding Suspended and Inter Partes Proceedings, which is a better
                                                                                  indicator of the amount of time it takes to dispose of the trademark
  Target Met.                                                                     application.



TRADEMARK PENDENCY                                                              TRADEMARK E-MANAGEMENT
Trademark first action pendency measures the average number                     The number of electronic trademark applications has progressed
of months from the date of application filing to the first office               steadily over the years as a result of promotional events,
action.                                                                         increased number and type of applications, electronic filing,
                                                                                improved functionality and enhancements, and financial incen-
Trademark average total pendency measures the average number                    tives; for example, lower fees.
of days from date of filing to notice of abandonment (unless a
notice of allowance has been issued), notice of allowance, or                   The Trademark organization has created an electronic trademark
registration for applications based on use in that month exclud-                application record management process by capturing 100 percent
ing and including cases that were previously suspended or were                  of the application inventory and 100 percent of active or regis-
involved in inter partes proceedings at the TTAB. Average total                 tered marks as an electronic file that includes text and image of
pendency, including suspended and inter partes cases, was                       the initial application and subsequent applicant and office corre-
13.5 months. Excluding applications that were suspended or                      spondence. Examining attorneys use the electronic record to
delayed for inter partes proceedings; average total pendency was                process and examine applications, manage their dockets of
11.2 months.                                                                    pending work, and take action on applications. The availability
                                                                                of the full file contents of all active registered marks provide a
                                                                                complete record for the public.

                                                                                A new measure was introduced in FY 2009 to address the major
                                                                                USPTO strategic challenge to complete full electronic workflow
                                                                                and file management for receiving and processing trademark
                                                                                applications and related documents. The measure “Applications



38	                                                                          PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                      MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




Processed Electronically” has been developed to identify the
degree to which the Trademark organization is able to receive               Measure: Percentage of countries on the USTR 301
                                                                            list, awaiting WTO accession, or targeted by OIPPE
process, examine, and dispose of an application in a completely             for improvements that have positively amended or
electronic environment. This measure reports the percentage of                            improved their IP systems
trademark applications that were filed, processed, and disposed           FISCAL YEAR               TARGET                   ACTUAL
relying completely on electronic systems and communications.                  2005                   50.0%                     53.0%
This measure replaced the electronic filing performance measure,              2006                   50.0%                     26.0%
which target has been achieved.                                               2007                   30.0%                     32.0%
                                                                              2008                   35.0%                     74.0%
                                                                              2009                   40.0%                     54.0%
  Measure: Trademark Applications Processed Electronically
                                                                        Target Met.
    FISCAL YEAR             TARGET                  ACTUAL
        2008                Baseline                                    New outcome-oriented performance measures that replaced previously
        2009                 62.0%                   62.0%              reported measures.

  Target Met.

  New measure added to show the rate at which applications that are    Measure: Number of countries that implement at least 75%
  disposed (abandoned or registered) are processed using automated      of action steps which improve IP protections in the joint
  system and transactions.                                                          cooperation, action or work plans
                                                                          FISCAL YEAR               TARGET                   ACTUAL
Trademark Efficiency                                                          2008                  Baseline
                                                                              2009                      4                         5
Measures the relative cost-effectiveness of the entire trademark
examination process over time, or the efficiency with which the         Target Met.
organization applies its resources to production.                       New outcome-oriented performance measures that replaced previously
                                                                        reported measures.

                 Measure: Trademark Efficiency
    FISCAL YEAR             TARGET                  ACTUAL
        2005                  $701                    $677            COMMISSIONER’S PERFORMANCE FOR FY 2009
        2006                  $635                    $565
                                                                      The American Inventors Protection Act (AIPA), Title VI, Subtitle
        2007                  $685                    $660
                                                                      G, the Patent and Trademark Office Efficiency Act, requires that
        2008                  $697                    $470
                                                                      an annual performance agreement be established between the
        2009                  $639                    $474
                                                                      Commissioner for Patents and the Secretary of Commerce, and
  Target Met.                                                         the Commissioner for Trademarks and the Secretary of Commerce.
                                                                      The Commissioners for Patents and Trademarks, respectively,
                                                                      have FY 2009 performance agreements with the Secretary of
PERFORMANCE GOAL 3: IMPROVE INTELLECTUAL                              Commerce, which outline the measurable organizational goals
PROPERTY PROTECTION AND ENFORCEMENT                                   and objectives for which they are responsible. They may be
                                                                      awarded a bonus, based upon an evaluation of their performance
DOMESTICALLY AND ABROAD
                                                                      as defined in the agreement, of up to 50 percent of their base
The following measures demonstrate progress in protecting and         salary. The results achieved in FY 2009 are documented in this
enforcing IP. They focus on FTA negotiations and implementa-          report. FY 2009 bonus information is currently not available. For
tion, WTO accessions, 301 reviews, trade policy reviews,              FY 2008, the Commissioner for Patents was awarded a bonus of
technical assistance, expansion of foreign postings, work details     21.8 percent of base salary and the Commissioner for Trademarks
of USPTO employees to other U.S. Government agencies, as well         a bonus of 14.5 percent of base salary.
as development of specific plans for strategic cooperation; for
example, the work plans with China, Egypt, India, Brazil, and
ASEAN.



www.uspto.gov	                                                                                                                               39
Management Assurances
and Compliance with
Laws and Regulations

T   his section provides information on the USPTO’s compliance with the following
legislative mandates:

●● Federal   Managers’ Financial Integrity Act (FMFIA)
●● Federal   Financial Management Improvement Act (FFMIA)
●● Federal   Information Security Management Act
●● Inspector     General (IG) Act Amendments
●● OMB     Financial Management Indicators
●● Prompt    Payment Act
●● Civil   Monetary Penalty Act
●● Debt    Collection Improvement Act
●● Biennial   Review of Fees




Management Assurances
Federal Managers’ Financial Integrity Act
The FMFIA requires Federal agencies to provide an annual statement of assurance
regarding management controls and financial systems. The USPTO management is
responsible for establishing and maintaining effective internal control and financial
management systems that meet the objectives of the FMFIA. The objectives of internal
control, as defined by the Government Accountability Office (GAO), are to ensure:

●● Effectiveness    and efficiency of operations;
●● Reliability   of financial reporting; and
●● Compliance      with laws and regulations.




40	                 PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                 MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




The statement of assurance is provided at right. This statement



                                                                      O
was based on the review and consideration of a wide variety of                   n the basis of the USPTO’s comprehensive
evaluations, control assessments, internal analyses, reconcilia-                 internal control program during FY 2009, the
tions, reports, and other information, including the DOC OIG                     USPTO can provide reasonable assurance that
audits, and the independent public accountants’ opinion on the        its internal control over the effectiveness and efficiency of
USPTO’s financial statements and their reports on internal control    operations and compliance with applicable laws and
and compliance with laws and regulations. In addition, USPTO          regulations as of September 30, 2009, was operating effec-
is not identified on the GAO’s High Risk List related to controls     tively. Accordingly, I am pleased to certify with reason-
governing various areas.                                              able assurance that our agency’s systems of internal
                                                                      control, taken as a whole, comply with Section 2 of the
                                                                      Federal Managers’ Financial Integrity Act of 1982. Our
Federal Financial Management                                          agency also is in substantial compliance with applicable
Improvement Act                                                       federal accounting standards and the U.S. Standard
The FFMIA requires Federal agencies to report on agency               General Ledger at the transaction level and with federal
substantial compliance with Federal financial management              financial system requirements. Accordingly, our agency
system requirements, Federal accounting standards, and the U.S.       fully complies with Section 4 of the Federal Managers’
Standard General Ledger at the transaction level. The USPTO           Financial Integrity Act of 1982, with no material
complied substantially with the FFMIA for FY 2009.                    non-conformances.

                                                                      In addition, the USPTO conducted its assessment of the
                                                                      effectiveness of our agency’s internal control over financial
Other Compliance with                                                 reporting, which includes safeguarding of assets and

Laws and Regulations                                                  compliance with applicable laws and regulations, in
                                                                      accordance with OMB Circular A-123, Management’s
                                                                      Responsibility for Internal Control. Based on the results
Federal Information Security                                          of this evaluation, the USPTO provides reasonable
                                                                      assurance that its internal control over financial reporting
Management Act
                                                                      as of June 30, 2009 was operating effectively and no
The USPTO continues to stay vigilant in reviewing administrative      material weaknesses were found in the design or
controls over information systems and is always seeking methods       operation of the internal control over financial reporting.
of improving our security program. During FY 2009, the USPTO          In addition, no material weaknesses related to internal
removed the IT security material weakness that was reported in        control over financial reporting were identified between
previous years. The material weakness was related to the USPTO        July 1, 2009 and September 30, 2009.
IT security program and reflected the need to improve the
internal controls and program processes and procedures for C&A
of the USPTO and contractor systems. During FY 2009, the OIG
indicated that the USPTO’s process for certifying contractor and
government systems produced sufficient information to enable
the authorizing officials to make credible risk-based accreditation
                                                                      David J. Kappos
decisions.
                                                                      Under Secretary of Commerce for Intellectual Property and
                                                                      Director of the United States Patent and Trademark Office
                                                                      November 5, 2009




www.uspto.gov	                                                                                                                          41
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




Inspector General Act Amendments                                         management had resolved the two recommendations outstanding
The Inspector General Act, as amended, requires semi-annual              from a report issued in FY 2008 (USPTO-CAR-18701: “USPTO Has
reporting on IG audits and related activities, as well as any            Reasonable Controls Over Personal Property, but Additional
requisite agency follow-up. The report is required to provide            Improvements Are Needed”). A summary of audit findings and
information on the overall progress on audit follow-up and               recommendations follows.
internal management controls, statistics on audit reports with
disallowed costs, and statistics on audit reports with funds put         Two new audit reports were issued during FY 2009 (ATL-9999-9-
to better use. The USPTO did not have audit reports with                 3418: “International Intellectual Property Institute (IIPI), DC,
disallowed costs or funds put to better use.                             Audit of MOU No. 2006-069-039” and ATL-9999-8-3178/ATL-9999-
                                                                         8-3179: “IIPI, DC, Audit of MOU 2004-141-007”). For details on
The USPTO’s follow-up actions on audit findings and recommen-            each audit, refer to page 35. No recommendations were
dations are essential to improving the effectiveness and efficiency      outstanding as of September 30, 2009.
of our programs and operations. As of September 30, 2009,



                                     Status of IG Act Amendment Audit Recommendations
                                                   as of September 30, 2009
 Report for        Status          Recommendation                                      Action Plan                         Completion
 Fiscal Year                                                                                                                 Date

 FY 2008        Closed         Conduct inventories           The USPTO implemented and communicated USPTO’s                October 2008
                               consistent with the           Standard Operating Procedures (SOP) for the annual physical
                               requirements contained in     verification of USPTO’s home use assets, including laptops.
                               the Department Personal
                               Property Management
                               Manual dated October
                               2007.

 FY 2008        Closed         Require Property              PAOs received a notice indicating that, as part of their      October 2008
                               Accountability Officers       quarterly certification efforts, they must also verify the
                               (PAOs) to inventory the       accuracy of the property assigned to PCs under their
                               holdings of the Property      oversight.
                               Custodians (PC) who report
                               them.




42	                                                                   PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                    MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




                                                                                          FY 2009                         FY 2009
                         Financial Performance Measure
                                                                                           Target                       Performance
 Percentage of Timely Vendor Payments (MTS)                                                 98%                             96%
 Percentage of Payroll by Electronic Transfer (OMB)                                         90%                             99%
 Percentage of Treasury Agency Locations Fully Reconciled (OMB)                             95%                            100%
 Timely Reports to Central Agencies (OMB)                                                   95%                            100%
 Audit Opinion on FY 2009 Financial Statements (OMB)                                    Unqualified                     Unqualified
 Material Weaknesses Reported by OIG (OMB)                                                  None                            None
 Timely Posting of Inter-Agency Charges (USPTO)                                            30 days                        15 days
 Average Processing Time for Travel Payments (USPTO)                                       8 days                          4 days


OMB Financial Management Indicators                                  Debt Collection Improvement Act
The OMB prescribes the use of quantitative indicators to monitor     The Debt Collection Improvement Act prescribes standards for the
improvements in financial management. The USPTO tracks other         administrative collection, compromise, suspension, and termina-
financial performance measures as well. The table above shows        tion of Federal agency collection actions, and referral to the
the USPTO’s performance during FY 2009 against performance           proper agency for litigation. Although the Act has no material
targets established internally and by OMB and the government-        effect on the USPTO since it operates with minimal delinquent
wide Metric Tracking System (MTS).                                   debt, all debt more than 180 days old has been transferred to the
                                                                     U.S. Department of the Treasury for cross-servicing.

Prompt Payment Act
The Prompt Payment Act requires Federal agencies to report on        Biennial Review of Fees
their efforts to make timely payments to vendors, including          The Chief Financial Officers Act of 1990 requires a biennial
interest penalties for late payments. In FY 2009, the USPTO did      review of agency fees, rents, and other charges imposed for
not pay interest penalties on 99.5 percent of the 7,532 vendor       services and things of value it provides to specific beneficiaries
invoices processed, representing payments of approximately           as opposed to the American public in general. The objective of
$534.0 million. Of the 42 invoices that were not processed in a      the review is to identify such activities and to begin charging
timely manner, the USPTO was required to pay interest penalties      fees, where permitted by law, and to periodically adjust existing
on 39 invoices, and was not required to pay interest penalties on    fees to reflect current costs or market value so as to minimize
three invoices, where the interest was calculated at less than $1.   general taxpayer subsidy of specialized services or things of
The USPTO paid only $8 in interest penalties for every million       value (such as rights or privileges) provided directly to identifi-
dollars disbursed in FY 2009. Virtually all recurring payments       able non-Federal beneficiaries. The USPTO is a fully fee-funded
were processed by EFT in accordance with the EFT provisions of       agency without subsidy of general taxpayer revenue. For non-
the Debt Collection Improvement Act of 1996.                         legislative fees, it uses Activity Based Cost (ABC) accounting to
                                                                     evaluate the costs of activities and determine if fees are set
                                                                     appropriately. When necessary, fees are adjusted to be consistent
Civil Monetary Penalty Act                                           with the program and with the legislative requirement to recover
                                                                     full cost of the goods or services provided to the public.
There were no Civil Monetary Penalties assessed by the USPTO
during FY 2009.
                                                                     In October 2008, the USPTO implemented an increase to patent
                                                                     processing fees, commensurate with the last 12 months’ increase
                                                                     in the Consumer Price Index. A study and analysis of all USPTO
                                                                     fees is underway, comparing the average unit costs for all
                                                                     products and services to the fees currently charged. This study
                                                                     is ongoing and is expected to continue through FY 2010.



www.uspto.gov	                                                                                                                             43
Financial Discussion
and Analysis


Financial Highlights


T
    he following presents the USPTO’s FY 2009 financial highlights for
    budgetary resources and requirements, along with results of operations.
    Details behind these highlights are included in the discussion of the
USPTO’s financial statements beginning on page 46.


Budgetary Resources and Requirements
The USPTO was provided appropriation authority to spend all anticipated
fee collections in FY 2009 for an amount up to $2,010.1 million. However,
as the fiscal year progressed, fee collections were not being received as they
had been anticipated, resulting in actual fee collections of $1,874.2 million,
which was our final appropriation level. When spending authority is less
than fee collections, the additional fee collections are temporarily unavailable.
During FY 2007, the USPTO collected an additional $12.2 million in fees that
were temporarily unavailable for spending.

The following table presents the source of funds made available to the
USPTO, and the use of such funds.




44	              PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                            MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




  Source and Status of Funds (Dollars in Millions)                FY 2005            FY 2006        FY 2007               FY 2008           FY 2009
 Source of Funds:
 Unobligated Beginning Balance                                $	      2.3        $	       5.7       $	       5.7      $	     28.0           $    72.1
 Recovery of Prior Year Obligations                           	       7.6                 9.1                9.9             12.0                30.7
 Spending Authority from Offsetting Collections               	 1,504.2               1,665.4            1,791.1           1,885.6           1,880.4
 Non-Expenditure Transfer                                     	        –                 (0.1)      		–                       (1.0)              (2.0)
 Net Increase in Unavailable Fees                             	        –         	         –               (12.2)     	         –       	          –
 Total Source of Funds                                        $	 1,514.1         $	 1,680.1         $	 1,794.5        $	 1,924.6            $ 1,981.2
 Status of Funds:
 Obligations Incurred                                         $	 1,508.4         $	 1,674.4         $	 1,766.5        $	 1,852.5            $ 1,862.5
 Unobligated Balance, Available                               	       2.7                 5.7              28.0              64.1               118.7
 Unobligated Balance, Unavailable                             	       3.0        	         –        		–                        8.0      	          –
 Total Status of Funds                                        $	 1,514.1         $	 1,680.1         $	 1,794.5        $	 1,924.6            $ 1,981.2


During FY 2009, total budgetary resources available for spending           by a decreased demand for our services and a decrease in fee
was 3.4 percent over the amount available in the preceding year.           income, over $200 million less than originally planned.
While the total amount available for spending increased during
FY 2009, $70.6 million of the remaining unobligated balance at             The USPTO’s response to the decline in fee revenues was to
the end of the fiscal year is derived from Trademark fee collec-           implement almost $200 million in budget reductions and cost-
tions. The increase in budgetary resources available for use over          savings measures: stopping all overtime, including patent
the past four years is depicted by the graph below.                        production and fee-generating work; curtailing most non-
                                                                           bargaining unit performance awards; significantly reducing
                                                                           mission-related travel; suspending patent examiner hiring, except
                                                                           for offers made as of February 2009; suspending all hiring but for
                                                                           the most critical positions in other areas; suspending training
                                                                           except where mandatory to sustain critical job qualifications;
                                                                           reducing or eliminating all non-essential, non-trademark, IT
                                                                           business system improvement projects; reducing the funds
                                                                           applied to critical IT infrastructure projects; and reducing the
                                                                           level of services provided by non-IT contracts. The USPTO’s
                                                                           efforts have positioned the Agency to operate within the reduced
                                                                           fee collection levels into FY 2010.

                                                                           We are certain that the USPTO can not sustain operations in this
                                                                           manner over an extended period of time without a significant
                                                                           operational impact on the patent and trademark systems and
                                                                           putting into question the USPTO’s ability to address its mission at
In FY 2009, the USPTO was provided with use of all of its fee              any acceptable level. For example, not replacing patent
collections. In the past, access to all fee collections had enabled        examiners as they leave the USPTO and eliminating overtime
the USPTO to substantially increase the number of patent                   directly impacts our ability to reduce the backlog of existing
examiners to assist in addressing the growing complexity of                patent applications. While this measure saves money in the short
patent applications and increasing workloads and to allocate               term, it also reduces revenue earned in the current year and has
additional resources towards protecting intellectual property in           revenue impact for the future. In addition, delays in upgrades to
the United States and abroad. However, the current economic                our IT infrastructure will degrade the USPTO’s ability to sustain
condition complicated managing Agency operations, as evidenced             core functions. The USPTO expects significant challenges in



www.uspto.gov	                                                                                                                                           45
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




FY 2010 and beyond without an interim or longer term strategy           and no instances of non-compliance with laws and regulations
for stable and reliable funding.                                        affecting the financial statements.

                                                                        The USPTO financial management process ensures that manage-
Results of Operations
                                                                        ment decision-making information is dependable, internal controls
The USPTO generated a net cost of $54.8 million for the year            over financial reporting are effective, and that compliance with
ended September 30, 2009, an increase of $24.4 million over             laws and regulations is maintained. The preparation of these
FY 2008 net cost of $30.4 million. This variation is the result of      financial statements is a component of the USPTO’s objective to
a few factors, explained in more detail in the Statement of Net         continually improve the accuracy and usefulness of its financial
Cost discussion.                                                        management tools.

Due to the increase in pendency, the amount of time an applica-         The following sections provide a discussion and analysis of the
tion is waiting before a patent is issued or trademark is regis-        financial statements and related information.
tered, the USPTO had been recognizing a steadily increasing
deferred revenue liability through FY 2008 for fees received prior
to the revenue being earned. From FY 2005 through FY 2008,              Statement of Budgetary Resources
unearned patent fees increased 27.1 percent. In FY 2009,
unearned patent fees decreased 4.6 percent, a result of the             The following table displays the USPTO’s total budgetary
economy – as less new patent application filings were received,         resources available for spending over the past five years, with the
the USPTO was able to make progress in working off the existing         related percentage change.
inventory. From FY 2005 through FY 2009, unearned trademark
fees decreased 33.3 percent, a result of the increased staffing to      As presented below, total budgetary resources available for
address the inventory backlog.                                          spending increased with a 3.4 percent change and a 31.1 percent
                                                                        increase over the past five fiscal years. Through FY 2008, the
                                                                        increase in available budgetary resources was used to fund the
Financial Discussion and Analysis                                       increased cost of additional human capital to address the growing
                                                                        average complexity of patent applications and the decrease in
                                                                        patent and trademark filings. In FY 2009, the increase in
Financial Statements                                                    available budgetary resources was $200 million less than planned.
The USPTO received an unqualified (clean) audit opinion from            As a result, budget reductions and cost-savings measures were
the independent public accounting firm of KPMG LLP on its               implemented, to include: stopping all overtime, including patent
FY 2009 financial statements, provided on pages 61 to 87. This is       production and fee-generating work; curtailing non-bargaining
the 17th consecutive year that the USPTO received a clean               unit performance awards; significantly reducing mission-related
opinion. Our unqualified audit opinion provides independent             travel; suspending patent examiner hiring, except for offers made
assurance to the public that the information presented in the           as of February 2009; suspending all hiring but for the most
USPTO financial statements is fairly presented, in all material         critical positions in other areas; suspending training except
respects, in conformity with accounting principles generally            where mandatory to sustain critical job qualifications; reducing
accepted in the United States of America. In addition, KPMG LLP         or eliminating all non-essential, non-trademark, IT business
reported no material weaknesses in the USPTO’s internal control,        system improvement projects; reducing the funds applied to


 Resources                                                            FY 2005       FY 2006       FY 2007        FY 2008       FY 2009
 Budgetary Resources Available for Spending (Dollars in Millions)      $1,511.1     $1,680.1       $1,794.5      $1,916.6       $1,981.2
 Percentage Change                                                     22.3%         11.2%          6.8%           6.8%          3.4%

 Patent Examiners                                                       4,177         4,779         5,477         6,099          6,243
 Percentage Change                                                     13.5%         14.4%          14.6%         11.4%          2.4%

 Trademark Examining Attorneys                                           357          413            404           391            388
 Percentage Change                                                     24.8%         15.7%         (2.2)%         (3.2)%        (0.8)%



46	                                                                  PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                               MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




 Filings                                                                   FY 2005          FY 2006           FY 2007          FY 2008          FY 2009
                                                                                                                                                          1
 Patent Filings                                                            409,532          445,613           468,330          496,886          485,500
 Percentage Change in Patent Filings                                        8.1%              8.8%              5.1%             6.1%            (2.3)%

 Trademark Filings                                                         323,501          354,775           394,368          401,392          352,051
 Percentage Change in Trademark Filings                                     8.4%              9.7%             11.2%             1.8%           (12.3)%
 1	   Preliminary data



critical IT infrastructure projects; and reducing the level of               Legislation was passed in July 2009 that allows the USPTO to use
services provided by non-IT contracts.                                       surplus funds from Trademark revenues to cover any shortfalls
                                                                             that may occur as the result of the decrease in Patent fee collec-
The USPTO was initially appropriated and apportioned up to                   tions [H.R. 3114]. The authority to use these funds lasts until June
$2,010.1 million of fee collections. As the fiscal year progressed,          2010. Should such use of Trademark funds be necessary, the
fee collections were not being received as they had been                     amount must be paid back to the Trademark organization no
anticipated, resulting in fee collections of $1,874.2 million. The           later than September 30, 2014. As of September 30, 2009,
USPTO did not meet the planned fee collections primarily due                 Trademark funds were not used for Patent operations.
to a decrease in the number of patent and trademark applica-
tions (see above table), a decrease in the expected number of                As defined earlier, temporarily unavailable fee collections occur
claims being filed per patent application, as well as patent                 when the USPTO is not appropriated the authority to spend all
maintenance fees coming in less than planned. However, due                   fees collected during a given year. During FY 2009, the USPTO
to the decrease in incoming patent applications, this has                    did not collect any fee collections that were designated as tempo-
allowed the Agency to continue to focus resources on reducing                rarily unavailable. As a result, the $528.7 million in temporarily
the patent backlog, resulting in increased issue fees.                       unavailable fee collections at the end of FY 2007 remained the
                                                                             same through FY 2009.
USPTO operations rely significantly on patent maintenance fees,
which are the largest source of budgetary resources by fee type.             The table below chart illustrates amounts that Congress has
During FY 2009, maintenance fees collected decreased                         appropriated to the USPTO over the past five fiscal years, as well
$15.1 million, or 2.7 percent, from FY 2008. As they are recog-              as the cumulative unavailable fee collections.
nized immediately as earned revenue and budgetary resources,
any fluctuations in the rates of renewal have a significant impact           In addition to these annual restrictions, collections of $233.5 million
on the total resources available to the USPTO. To some extent,               are unavailable in accordance with the OBRA of 1990, and
renewals recoup costs incurred during the initial patent process.            deposited in a special fund receipt account at the U.S. Department
As shown on page 49, the renewal rates for all three stages of               of the Treasury.
maintenance fees decreased during FY 2009. The renewal rates
are expected to rebound as the economy rebounds.


Temporary Unavailable Fee Collections (Dollars in Millions)                FY 2005          FY 2006           FY 2007          FY 2008          FY 2009
Fiscal year fee collections                                           $	 1,497.2       $	 1,657.6        $	 1,783.2       $	 1,879.3       $	 1,874.2
Fiscal year collections appropriated                                  	 (1,497.2)           (1,657.6)         (1,771.0)        (1,879.3)        (1,874.2)
Fiscal year unavailable collections                                   $	       –       $	       –        $	      12.2     $	       –       $	       –
Prior year collections unavailable                                    	      516.5     	      516.5      	      516.5            528.7            528.7
Cumulative temporarily unavailable fee collections                    $	     516.5     $	     516.5      $	     528.7     $	     528.7     $	     528.7




www.uspto.gov	                                                                                                                                                47
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




 Net (Cost)/Income (Dollars in Millions)                                FY 2005          FY 2006       FY 2007       FY 2008       FY 2009
 Earned Revenue                                                         $	 1,372.8       $ 1,594.4     $	 1,735.7    $	 1,862.2    $	 1,927.1
 Program Cost                                                           	 (1,424.0)     	 (1,514.2)    	 (1,769.6)   	 (1,892.6)   	 (1,981.9)
 Net (Cost)/Income                                                      $	    (51.2)     $    80.2     $	   (33.9)   $	   (30.4)   $	    (54.8)


Statement of Net Cost                                                        tions likewise decreased, decreasing deferred revenue and
The Statement of Net Cost presents the USPTO’s results of opera-             increasing earned revenue. This was evidenced by the Patent
tions by the following responsibility segments – Patent, Trademark,          organization disposing of 22.9 percent more applications than
and Intellectual Property Protection and Enforcement Domestically            were disposed of during FY 2008.
and Abroad. The above table presents the total USPTO’s results
of operations for the past five fiscal years. In FY 2005, the                During FY 2009, with the number of trademark applications
USPTO’s operations resulted in a net cost. In FY 2006, the                   decreasing by 12.3 percent over the prior year, the Trademark
USPTO generated a net income due to the increased mainte-                    organization was able to continue to address the existing
nance fees received and revenue recognition of previously                    inventory and reduce pendency by 0.3 months from FY 2008.
deferred revenue collected subsequent to the fee increase on                 The Trademark organization was able to do this while recog-
December 8, 2004. During FY 2007, FY 2008, and FY 2009 the                   nizing a slight decrease in revenue earned.
USPTO’s operations resulted in a net cost of $33.9 million,
$30.4 million, and $54.8 million, respectively.
                                                                             Earned Revenue
The Statement of Net Cost compares fees earned to costs incurred             The USPTO’s earned revenue is derived from the fees collected
during a specific period of time. It is not necessarily an indicator         for patent and trademark products and services. Fee collections
of net income or net cost over the life of a patent or trademark.            are recognized as earned revenue when the activities to complete
Net income or net cost for the fiscal year is dependent upon                 the work associated with the fee are completed. The table below
work that has been completed over the various phases of the                  presents the earned revenue for the past five years.
production life cycle. The net income calculation is based on
fees earned during the fiscal year being reported, regardless of             Earned revenue totaled $1,927.1 million for FY 2009, an increase
when those fees were collected. Maintenance fees also play a                 of $64.9 million, or 3.5 percent, over FY 2008 earned revenue of
large part in whether a total net income or net cost is recognized.          $1,862.2 million. Of revenue earned during FY 2009, $454.3 million
Maintenance fees collected in FY 2009 are a reflection of patent             related to fee collections that were deferred for revenue recogni-
issue levels 3.5, 7.5, and 11.5 years ago, rather than a reflection          tion in prior fiscal years, $546.7 million related to maintenance
of patents issued in FY 2009. Therefore, maintenance fees can                fees collected during FY 2009, which were considered earned
have a significant impact on matching costs and revenue.                     immediately, $920.7 million related to work performed for fees
                                                                             collected during FY 2009, and $5.4 million were not fee-related.
During FY 2009, with the number of patent filings decreasing by
2.3 percent over the prior year, the backlog for patent applica-


 Earned Revenue (Dollars in Millions)                                   FY 2005          FY 2006       FY 2007       FY 2008       FY 2009
 Patent                                                                 $	 1,197.8      $	 1,384.2     $	 1,507.0    $	 1,625.0    $	 1,697.4
 Percentage Change in Patent Earned Revenue                                   9.6%           15.6%          8.9%          7.8%           4.5%

 Trademark                                                                    175.0          210.2          228.7         237.2          229.7
 Percentage Change in Trademark Earned Revenue                               19.5%           20.1%          8.8%          3.7%          (3.2)%

 Total Earned Revenue                                                   $	 1,372.8      $	 1,594.4     $	 1,735.7    $	 1,862.2    $ 1,927.1
 Percentage Change in Earned Revenue                                         10.8%           16.1%          8.9%          7.3%           3.5%



48	                                                                    PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                          MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




For fees collected and earned during FY 2009, there was an                             Application fee revenue earned upon filing decreased from
increase of $49.6 million over these same fees earned during                           $99.8 million in FY 2008 to $95.2 million in FY 2009, with the
FY 2008. This increase can primarily be attributed to $2.4 million                     number of applications decreasing from 496,886 to 485,500 over
in fees considered earned immediately, $5.7 million in earned                          the same period, decreases of 4.6 percent and 2.3 percent,
patent filing fees, $34.4 million in earned patent issue fees,                         respectively. The FY 2010 President’s Budget projects a gradual
$13.3 million in PCT international fees, offset by a decrease of                       increase in patent applications filed beginning in FY 2011 and
$6.3 million in patent appeal fees.                                                    extending through FY 2014, which will contribute to a renewed
                                                                                       growth in earned fee revenue.
Patent
Traditionally, the major components of earned revenue derived                          Earned issue fee revenue increased from $262.3 million in
from patent operations are maintenance fees, initial application                       FY 2008 to $292.7 million in FY 2009, with the number of patents
fees for filing, search, and examination, and issue fees. These                        issued increasing from 182,556 to 190,121 over the same period,
fees account for over 80 percent of total patent income. The                           an increase of 11.6 percent and 4.1 percent, respectively. The
following chart depicts the relationship among the most signifi-                       FY 2010 President’s Budget projects that patents issued will
cant patent fee types.                                                                 increase an average of 5.8 percent each fiscal year through
                                                                                       FY 2014.

                                                                                       Trademark
                                                                                       Trademark fees are comprised of application filing, renewal
                                                                                       services, and Trademark Trial and Appeal Board fees. Additional
                                                                                       fees are charged for intent-to-use filed applications, as additional
                                                                                       requirements must be met for registration. The following chart
                                                                                       depicts the relationship among the most significant trademark fee
                                                                                       types.




Patent maintenance fees are the largest source of earned revenue
by fee type. During FY 2009, maintenance fees collected
decreased $15.1 million, or 2.7 percent, from FY 2008. As they
are recognized immediately as earned revenue, any fluctuations
in the rates of renewal have a significant impact on the total
earned revenue of the USPTO. To some extent, renewals recoup
costs incurred during the initial patent process. As shown below,
the renewal rates for all three stages of maintenance fees
decreased this year. The renewal rates are expected to rebound
as the economy rebounds.

 Patent Renewal Rates*                                                              FY 2005           FY 2006           FY 2007           FY 2008           FY 2009
 First Stage                                                                          83.1%             93.1%             90.1%             83.1%            80.3%
 Second Stage                                                                         65.4%             69.2%             71.4%             73.7%            63.5%
 Third Stage                                                                          45.0%             44.4%             48.5%             49.2%            45.4%
 *Note: the First Stage refers to the end of the 3rd year after the initial patent is issued; the Second Stage refers to the end of the 7th year after the initial patent
 is issued; and the Third Stage refers to the end of the 11th year after the initial patent is issued. For example, in FY 2009, 80.3 percent of the patents issued three
 years ago were renewed, 63.5 percent of the patents issued seven years ago were renewed, and 45.4 percent of the patents issued 11 years ago were renewed.



www.uspto.gov	                                                                                                                                                        49
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




Earned revenue for trademark applications decreased from
$131.3 million in FY 2008 to $126.0 million in FY 2009, with the
number of trademarks registered decreasing from 274,250 to
241,637 over the same period, a decrease of 4.0 percent and 11.9
percent, respectively. The FY 2010 President’s Budget projects
that trademark applications filed will increase, which will
contribute to growth in earned fee revenue.

Trademark registration can be a recurring source of revenue.
To some extent, renewal fees recoup costs incurred during the
initial examination process. As shown below, the renewal rates for
trademarks have remained fairly stable over the last five years,
indicating continued earned revenue from this source. Further, in
the FY 2010 President’s Budget, earned revenue from trademark
renewals is expected to continue in the future.


Program Costs
Program costs totaled $1,981.9 million for the year ended September
30, 2009, an increase of $89.3 million, or 4.7 percent, over FY 2008
program costs of $1,892.6 million. The USPTO’s most significant
program cost is personnel services and benefits, which traditionally
comprise over half of USPTO’s total program costs. Any significant
change or fluctuation in staffing or pay rate directly impacts the
change in total program costs from year-to-year. Total personnel
services and benefits costs for the year ended September 30, 2009,
were $1,321.6 million, an increase of $122.9 million, or 10.3
percent, over FY 2008 personnel services and benefits costs of
$1,198.7 million. This change, 137.6 percent of the total increase
in program costs, was a result of a 4.8 percent increase in the                   Patent
Federal pay scale, combined with a net increase of 198 personnel,                 Total costs for the Patent business unit increased $491.5 million,
from 9,518 at the end of FY 2008 to 9,716 at the end of FY 2009.                  39.2 percent, from FY 2005 through FY 2009. The table on the
                                                                                  following page presents the major components of Patent costs for
The USPTO directs maximum resources to the priority functions                     the past five years.
of patent and trademark examination, as well as IP protection
and enforcement domestically and abroad. For FY 2009, costs                       The Patent organization’s most significant program costs relate to
directly attributable to the Patent, Trademark, and IP protection                 personnel services, and account for 92.0 percent of the increase
business areas represent 83.4 percent of total USPTO costs. The                   in total cost of Patent operations during the past four years.
remaining costs, representing support costs, are allocated to the                 Patent personnel costs for the year ended September 30, 2009,
business areas using ABC accounting.                                              were $1,098.9 million, an increase of $105.3 million, or 10.6


Trademark Renewal Rates                                                         FY 2005         FY 2006           FY 2007         FY 2008          FY 2009 1
Renewals                                                                         28.6%            28.8%            28.6%            27.0%            27.4%
Note: the renewals occur every 10th year for trademarks registered after November 15, 1989. For trademarks issued or renewed before November 15, 1989,
renewal will occur after the 20th year and the renewal will be for a ten-year period. For example, in FY 2009, 27.4 percent of the trademarks granted ten and 20
years ago were renewed.
1	   Preliminary data




50	                                                                          PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                          MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




 Patent Costs (Dollars in Millions)                                  FY 2005          FY 2006         FY 2007          FY 2008         FY 2009
 Personnel Costs                                                     $	    646.5     $	   714.4       $	   867.1      $	   993.6       $	 1,098.9
 Contractual Services                                                	     156.1     	    181.5       	    223.6      	    226.2       	    203.0
 Printing and Reproduction                                           	      68.9     	     71.9       	     70.0      	     59.4       	     58.2
 Rent, Communications, and Utilities                                 	      82.6     	     69.3       	     71.1      	     72.6       	     73.4
 Depreciation, Amortization, or Loss on Asset Disposition            	      26.1     	     24.8       	     32.3      	     35.8       	     34.4
 Other                                                               	      25.7     	     23.8       	     21.7      	     22.2       	     14.9
    Direct Costs                                                     	 1,005.9       	 1,085.7        	 1,285.8       	 1,409.8        	 1,482.8
 Allocated Costs                                                     	     247.2     	    226.6       	    247.2      	    245.9       	    261.8
    Total Patent Costs                                               $	 1,253.1      $	 1,312.3       $	 1,533.0      $	 1,655.7       $	 1,744.6
 Percentage Change in Patent Costs                                   	     9.4%      	    4.7%        	    16.8%      	    8.0%        	    5.4%

percent, over FY 2008 personnel costs of $993.6 million. Rent,            on direct and indirect costs allocated to patent operations and
communications, and utilities, printing and reproduction, and             are a function of the volume of applications processed in each
contractual service costs represent 19.2 percent of the Patent            product area.
program costs for FY 2009. From FY 2005 through FY 2008,
contractual costs increased in line with the overall increase in          Trademark
Patent costs due to increases in the number of patents issued and         Total costs for the Trademark business unit increased $22.3 million,
increased spending on indexing and scanning documents for the             13.0 percent, from FY 2005 through FY 2009. The table on the
electronic file wrapper, offset by minor decreases to printing and        following page shows the major components of Trademark costs
reproduction. During FY 2009, contractual costs decreased in              for that period.
line with the budget cuts implemented agency-wide. In addition,
rental costs decreased 11.1 percent over the past four years, with        The Trademark organization’s most significant program costs
a decrease in costs of $9.2 million as the move to Alexandria has         relate to personnel services, and account for 125.1 percent of the
been completed.                                                           increase in total cost of Trademark operations during the past
                                                                          four years. This increase of $27.9 million was offset by other cost
Patent costs were spread over four main patent products: utility          increases and decreases. Contractual services have decreased
patents, design patents, plant patents, and PCT patents. Utility          $9.9 million over the past four years, which represents a decrease
patents were further broken down into the technology of the               of 44.4 percent of the total Trademark cost change over the past
utility patent. The cost percentages presented below are based            four years, as a result of being able to rely more on automated
                                                                          tools, rather than contractors.

                                                                          The Intent to Use cost includes costs related to examining both
                                                                          the application and the additional intent to use disclosures. The
                                                                          overall cost percentages presented below are based on both
                                                                          direct costs and indirect costs allocated to trademark operations
                                                                          and are a function of the volume of applications processed in
                                                                          each product area.




www.uspto.gov	                                                                                                                                   51
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




 Trademark Costs (Dollars in Millions)                       FY 2005          FY 2006        FY 2007       FY 2008        FY 2009
 Personnel Costs                                             $	     80.0      $	    88.8     $	    99.8    $	 101.7       $	 107.9
 Contractual Services                                        	      23.2      	     25.1     	     24.4    	    19.4      	    13.3
 Printing and Reproduction                                   	         0.8    	      0.3     	      0.8    	     0.4      	     0.4
 Rent, Communications, and Utilities                         	         8.4    	      7.8     	      7.8    	     7.3      	     7.6
 Depreciation, Amortization, or Loss on Asset Disposition    	         6.1    	      6.0     	      7.3    	     5.4      	     4.2
 Other                                                       	         3.7    	      3.1     	      2.7    	     3.0      	     2.3
       Direct Costs                                          	     122.2      	    131.1     	    142.8    	   137.2      	   135.7
 Allocated Costs                                             	      48.7      	     37.7     	     61.7    	    55.4      	    57.5
       Total Trademark Costs                                 $	 170.9         $	 168.8       $	 204.5      $	 192.6       $	 193.2
 Percentage Change in Total Trademark Costs                  	 19.2%          	 (1.2)%       	 21.1%       	 (5.8)%       	   0.3%

                                                                  Intellectual Property Protection and Enforcement
                                                                  The release of the 2007-2012 Strategic Plan resulted in a new
                                                                  responsibility segment for FY 2007. Presentation of FY 2006
                                                                  costs were reclassified for this responsibility segment. Total costs
                                                                  for IP Protection increased $11.0 million, or 33.2 percent, from
                                                                  FY 2006 through FY 2009. The table below shows the major
                                                                  components of IP Protection costs for that period.

                                                                  The most significant program costs for IP Protection relate to
                                                                  personnel services, and account for 40.8 percent of the total cost
                                                                  for IP Protection operations during the past year. The next
                                                                  largest cost associated with the protection and enforcement of
                                                                  intellectual property domestically and abroad is contractual
                                                                  services. These costs were incurred in line with the activities
                                                                  discussed on pages 22 to 27.



 Intellectual Property Protection Costs
                                                             FY 2005 1        FY 2006        FY 2007       FY 2008        FY 2009
 (Dollars in Millions)
 Personnel Costs                                                   –          $	 13.6        $	 13.1       $	 17.9        $	 18.0
 Contractual Services                                              –          	     6.3      	     1.9     	    6.6       	    8.8
 Rent, Communications, and Utilities                               –          	     2.1      	     2.2     	    2.6       	    2.6
 Travel                                                            –          	     1.6      	     3.5     	    2.8       	    1.8
 Depreciation, Amortization, or Loss on Asset Disposition          –          	     0.5      	     0.4     	    0.5       	    0.5
 Other                                                             –          	     0.9      	     1.0     	    0.9       	    0.6
       Direct Costs                                                –          	    25.0      	    22.1     	   31.3       	   32.3
 Allocated Costs                                                   –          	     8.1      	    10.0     	   13.0       	   11.8
       Total IP Protection Costs                                   –          $	 33.1        $	 32.1       $	 44.3        $	 44.1
 Percentage Change in Total IP Protection Costs                    –          	     –%       	 (3.0)%      	 38.0%        	 (0.5)%
 1   Costs prior to FY 2006 are not available.




52	                                                         PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                 MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




 Composition of USPTO Assets (Dollars in Millions)                         FY 2005          FY 2006          FY 2007          FY 2008         FY 2009
 Cash                                                                      $	      8.8      $	     6.8       $	     7.0       $	     4.4      $	     3.2
 Fund Balance with Treasury                                                	 1,240.8        	 1,401.8        	 1,402.7        	 1,431.2       	 1,309.8
 Property, Plant, and Equipment, Net                                       	     148.4      	    164.5       	    204.6       	    204.2      	    205.8
 Accounts Receivable and Prepayments                                       	      11.1      	      7.2       	     11.2       	      8.5      	     13.5
    Total Assets                                                           $	 1,409.1       $	 1,580.3       $	 1,625.5       $	 1,648.3      $	 1,532.3
 Percentage Change in Total Assets                                         	     8.6%       	 12.1%          	    2.9%        	    1.4%       	 (7.0)%

Balance Sheet and Statement                                                     The other major asset is property, plant, and equipment. The net
of Changes in Net Position                                                      balance of this asset has increased by $57.4 million during the
                                                                                past four years, with the acquisition values of property, plant, and
At the end of FY 2009, the USPTO’s consolidated Balance Sheet                   equipment increasing by $240.9 million. Investments in IT
presents total assets of $1,532.3 million, total liabilities of $1,156.5        software and software in development increased $111.2 million,
million, and a net position of $375.8 million.                                  in conjunction with enhancing the existing e-government capa-
                                                                                bilities in areas such as e-filing, application information retrieval,
Total assets increased 8.7 percent over the last four years,                    data and image capture, and web-based search systems.
resulting largely from the increase in Fund Balance with Treasury
and Property, Plant, and Equipment. The decrease in total assets                Total liabilities decreased from $1,215.7 million at the end of
during FY 2009 is a result of the decrease in Fund Balance with                 FY 2008 to $1,156.5 million at the end of FY 2009, representing
Treasury, resulting from the decrease in fee income. The table                  a decrease of $59.2 million, or 4.9 percent. The table below
above shows the changes in assets during this period.                           shows the annual change in liabilities for each of the past five
                                                                                years.
Fund Balance with Treasury is the single largest asset on the
Balance Sheet and represents 85.5 percent of total assets at the                The USPTO’s deferred revenue is the largest liability on the
end of FY 2009. This asset is comprised of unpaid obligated                     Balance Sheet. The liability for deferred revenue is calculated by
funds of $331.8 million, temporarily unavailable fees of                        analyzing the process for completing each service provided. The
$528.7 million, unavailable special receipt funds under OBRA of                 percent incomplete based on the inventory of pending work is
$233.5 million, other funds held on deposit for customers of                    applied to fee collections to estimate the amount for deferred
$97.1 million, and unobligated funds of $118.7 million.                         revenue liability.

The unavailable special receipt funds and the temporarily                       From FY 2005 through FY 2008, the deferred revenue liability
unavailable funds require Congressional appropriation before                    increased $141.8 million, or 20.1 percent. At the end of FY 2009,
they will be available for USPTO’s use. These funds, together                   deferred revenue liability was $800.3 million, representing a one
with amounts obligated and held on deposit, represent                           year decrease of $48.2 million, or 5.7 percent. The deferred
90.9 percent of the Fund Balance with Treasury.                                 revenue liability includes unearned patent and trademark fees, as

 Composition of USPTO Liabilities (Dollars in Millions)                    FY 2005          FY 2006          FY 2007          FY 2008         FY 2009
 Deferred Revenue                                                          $	 706.7         $	 774.4         $	 828.1         $	 848.5        $	 800.3
 Accounts Payable                                                          	     101.8      	    104.4       	     96.6       	     96.7      	     90.2
 Accrued Payroll, Leave, and Benefits                                      	      90.7      	    101.4       	    120.3       	    145.4      	    156.8
 Customer Deposit Accounts                                                 	      74.1      	     83.8       	     91.9       	    101.5      	     98.1
 Other Liabilities                                                         	      18.0      	     18.3       	     24.6       	     23.6      	     11.1
    Total Liabilities                                                      $	 991.3         $	 1,082.3       $	 1,161.5       $	 1,215.7      $	 1,156.5
 Percentage Change in Total Liabilities                                    	 19.7%          	    9.2%        	    7.3%        	    4.7%       	 (4.9)%



www.uspto.gov	                                                                                                                                             53
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




                                                                         where increased fees associated with the unearned patent and
                                                                         trademark application filings are a factor, such as with FY 2005,
                                                                         FY 2006, FY 2008, and again in FY 2009, the percentage change
                                                                         in first action pendency months was less than the percentage
                                                                         change in deferred revenue.

                                                                         The below table depicts the annual changes in the filings and
                                                                         pendencies during each of the past five years.

                                                                         Deferred revenue associated with the patent process is expected
                                                                         to further decrease. In the FY 2010 President’s Budget, the
                                                                         number of patent applications filed from FY 2010 through
                                                                         FY 2014 is expected to gradually increase, with first action
                                                                         pendency decreasing to 21.3 months by FY 2014 and total
well as undeposited checks. The unearned patent fees repre-              pendency at 33.8 months by FY 2014. The pendency decreases
sented 92.7 percent of this liability. The above graph depicts the       will result in patent deferred revenue decreases.
composition of the deferred revenue liability, in addition to the
change in this liability over the past four years.                       The deferred revenue associated with the trademark process
                                                                         continued to decrease in FY 2009. Trademark unearned fees
Deferred revenue at the USPTO is largely impacted by the                 decreased by $11.4 million, or 16.5 percent, from FY 2008, with
change in patent and trademark filings, changes in the first action      a total 33.3 percent decrease over the past four years. This was
pendency rates, and changes in fee rates. In a year where                consistent with trademark first action pendency decreasing to
increased fees associated with the unearned patent and trademark         2.7 months and total trademark pendency decreasing to 13.5
application filings are not a factor, such as with FY 2007, the          months, combined with the decrease in trademark applications.
percentage change in deferred revenue is consistent with the             Estimates included in the FY 2010 President’s Budget project the
percentage change in the first action pendency months. In a year         pendencies to remain constant in the upcoming years.


 Filings and Pendencies                                                FY 2005      FY 2006       FY 2007       FY 2008       FY 2009
                                                                                                                                      1
 Patent Filings                                                         409,532      445,613       468,330       496,886      485,500
 Percentage Change in Patent Filings                                      8.1%          8.8%          5.1%          6.1%        (2.3)%

 Patent First Action Pendency (months)                                     21.1         22.6          25.3           25.6          25.8
 Percentage Change in Patent First Action Pendency                        4.5%          7.1%         11.9%          1.2%          0.8%
 Total Patent Pendency (months)                                            29.1         31.1          31.9           32.2          34.6
 Percentage Change in Total Patent Pendency                               5.4%          6.9%          2.6%          0.9%          7.5%

 Trademark Filings                                                      323,501      354,775       394,368       401,392       352,051
 Percentage Change in Trademark Filings                                   8.4%          9.7%         11.2%          1.8%       (12.3)%

 Trademark First Action Pendency (months)                                   6.3           4.8           2.9           3.0           2.7
 Percentage Change in Trademark First Action Pendency                    (4.5)%      (23.8)%       (39.6)%          3.4%       (10.0)%
 Total Trademark Pendency (months)                                         19.6         18.0          15.1           13.9          13.5
 Percentage Change in Total Trademark Pendency                            0.5%        (8.2)%       (16.1)%        (7.9)%        (2.9)%
 1	   Preliminary data




54	                                                                   PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                        MA N A G E ME N T ' S D I S C U S S I O N A N D A N A LYSIS




 USPTO Net Position (Dollars in Millions)                              FY 2005       FY 2006        FY 2007          FY 2008         FY 2009
 Net Position                                                        $	 417.8       $	 498.0      $	 464.0         $	 432.6        $	 375.8
 Percentage Change in Net Position                                   	 (10.9)%      	 19.2%       	 (6.8)%         	 (6.8)%        	 (13.1)%


The Statement of Changes in Net Position presents the changes            The financial data in this report and the financial statements that
in the financial position of the USPTO due to results of opera-          follow have been prepared from the accounting records of the
tions and unexpended appropriations. The movement in net                 USPTO in conformity with GAAP. The USPTO’s financial state-
position is the result of the net income or net cost for the year.       ments consist of the Balance Sheet, the Statement of Net Cost, the
The annual change in the net position for each of the past five          Statement of Changes in Net Position, the Statement of Budgetary
years is presented in the above table.                                   Resources, and the Statement of Cash Flows. The financial state-
                                                                         ments were prepared pursuant to the requirements of 31 (United
The decrease in net position from $432.6 million at the end of           States Code) U.S.C. 3515(b). The following limitations apply to
FY 2008 to $375.8 million at the end of FY 2009, or 13.1 percent,        the preparation of the financial statements:
is attributable largely to the results of operations.
                                                                         ●● While  the statements are prepared from books and records
                                                                            in accordance with the formats prescribed by the OMB, the
Limitation on financial statements                                          statements are in addition to the financial reports used to
                                                                            monitor and control budgetary resources, which are prepared
The USPTO has prepared its FY 2009 financial statements in
                                                                            from the same books and records.
accordance with the requirements of OMB Circular A-136,
Financial Reporting Requirements, as amended, and guidance
                                                                         ●● The   statements should be read with the realization that the
provided by the Department of Commerce. OMB Circular A-136
                                                                            USPTO is a component of the U.S. Government, a sovereign
incorporates the concepts and standards contained in the
                                                                            entity. One implication is that unfunded liabilities cannot be
Statements of Federal Financial Accounting Concepts (SFFAC)
                                                                            liquidated without legislation that provides resources to do so.
and the Statements of Federal Financial Accounting Standards
(SFFAS) recommended by the Federal Accounting Standards
                                                                         In addition, certain information contained in this financial discus-
Advisory Board (FASAB) and approved by the Secretary of the
                                                                         sion and analysis and in other parts of this Performance and
Treasury, the Director of the OMB, and the Comptroller
                                                                         Accountability Report may be deemed forward-looking state-
General.
                                                                         ments regarding events and financial trends that may affect future
                                                                         operating results and financial position. Such statements may be
On October 19, 1999, the American Institute of Certified Public
                                                                         identified by words such as “estimate,” “project,” “plan,” “intend,”
Accountants Council designated the FASAB as the accounting
                                                                         “believe,” “expect,” “anticipate,” or variations or negatives thereof
standards-setting body for Federal government entities. Therefore,
                                                                         or by similar or comparable words or phrases. Prospective state-
the SFFAS constitute accounting principles generally accepted in
                                                                         ments are subject to risks and uncertainties that could cause
the United States (GAAP) for the Federal Government. These
                                                                         actual results to differ materially from those expressed in the
concepts and standards have been set by FASAB to help Federal
                                                                         statements. Such risks and uncertainties include, but are not
agencies comply with the requirements of the Chief Financial
                                                                         limited to, the following: changes in U.S. or international IP laws;
Officers’ Act of 1990, as amended by the Government Management
                                                                         changes in U.S. or global economic conditions; the availability,
Reform Act of 1994. These two Acts demand financial account-
                                                                         hiring and retention of qualified staff employees; management of
ability from Federal agencies and require the integration of
                                                                         patent and trademark growth; Government regulations; disputes
accounting, financial management, and cost accounting systems.
                                                                         with labor organizations; and deployment of new technologies.
                                                                         The USPTO undertakes no obligation to publicly update these
                                                                         financial statements to reflect events or circumstances after the
                                                                         date hereof, or to reflect the occurrence of unanticipated events.




www.uspto.gov	                                                                                                                                 55
M A NAGE MENT 'S DISCUS S I O N AND ANALYS I S




Management Responsibilities
USPTO management is responsible for the fair presentation of
information contained in the principal financial statements, in
conformity with GAAP, the requirements of OMB Circular A-136,
and guidance provided by the Department of Commerce.
Management is also responsible for the fair presentation of the
USPTO’s performance measures in accordance with OMB
requirements. The quality of the USPTO’s internal control rests
with management, as does the responsibility for identifying and
complying with pertinent laws and regulations.




                                                                       The National Inventors Hall of Fame returns to its roots at the
                                                                       USPTO in March. The Hall of Fame was founded in 1973 by the
                                                                       USPTO and the National Council of Intellectual Property Law
                                                                       Association to honor and encourage the men and women respon-
                                                                       sible for the great technological advances that make human, social,
                                                                       and economic progress possible. Originally housed at the USPTO,
                                                                       the Hall outgrew its location and moved to Akron, Ohio, where it
                                                                       opened to the public in 1995, and where it developed additional
                                                                       programs. The organization’s headquarters remain in Ohio.




56	                                                               PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
Financial
Section




                    accuracy

                                          data

     transparency

                                 vision




                    leadership
Message from the Acting
Chief Financial Officer


T
       he latter half of FY 2009
       proved to be a challeng-
       ing period of time for
the USPTO.    Being an Agency
funded entirely by user fees,
the recent economic downturn
brought about a decline in fee
collections, revealed vulnerabil-
ity in the method for financing
the USPTO, and hampered oper-
ations of the U.S. patent system.
The impact of the downturn
became evident when our cus-
tomers started paying for fewer
new patent applications and
patents maintained.

In response, the USPTO promptly implemented almost $200 million in budget
reductions and cost-savings measures: stopping all overtime, including that
producing patents and fees; suspending new hiring, but for a few critical
positions; reducing or eliminating all non-essential, information technology (IT)
business system improvement projects; reducing the funds applied to critical IT
infrastructure projects; reducing the level of operating services obtained through
contracts; curtailing performance awards; significantly reducing mission-related
travel; and suspending training except where mandatory to sustain critical job
qualifications. These efforts positioned the USPTO to operate within the
reduced fee collection levels through the end of FY 2009, and into FY 2010.

Throughout these difficult times, the OCFO continued to play a significant role
in supporting the strategic direction of the USPTO by working as a trusted
partner to the organization and providing sound advice to enable informed
program and financial decision-making. As we look to the future, the OCFO




58	            PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
will continue to expand its role by: working toward a long       assessment found that the USPTO has built a robust activity-
term solution for stabilizing the financing of the USPTO;        based cost modeling system that ranks at highest levels in
intimately understanding the operations of our programs;         terms of best practice within the government, as well as
guiding cost reduction efforts; identifying key business         outside the government. This is an important foundation as
performance measures; adopting leading-edge information          we thoroughly analyze the cost of operations at the USPTO
systems that support the USPTO strategic priorities; assuring    relative to the fees we charge for patent and trademark
compliance through adequate internal controls; and               products and services.
enhancing the financial and business skills of our
employees.                                                       As noted by many, the USPTO continued a high standard of
                                                                 financial management and its achievements and challenging
Despite our financial challenges, and for the 17th consecutive   goals can only be accomplished by the dedicated efforts of
year, we have received an unqualified opinion on our             our talented and committed employees. We look forward to
financial statements. Along with the unqualified opinion,        the future with confidence as we continue to exercise fiscal
the auditors reported no material weaknesses in the design       prudence into FY 2010.
and operation of the USPTO’s system of internal control over
financial reporting. In addition, the auditors reported that
our financial system complies with Federal financial systems
requirements.     For the seventh consecutive year, the
Association of Government Accountants awarded the USPTO
the Certificate of Excellence in Accountability Reporting for    Mark J. Olechowski
our FY 2008 Performance and Accountability Report,               Acting Chief Financial Officer
clearly demonstrating our excellence in integrating              November 5, 2009
performance and accountability reporting.

With a drive for continuous improvement, we continue to
review financial management and related processes to
identify areas for advancement in efficiency, financial and
performance data integration, and internal controls to ensure
unmatched reliability in financial activities. As a case in
point, this year we sought out an independent validation of
our cost accounting methodology and program. The




www.uspto.gov 	                                                                                                           59
GOAL 2   Principal Financial
         Statements and
         Related Notes




           PAR TEAM — Members of the USPTO FY 2008 Performance and Accountability Report
           team. From left: CFO Barry Hudson, Shana Willard, Maureen Brown, Karen Smith,
           Dennis Detar, Jack Buie, Ali Emgushov and Deputy CFO Mark Olechowski.




         60	            PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                      F inancial Section




U n i t e d S t a t e s P ATENT AND T R ADE M A R K O F F I C E
C O N S O L IDATED B A L AN C E S H EET S

As of September 30, 2009 and 2008

(Dollars in Thousands)                                                               2009             2008

ASSETS
	 Intragovernmental:
		 Fund Balance with Treasury (Note 2)                                       $       1,309,807    $       1,431,242
		     Accounts Receivable                                                                  143       	         —
		     Advances and Prepayments                                                         3,480                2,591
	   Total Intragovernmental                                                          1,313,430            1,433,833

	   Cash                                                                                3,231                4,358
	   Accounts Receivable, Net                                                                295                517
	   Advances and Prepayments                                                            9,582                5,398
	   Property, Plant, and Equipment, Net (Note 4)                                      205,802              204,184
	   Total Assets                                                             $       1,532,340    $       1,648,290

LIABILITIES
	   Intragovernmental:
		     Accounts Payable                                                      $          4,852     $          4,675
		     Accrued Payroll and Benefits                                                    12,486                9,323
		     Accrued Workers’ and Unemployment Compensation                                   1,771                1,950
		     Customer Deposit Accounts (Note 3)                                               5,419                4,535
	   Total Intragovernmental                                                            24,528               20,483

	   Accounts Payable                                                                   85,336               92,019
	   Accrued Payroll and Benefits                                                       76,758               76,052
	   Accrued Leave                                                                      67,512               60,060
	   Customer Deposit Accounts (Note 3)                                                 92,659               96,940
	   Patent Cooperation Treaty Account (Note 3)                                   	          —               11,598
	   Madrid Protocol Account (Note 3)                                             	          —                  311
	   Deferred Revenue (Note 6)                                                         800,256              848,505
	   Actuarial Liability (Note 7)                                                        8,097                8,318
	   Contingent Liability (Note 14)                                                      1,400                1,400
	   Total Liabilities (Note 5)                                               $       1,156,546    $       1,215,686

NET POSITION
	   Cumulative Results of Operations – Earmarked Funds (Note 10)             $        375,794     $        432,604
	   Total Net Position                                                       $        375,794     $        432,604
Total Liabilities and Net Position                                           $       1,532,340    $       1,648,290

The accompanying notes are an integral part of these financial statements.




www.uspto.gov	                                                                                                        61
Financial Section




      U n i t e d S t a t e s P ATENT AND T R ADE M A R K O F F I C E
      C O N S O L IDATED S TATE M ENT S O F NET C O S T

      For the years ended September 30, 2009 and 2008

      (Dollars in Thousands)                                                                          2009              2008

      Strategic Goal 1: Optimize Patent
      	 Quality and Timeliness
      	   Total Program Cost                                                                      $   1,744,676     $   1,655,656
      	   Total Program Earned Revenue                                                                (1,697,432)       (1,624,993)
      	   Net Program Cost                                                                               47,244            30,663


      Strategic Goal 2: Optimize Trademark
      	 Quality and Timeliness
      	   Total Program Cost                                                                            193,187           192,587
      	   Total Program Earned Revenue                                                                 (229,698)         (237,181)
      	   Net Program Income                                                                            (36,511)          (44,594)


      Strategic Goal 3: Improve Intellectual Property Protection
      	 and Enforcement Domestically and Abroad
      	 Total Program Cost                                                                               44,077            44,347
      Net Cost of Operations (Note 11)                                                            $      54,810     $      30,416

      Total Entity
      	   Total Program Cost (Notes 12 and 13)                                                    $    1,981,940    $   $1,892,590
      	   Total Earned Revenue                                                                        (1,927,130)       (1,862,174)
      Net Cost of Operations (Note 11)                                                            $      54,810     $      30,416

      The accompanying notes are an integral part of these financial statements.




62	                                                                        PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                    F inancial Section




U n i t e d S t a t e s P ATENT AND T R ADE M A R K O F F I C E
C O N S O L IDATED S TATE M ENT S O F C H AN G E S IN NET P O S ITI O N

For the years ended September 30, 2009 and 2008

(Dollars in Thousands)                                                            2009               2008

                                                                             Earmarked Funds   Earmarked Funds

Cumulative Results of Operations
	   Beginning Balances                                                        $    432,604      $     464,020

Budgetary Financing Sources:
	 Transfers Out Without Reimbursement                                               (2,000)            (1,000)
Total Financing Sources                                                             (2,000)            (1,000)
Net Cost of Operations                                                             (54,810)           (30,416)
Net Change                                                                         (56,810)           (31,416)
Cumulative Results of Operations                                              $    375,794      $     432,604

Net Position, End of Year                                                     $    375,794      $     432,604

The accompanying notes are an integral part of these financial statements.




www.uspto.gov	                                                                                                     63
Financial Section




           U n i t e d S t a t e s P ATENT AND T R ADE M A R K O F F I C E
           C O mb i n e d S TATE M ENT S O F B U D G ETA R Y R E S O U R C E S

           For the years ended September 30, 2009 and 2008

           (Dollars in Thousands)                                                                2009                 2008

           BUDGETARY RESOURCES
           	 Unobligated Balance - Brought Forward, October 1                                $      72,079        $      28,036
           	 Recoveries of Prior Year Unpaid Obligations                                            30,760               11,963
           	 Spending Authority from Offsetting Collections:
           		 Earned:
           			 Collected                                                                          1,927,415            1,862,291
           			 Customer Receivables and Refund Payables                                                 136                  (77)
           		 Change in Unfilled Customer Orders - Advance Received                                 (47,186)              23,407
           		 Total Spending Authority from Offsetting Collections                                1,880,365            1,885,621
           	 Nonexpenditure Transfers, Net, Anticipated and Actual                                   (2,000)              (1,000)
           Total Budgetary Resources                                                         $    1,981,204       $    1,924,620

           STATUS OF BUDGETARY RESOURCES
           	 Obligations Incurred - Reimbursable                                             $    1,862,512       $    1,852,541
           	 Unobligated Balance:
           		 Apportioned for Current Year		                                                       118,692               64,068
           	 Unobligated Balance not Available                                                                -           8,011
           Total Status of Budgetary Resources                                               $    1,981,204       $    1,924,620

           CHANGE IN OBLIGATED BALANCE
           	 Obligated Balance, Net
           		 Unpaid Obligations, Brought Forward, October 1                                 $     483,861        $     511,467
           		 Customer Receivables and Refund Payables,
           			 Brought Forward, October 1                                                               661                  584
           	   Total Unpaid Obligated Balance Brought Forward, Net                                 484,522              512,051

           	 Obligations Incurred, Net                                                            1,862,512            1,852,541
           		 Gross Outlays                                                                      (1,984,363)          (1,868,184)
           		 Recoveries of Prior Year Unpaid Obligations, Actual                                   (30,760)             (11,963)
           		 Change in Customer Receivables and Refund Payables                                       (136)                  77
           	   Total Unpaid Obligated Balance, Net, Current Year                                   (152,747)             (27,529)

           	 Obligated Balance, Net, End of Year
           		 Unpaid Obligations                                                                   331,250              483,861
           		 Uncollected Customer Receivables and Unpaid Refund Payables                              525                  661
           	   Total Unpaid Obligated Balance, Net, End of Year                              $     331,775        $     484,522

           NET OUTLAYS
           	 Gross Outlays                                                                   $    1,984,363       $    1,868,184
           	 Offsetting Collections                                                              (1,880,229)          (1,885,698)
           Net Outlays /(Collections)                                                        $     104,134        $      (17,514)

           The accompanying notes are an integral part of these financial statements.




64	                                                                     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                        F inancial Section




U n i t e d S t a t e s P ATENT AND T R ADE M A R K O F F I C E
C O N S O L IDATED S TATE M ENT S O F C A S H F L O W S ( INDI R E C T M ET H O D )

For the years ended September 30, 2009 and 2008

(Dollars in Thousands)                                                            2009                 2008

CASH FLOWS FROM OPERATING ACTIVITIES
	 Net Cost of Operations                                                     $      (54,810)   $         (30,416)
	 Adjustments Affecting Cash Flow:
		 Decrease in Accounts Receivable                                                      79                4,561
		 Increase in Advances and Prepayments                                             (5,073)              (1,856)
		 (Decrease)/Increase in Accounts Payable                                          (6,506)                  92
		 Increase in Accrued Payroll and Benefits                                          3,869               16,822
		 Increase in Accrued Leave and Workers’ and Unemployment Compensation              7,273                8,411
		 (Decrease)/Increase in Customer Deposit Accounts                                 (3,397)               9,606
		 Decrease in Patent Cooperation Treaty Account                                 	      —                (2,119)
		 Decrease in Madrid Protocol Account                                           	      —                  (139)
		 (Decrease)/Increase in Deferred Revenue                                         (48,249)              20,435
		 Increase in Contingent Liability                                              	      —                   748
		 (Decrease)/Increase in Actuarial Liability                                         (221)                 389
		 Depreciation, Amortization, or Loss on Asset Dispositions                        63,345               67,636
	   Total Adjustments                                                               11,120              124,586
Net Cash (Used)/Provided by Operating Activities                                    (43,690)             94,170

CASH FLOWS FROM INVESTING ACTIVITIES
	 Purchases of Property and Equipment                                               (64,963)             (67,243)
Net Cash Used in Investing Activities                                               (64,963)             (67,243)

CASH FLOWS FROM FINANCING ACTIVITIES
	 Transfers Out Without Reimbursement                                                (2,000)              (1,000)
Net Cash Used in Financing Activities                                                (2,000)              (1,000)
Net Cash (Used)/Provided by Operating, Investing, and Financing Activities        (110,653)              25,927

Effect of Implementation of SFFAS No. 31 (Notes 1 and 15)                           (11,909)       	          –

Net Cash (Used)/Provided                                                     $ 	 (122,562)     $         25,927

Fund Balance with Treasury and Cash, Beginning of Year                       $   1,435,600     $       1,409,673
Net Cash (Used)/Provided                                                         	 (122,562)             25,927
Fund Balance with Treasury and Cash, End of Year                             $   1,313,038     $       1,435,600

The accompanying notes are an integral part of these financial statements.




www.uspto.gov	                                                                                                         65
Financial Section




      U nited S tates P A T E N T A N D T R A D E M A R K O F F I C E
      N O T E S T O F I N A N C I A L S TAT E M E N T S

      As of and for the years ended September 30, 2009 and 2008


      N O T E 1 . S ummary of S ignificant A ccounting P olicies

      Reporting Entity
      The United States Patent and Trademark Office (USPTO) is an agency of the United States within the U.S. Department
      of Commerce. The USPTO administers the laws relevant to patents and trademarks and advises the Secretary of
      Commerce, the President of the United States, and the Administration on patent, trademark, and copyright protection,
      and trade-related aspects of intellectual property.

      These financial statements include the USPTO’s three core business activities – granting patents, registering trademarks,
      and intellectual property protection and enforcement – that promote the use of intellectual property rights as a means
      of achieving economic prosperity. These activities give innovators, businesses, and entrepreneurs the protection and
      encouragement they need to turn their creative ideas into tangible products, and also provide protection for their
      inventions and trademarks.

      These financial statements report the accounts for salaries and expenses (13X1006), special fund receipts (135127),
      customer deposits from the public and other Federal agencies (13X6542), Patent Cooperation Treaty collections
      (13X6538), and the Madrid Protocol Collections (13X6554) that are under the control of the USPTO. The Federal budget
      classifies the USPTO under the Other Advancement of Commerce (376) budget function. The USPTO does not have
      custodial responsibility, nor does it have lending or borrowing authority. The USPTO does not transact business among
      its own operating units, and therefore, no intra-entity eliminations are necessary.

      Basis of Presentation
      As required by the Chief Financial Officers’ Act of 1990 and 31 U.S.C. §3515(b), the accompanying financial statements
      present the financial position, net cost of operations, budgetary resources, and cash flows for the USPTO’s core
      business activities. The books and records of the USPTO serve as the source of this information.

      These financial statements were prepared in accordance with accounting principles generally accepted in the United
      States (GAAP) and the form and content for entity financial statements specified by the Office of Management and
      Budget (OMB) in Circular A-136, Financial Reporting Requirements, as amended, as well as the accounting policies
      of the USPTO. Therefore, they may differ from other financial reports submitted pursuant to OMB directives for the
      purpose of monitoring and controlling the use of the USPTO’s budgetary resources. The GAAP for Federal entities are
      the standards prescribed by the Federal Accounting Standards Advisory Board (FASAB), which is the official body for
      setting the accounting standards of the Federal Government.

      Throughout these financial statements, assets, liabilities, revenues, and costs have been classified according to the type
      of entity with which the transactions are associated. Intra-governmental assets and liabilities are those from or to other
      Federal entities. Intra-governmental earned revenues are collections or accruals of revenue from other Federal entities
      and intra-governmental costs are payments or accruals to other Federal entities.

      The USPTO is a party to allocation transfers with another federal agencies as a receiving (child) entity. Allocation
      transfers are legal delegations by one department of its authority to obligate budget authority and outlay funds to
      another department. A separate fund account (allocation account) is created in the U.S. Treasury as a subset of the
      parent fund account for tracking and reporting purposes. All allocation transfers of balances are credited to this



66	                                                          PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                             F inancial Section




N O T E 1 . S ummary of S ignificant A ccounting P olicies (Continued)


account, and subsequent obligations and outlays incurred by the child entity are charged to this allocation account
as they execute the delegated activity on behalf of the parent entity. Generally, all financial activity related to these
allocation transfers (e.g. budget authority, obligations, and outlays) is reported in the financial statements of the parent
entity, from which the underlying legislative authority, appropriations, and budget apportionments are derived. The
USPTO receives allocation transfers, as the child, from the General Services Administration. Activity relating to these
child allocation transfers is not reported in the USPTO’s financial statements.

Basis of Accounting
Transactions are recorded on the accrual basis of accounting, as well as on a budgetary basis. Accrual accounting allows for
revenue to be recognized when earned and expenses to be recognized when goods or services are received, without regard
to the receipt or payment of cash. Budgetary accounting allows for compliance with the requirements for and controls over
the use of Federal funds. The accompanying financial statements are presented on the accrual basis of accounting.

Earmarked Funds
Statement of Federal Financial Accounting Standard 27, Identifying and Reporting Earmarked Funds, requires separate
identification of the earmarked funds on the Consolidated Balance Sheets (Net Position section), Consolidated Statements
of Changes in Net Position, and further disclosures in a footnote (Note 10).

Earmarked funds are financed by specifically identified revenues, which remain available over time. These specifically
identified revenues are required by statute to be used for designated activities, benefits, or purposes, and must be
accounted for separately from the Government’s general revenues. At the USPTO, earmarked funds include the salaries
and expenses fund (13X1006) and the special fund receipts (135127).

Fiduciary Activities
Statement of Federal Financial Accounting Standard 31, Accounting for Fiduciary Activities, requires that, starting in
FY 2009, fiduciary activities will no longer be recognized on the financial statements, but will be reported on schedules
in the notes to the financial statements (Note 15).

Fiduciary cash and other assets are not assets of the Federal Government. Fiduciary activities are the collection or
receipt, and the management, protection, accounting, and disposition by the Federal Government of cash or other
assets in which non-Federal individuals or entities have an ownership interest that the Federal Government must
uphold. At the USPTO, fiduciary activities are recorded in the Patent Cooperation Treaty fund (13X6538) and the
Madrid Protocol fund (13X6554).

Budgets and Budgetary Accounting
Total budgetary resources are primarily comprised of Congressional authority to spend current year fee collections. In
FY 2009, the USPTO was appropriated up to $2,010,100 thousand for fees collected during the fiscal year. However, as
the fiscal year progressed, fee collections were not being received as they had been anticipated. In FY 2008, the USPTO
was appropriated up to $1,915,500 thousand for fees collected during the fiscal year. For the year ended September
30, 2009, the USPTO collected $26,724 thousand less than the amount apportioned through September 30, 2009. For
the year ended September 30, 2008, the USPTO collected $36,205 thousand less than the amount apportioned through
September 30, 2008.

The USPTO receives an apportionment of Category A funds from OMB, which apportions budgetary resources by fiscal
quarter. The USPTO does not receive any Category B funds, or those exempt from apportionment.




www.uspto.gov	                                                                                                                 67
Financial Section




      N O T E 1 . S ummary of S ignificant A ccounting P olicies (Continued)


      Funding Limitations
      Pursuant to the Patent and Trademark Office Fee Fairness Act of 1999 (35 U.S.C. §42(c)), all fees available to the
      Director under section 31 of the Trademark Act of 1946 are used only for the processing of trademark registrations
      and for other activities, services, and materials relating to trademarks, as well as to cover a proportionate share of the
      administrative costs of the USPTO.

      Legislation was passed in July 2009 that allows the USPTO to use surplus funds from Trademark revenues to cover any
      shortfalls that may occur as the result of the decrease in Patent fee collections [H.R. 3114]. The authority to use these
      funds lasts until June 2010. Should such use of Trademark funds be necessary, the amount must be paid back to the
      Trademark organization no later than September 30, 2014. As of September 30, 2009, Trademark funds were not used
      for Patent operations.

      In addition, the FY 2009 appropriation language restricted from obligation $5,000 thousand of offsetting collections
      until “the USPTO has completed a comprehensive review of the assumptions behind the patent examiner expectancy
      goals and adopted a revised set of expectancy goals for patent examination.”

      The total temporarily unavailable fee collections pursuant to Public Law as of September 30, 2009 are $762,216
      thousand. Of this amount, certain USPTO collections of $233,529 thousand were withheld in accordance with the
      Omnibus Budget Reconciliation Act (OBRA) of 1990, and deposited in a special fund receipt account at the U.S.
      Department of the Treasury.

      Use of Estimates
      The preparation of financial statements in conformity with GAAP requires management to make estimates and
      assumptions that affect the reported amounts of assets and liabilities and the disclosure of contingent assets and
      liabilities as of the date of the financial statements and the reported amounts of revenues and expenses during the
      reporting period. Actual results could differ from these estimates.

      Revenue and Other Financing Sources
      The USPTO’s fee rates are established by law and, consequently, in some instances may not represent full cost or
      market price. Since FY 1993, the USPTO’s funding has been primarily through the collection of user fees. Fees that
      are remitted with initial applications and requests for other services are recorded as exchange revenue when received,
      with an adjustment to defer revenue for services that have not been performed. All amounts remitted by customers
      without a request for service are recorded as liabilities in customer deposit accounts until services are ordered.

      The USPTO also receives some financial gifts and gifts-in-kind. All such transactions are included in the consolidated
      Gifts and Bequests Fund financial statements of the U.S. Department of Commerce. These gifts are not of significant
      value and are not reflected in the USPTO’s financial statements. Most gifts-in-kind are used for official travel to further
      attain the USPTO mission and objectives.

      Entity/Non-Entity
      Assets that an entity is authorized to use in its operations are termed entity assets, while assets that are held by an entity
      and are not available for the entity’s use are termed non-entity assets. Most of the USPTO’s assets are entity assets and
      are available to carry out the mission of the USPTO, as appropriated by Congress, with the exception of a portion of
      the Fund Balance with Treasury and cash as highlighted in Note 3.




68	                                                            PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                               F inancial Section




N O T E 1 . S ummary of S ignificant A ccounting P olicies (Continued)


Fund Balance with Treasury
The USPTO deposits fees collected in commercial bank accounts maintained by the Treasury’s Financial Management
Service (FMS). All moneys maintained in these accounts are transferred to the Federal Reserve Bank on the next
business day following the day of deposit. In addition, many customer deposits are wired directly to the Federal
Reserve Bank. All banking activity is conducted in accordance with the directives issued by the FMS. Treasury
processes all disbursements. (Note 2)

Accounts Receivable
Accounts receivable balances are established for amounts owed to the USPTO from its customers. The USPTO’s
accounts receivable balances are comprised of amounts due from former employees for the reimbursement of education
expenses and other benefits, amounts due from foreign intellectual property offices for the reimbursement of services
provided, amounts due from other Federal agencies for the reimbursement of services provided, and other revenue-
related receivables. This balance in accounts receivable remains as a very small portion of the USPTO’s assets, as the
USPTO requires payment prior to the provision of goods or services during the course of its core business activities.

The USPTO has written off, but not closed out, $154 thousand and $60 thousand of accounts receivables that are considered
not collectible as of September 30, 2009 and 2008, respectively. These offsets are established for receivables older than two
years with little or no collection activity that have been transferred to Treasury, subsequently adjusting the gross amount of
its employee-related accounts receivable to the net realizable value. The gross amount of the USPTO’s employee-related
accounts receivable as of September 30, 2009 and 2008 was $424 thousand and $474 thousand, respectively.

Receivables due from foreign intellectual property offices as of September 30, 2009 and 2008 were $15 thousand and
$58 thousand, respectively.

Intragovernmental receivables as of September 30, 2009 totaled $143 thousand.

Revenue-related receivables as of September 30, 2009 and 2008 totaled $10 thousand and $45 thousand, respectively.

Advances and Prepayments
On occasion, the USPTO prepays amounts in anticipation of receiving future benefits. Although a payment has been
made, an expense is not recorded until goods have been received or services have been performed. The USPTO has
prepayments and advances with non-governmental, as well as governmental vendors.

Total prepayments and advances to non-governmental vendors as of September 30, 2009 and 2008 were $9,582
thousand and $5,398 thousand, respectively. The largest prepayments as of September 30, 2009 were $5,948 thousand
for various hardware and software maintenance agreements. The largest prepayments as of September 30, 2008 were
$1,556 thousand for various cooperative efforts with the National Inventors Hall of Fame, the International Intellectual
Property Institute, and the World Intellectual Property Organization. Travel advances to personnel as of September 30,
2009 and 2008 were $13 thousand and $18 thousand, respectively.

Total prepayments and advances to governmental vendors as of September 30, 2009 and 2008 were $3,480 thousand and
$2,591 thousand, respectively. The largest governmental prepayments include the USPTO deposit accounts held with
the U.S. Government Printing Office to facilitate recurring transactions. Deposit accounts held with the U.S. Government
Printing Office as of September 30, 2009 and 2008 were $1,671 thousand and $1,491 thousand, respectively.




www.uspto.gov	                                                                                                                   69
Financial Section




      N O T E 1 . S ummary of S ignificant A ccounting P olicies (Continued)


      Cash
      Most of the USPTO’s cash balance consists of checks, electronic funds transfer, and credit card payments for deposits
      that are in transit and have not been credited to the USPTO’s Fund Balance with Treasury. As of September 30,
      2009, $2,698 thousand were in transit due to the lag time between deposits in commercial bank accounts and the
      confirmation received from Treasury. Of this balance, $954 thousand were non-entity deposit account assets. As of
      September 30, 2008, $2,729 thousand were in transit due to the lag time between deposits in commercial bank accounts
      and the confirmation received from Treasury. Of this balance, $772 thousand were non-entity deposit account assets,
      $141 thousand were Patent Cooperation Treaty assets, and $12 thousand were Madrid Protocol Account assets.

      The cash balance also consists of undeposited checks for fees that were not processed at the Balance Sheet date due
      to the lag time between receipt and initial review. All such undeposited check amounts are considered to be cash
      equivalents. As of September 30, 2009 and 2008, the cash balance includes undeposited checks of $532 thousand and
      $1,628 thousand, respectively. Of these balances, $34 thousand were non-entity Patent Cooperation Treaty Account
      assets as of September 30, 2008.

      Cash is also held outside the Treasury to be used as imprest funds. An imprest fund of $1 thousand was held as of
      September 30, 2009 and 2008.

      Property, Plant, and Equipment, Net
      The USPTO’s capitalization policies are summarized below:

      Classes of Property,                           Capitalization Threshold             Capitalization Threshold for
      Plant, and Equipment                           for Individual Purchases                   Bulk Purchases
      IT Equipment                                    $25 thousand or greater                $500 thousand or greater
      Software                                        $25 thousand or greater                $  25 thousand or greater
      Software in Progress                            $25 thousand or greater                $  25 thousand or greater
      Furniture                                       $25 thousand or greater                $  50 thousand or greater
      Equipment                                       $25 thousand or greater                $500 thousand or greater
      Leasehold Improvements                          $25 thousand or greater                      Not applicable

      Contractor costs for developing custom internal use software are capitalized when incurred for the design, coding, and
      testing of the software. Software in progress is not amortized until placed in service. (Note 4)

      Property, plant, and equipment acquisitions that do not meet the capitalization criteria are expensed upon receipt.
      The USPTO does not defer to a future period maintenance on property, plant, and equipment.

      Workers’ Compensation
      Claims brought by USPTO employees for on-the-job injuries fall under the Federal Employees’ Compensation Act
      (FECA) administered by the U.S. Department of Labor (DOL). The DOL bills each agency annually as its claims are
      paid, but payment on these bills is deferred approximately two years to allow for funding through the budget process.
      As of September 30, 2009, the USPTO had a $1,622 thousand liability for estimated claims paid on its behalf during the
      benefit period July 1, 2007 through September 30, 2009. As of September 30, 2008, the USPTO had a $1,791 thousand
      liability for estimated claims paid on its behalf during the benefit period July 1, 2006 through September 30, 2008.




70	                                                        PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                           F inancial Section




N O T E 1 . S ummary of S ignificant A ccounting P olicies (Continued)


Unemployment Compensation
USPTO employees who lose their jobs through no fault of their own may receive unemployment compensation
benefits under the unemployment insurance program administered by the DOL. The DOL bills each agency quarterly
as its claims are paid. As of September 30, 2009 and 2008, the USPTO liability was $149 thousand and $159 thousand,
respectively, for estimated claims paid by the DOL on behalf of the USPTO.

Annual, Sick, and Other Leave
Annual leave and compensatory time are accrued as earned, with the accrual being reduced when leave is taken. An
adjustment is made each fiscal quarter to ensure that the balances in the accrued leave accounts reflect current pay
rates. No portion of this liability has been obligated. To the extent current year funding is not available to pay for
leave earned but not taken, funding will be obtained from future financing sources. Sick leave and other types of
non-vested leave are expensed as used.

Accrued leave as of September 30, 2009 and 2008 was $67,512 thousand and $60,060 thousand, respectively.

Employee Retirement Systems and Post-Employment Benefits
USPTO employees participate in either the Civil Service Retirement System (CSRS) or the Federal Employees Retirement
System (FERS). The FERS was established by the enactment of Public Law 99-335. Pursuant to this law, the FERS and
Social Security automatically cover most employees hired after December 31, 1983. Employees who had five years of
Federal civilian service prior to 1984 and who are rehired after a break in service of more than one year may elect to
join the FERS and Social Security system or be placed in the CSRS offset retirement system.

The USPTO’s financial statements do not report CSRS or FERS assets, accumulated plan benefits, or liabilities applicable
to its employees. The reporting of such amounts is the responsibility of the U.S. Office of Personnel Management
(OPM), who administers the plans. While the USPTO reported no liability for future payments to employees under these
programs, the Federal Government is liable for future payments to employees through the various agencies administering
these programs. The USPTO financial statements recognize an expense, which represents the USPTO’s share of the costs
to the Federal Government of providing pension, post-retirement health, and post-retirement life insurance benefits to
all eligible USPTO employees. The USPTO appropriation requires full funding of the present costs of post-retirement
benefits, such as the Federal Employees Health Benefit Program (FEHB) and the Federal Employees Group Life Insurance
Program (FEGLI), and full funding of the CSRS and FERS pension liabilities. While ultimate administration of any post-
retirement benefits or retirement system payments will continue to be administered by various Federal Government
agencies, the USPTO is responsible for the payment of the present value associated with these costs calculated using the
OPM factors. (Note 9)

For the years ended September 30, 2009 and 2008, the USPTO made current year contributions through agency payroll
contributions and quarterly supplemental payments to OPM equivalent to approximately 19.1 percent and 18.2 percent
of the employee’s basic pay for those employees covered by CSRS, based on OPM cost factors, respectively. For
the years ended September 30, 2009 and 2008, the USPTO made current year contributions through agency payroll
contributions and quarterly supplemental payments to OPM equivalent to approximately 11.5 percent and 11.2 percent
of the employee’s basic pay for those employees covered by FERS, based on OPM cost factors, respectively.

All employees are eligible to contribute to a thrift savings plan. For those employees participating in the FERS, a thrift
savings plan is automatically established, and the USPTO makes a mandatory contribution to this plan equal to one
percent of the employees’ compensation. In addition, the USPTO makes matching contributions ranging from one to




www.uspto.gov	                                                                                                               71
Financial Section




      four percent of the employees’ compensation for FERS-eligible employees who contribute to their thrift savings plans.
      No matching contributions are made to the thrift savings plans for employees participating in the CSRS. Employees
      participating in the FERS are also covered under the Federal Insurance Contributions Act (FICA), for which the USPTO
      contributes a matching amount to the Social Security Administration.

      Deferred Revenue
      Deferred revenue represents fees that have been received by the USPTO for requested services that have not been
      substantially completed. Two types of deferred revenue are recorded. The first type results from checks received,
      accompanied by requests for services, which were not yet deposited due to the lag time between receipt and initial
      review. The second type of deferred revenue relates primarily to fees for applications that have been partially
      processed. The deferred revenue calculation is a complex accounting estimate, dependent upon numerous business
      and administrative processes, workloads, and inventories. (Note 6)

      Environmental Cleanup
      The USPTO does not have any liabilities for environmental cleanup.



      NOTE 2.          F und B alance with T reasury

      As of September 30, 2009 and 2008, Fund Balance with Treasury consisted of the following:

      (Dollars in Thousands)                                               2009                               2008
      Fund Balances by Treasury Fund Type:
      	 Special Funds                                                  $     233,529                      $     233,529
      	 General Funds                                                        979,154                          1,085,288
      	 Deposit Funds                                                         97,124                            112,425
      Total Fund Balance with Treasury                                 $   1,309,807                      $   1,431,242


      Status of Fund Balance with Treasury:
      	 Obligated Balance Not Yet Disbursed                            $     331,775                      $    484,522
      	 Unobligated Balance Available                                        118,692                            64,068
      	 Unobligated Balance Unavailable                                    	      —                              8,011
      	 Temporarily Not Available Pursuant to Public Law                     528,687                           528,687
      	 Non-Budgetary Fund Balance with Treasury                             330,653                           345,954
      Total Fund Balance with Treasury                                 $   1,309,807                      $   1,431,242

      No discrepancies exist between the Fund Balance reflected in the general ledger and the balance in the Treasury
      accounts.

      As of September 30, 2009 and 2008, the Non-Budgetary Fund Balance with Treasury includes surcharge receipts
      of $233,529 thousand, and Non-Entity Fund Balance with Treasury of $97,124 thousand and $112,425 thousand,
      respectively.




72	                                                        PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                        F inancial Section




NOTE 3.           N on - E ntity A ssets

Non-entity assets consist of amounts held on deposit for the convenience of the USPTO customers and fees collected
on behalf of the World Intellectual Property Organization (WIPO) and the European Patent Office (EPO). Customers
have the option of maintaining a deposit account at the USPTO to facilitate the order process. Customers can draw
from their deposit account when they place an order and can replenish their deposit account as desired. Funds
maintained in customer deposit accounts are not available for the USPTO use until an order has been placed. Once
an order has been placed, the funds are reclassified to entity funds. Also, in accordance with the Patent Cooperation
Treaty and the Madrid Protocol Implementation Act, the USPTO collects international fees on behalf of the WIPO and
the EPO.

(Dollars in Thousands)                                                   2009                           2008

Fund Balance with Treasury:
	   Intragovernmental Deposit Accounts                           $          5,419                   $       4,535
	   Other Customer Deposit Accounts                                        91,705                          96,168
	   Patent Cooperation Treaty Account                                	         —                           11,423
	   Madrid Protocol Account                                          	         —                              299
Total Fund Balance with Treasury                                           97,124                         112,425

Cash:
	 Other Customer Deposit Accounts                                               954                            772
	 Patent Cooperation Treaty Account                                  	           —                             175
	 Madrid Protocol Account                                            	           —                              12

Total Non-Entity Assets                                                    98,078                         113,384

Total Entity Assets                                                      1,434,262                      1,534,906

Total Assets                                                     $       1,532,340                  $   1,648,290




www.uspto.gov	                                                                                                          73
Financial Section




      NOTE 4.          P roperty , P L A N T , and E quipment , N E T

      As of September 30, 2009, property, plant, and equipment, net consisted of the following:

      (Dollars in Thousands)
                                             Depreciation/   Service                     Accumulated
      Classes of Property, Plant,            Amortization      Life      Acquisition     Depreciation/          Net Book
      and Equipment                            Method        (Years)       Value         Amortization            Value
      IT Equipment                                SL           3-5      $    284,681      $     235,850     $       48,831
      Software                                    SL           3-5           271,084            221,858             49,226
      Software in Progress                        —             —             25,771          	      —              25,771
      Furniture                                   SL            5             28,315             19,931              8,384
      Equipment                                   SL           3-5            13,730             11,497              2,233
      Leasehold Improvements                      SL           5-20           94,923             23,566             71,357
      Total Property, Plant, and Equipment                              $    718,504      $       512,702   $      205,802

      As of September 30, 2008, property, plant, and equipment, net consisted of the following:

      (Dollars in Thousands)
                                             Depreciation/   Service                     Accumulated
      Classes of Property, Plant,            Amortization      Life      Acquisition     Depreciation/          Net Book
      and Equipment                            Method        (Years)       Value         Amortization            Value
      IT Equipment                                SL           3-5      $    255,101      $     213,033     $       42,068
      Software                                    SL           3-5           238,172            199,602             38,570
      Software in Progress                        —             —             46,000          	      —              46,000
      Furniture                                   SL            5             26,803             15,702             11,101
      Equipment                                   SL           3-5            11,873             10,144              1,729
      Leasehold Improvements                      SL           5-20           83,065             18,349             64,716
      Total Property, Plant, and Equipment                              $    661,014      $       456,830   $      204,184




74	                                                          PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                           F inancial Section




NOTE 5.             L iabilities

The USPTO records liabilities for amounts that are likely to be paid as the direct result of events that have already
occurred. The USPTO considers liabilities covered by three types of resources: realized budgetary resources; unrealized
budgetary resources that become available without further Congressional action; and cash and Fund Balance with
Treasury. Realized budgetary resources include obligated balances funding existing liabilities and unobligated balances
as of September 30, 2009. Unrealized budgetary resources are amounts that were not available for spending through
September 30, 2009, but become available for spending on October 1, 2009 once apportioned by the OMB. In addition,
cash and Fund Balance with Treasury cover liabilities that will never require the use of a budgetary resource. These
liabilities consist of deposit accounts, refunds payable to customers for fee overpayments, undeposited collections, and
amounts collected by the USPTO on behalf of other organizations.

Liabilities not covered by budgetary resources include Accrued Workers’ Compensation, Accounts Payable, Accrued
Payroll and Benefits, Accrued Leave, Deferred Revenue, Actuarial Liability, and Contingent Liability. Although future
appropriations to fund these liabilities are probable and anticipated, Congressional action is needed before budgetary
resources can be provided.

As of September 30, 2009 and 2008, liabilities covered and not covered by budgetary resources were as follows:

(Dollars in Thousands)                                                                 2009                    2008

Liabilities Covered by Resources
	 Intragovernmental:
		 Accounts Payable                                                               $       4,852        $          4,675
		 Accrued Payroll and Benefits                                                          12,486                   9,323
		 Accrued Unemployment Compensation                                                        149                     159
		 Customer Deposit Accounts                                                              5,419                   4,535
	   Total Intragovernmental                                                              22,906                  18,692

	   Accounts Payable                                                                     85,174                  92,019
	   Accrued Payroll and Benefits                                                         49,771                  44,542
	   Customer Deposit Accounts                                                            92,659                  96,940
	   Patent Cooperation Treaty Account                                                 	      —                   11,598
	   Madrid Protocol Account                                                           	      —                      311
	   Deferred Revenue                                                                    119,224                  73,672
Total Liabilities Covered by Resources                                            $     369,734        $        337,774

Liabilities Not Covered by Resources
	 Intragovernmental:
		 Accrued Workers’ Compensation                                                  $      $1,622        $ 	        1,791
	   Total Intragovernmental                                                               1,622                   1,791

	   Accounts Payable                                                                        162            	         —
	   Accrued Payroll and Benefits	                                                        26,987                  31,510
	   Accrued Leave                                                                        67,512                  60,060
	   Deferred Revenue                                                                    681,032                 774,833
	   Actuarial Liability                                                                   8,097                   8,318
	   Contingent Liability                                                                  1,400                   1,400
Total Liabilities Not Covered by Resources                                        $     786,812        $        877,912
Total Liabilities                                                                 $   1,156,546        $       1,215,686



www.uspto.gov	                                                                                                             75
Financial Section




      NOTE 6.         D eferred R evenue

      As of September 30, 2009, deferred revenue consisted of the following:

      (Dollars in Thousands)                                          Patent                 Trademark                Total
      	   Unearned Fees                                           $    741,829               $      57,895        $    799,724
      	   Undeposited Checks                                               470                          62                 532
      Total Deferred Revenue                                      $    742,299               $      57,957        $    800,256

      As of September 30, 2008, deferred revenue consisted of the following:

      (Dollars in Thousands)                                          Patent                 Trademark                Total
      	   Unearned Fees                                           $    777,614               $      69,297        $    846,911
      	   Undeposited Checks                                             1,394                         200               1,594
      Total Deferred Revenue                                      $    779,008               $      69,497        $    848,505




      NOTE 7.         A ctuarial L iability

      The FECA provides income and medical cost protection to covered Federal civilian employees injured on the job
      and for those who have contracted a work-related occupational disease, and beneficiaries of employees whose death
      is attributable to a job-related injury or occupational disease. Claims incurred for benefits under the FECA for the
      USPTO’s employees are administered by the DOL and are paid ultimately by the USPTO.

      The DOL estimated the future workers compensation liability by applying actuarial procedures developed to estimate
      the liability for FECA benefits. The actuarial liability estimates for FECA benefits include the expected liability for death,
      disability, medical, and miscellaneous costs for approved compensation cases, plus a component for incurred but not
      reported claims. The actuarial liability is updated annually.

      The DOL method of determining the liability uses historical benefit payment patterns for a specific incurred period to
      predict the ultimate payments for that period. Consistent with past practice, these projected annual benefit payments
      have been discounted to present value using the OMB’s economic assumptions for ten-year Treasury notes and bonds.
      Interest rate assumptions utilized for discounting were as follows:

                                               2009                                   2008
                                          4.22% in year 1,                       4.37% in year 1,
                                          4.72% in year 2,                       4.77% in year 2,
                                          and thereafter                         and thereafter

      Based on information provided by the DOL, the U.S. Department of Commerce estimated the USPTO’s liability as of
      September 30, 2009 and 2008 was $8,097 thousand and $8,318 thousand, respectively.




76	                                                            PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                    F inancial Section




NOTE 8.       L eases

Operating Leases:
The General Services Administration (GSA) negotiates long-term office space leases and levies rent charges, paid
by the USPTO, approximate to commercial rental rates. These operating lease agreements for the USPTO’s office
buildings expire at various dates between FY 2014 and FY 2024. During the years ended September 30, 2009 and 2008,
the USPTO paid $90,533 thousand and $90,026 thousand, respectively, to the GSA for rent.

Under existing commitments, the future minimum lease payments as of September 30, 2009 are as follows:

                 Fiscal Year                                     (Dollars in Thousands)
                 2010                                                  $	    67,461
                 2011                                                        67,630
                 2012                                                        67,630
                 2013                                                        67,630
                 2014                                                        65,721
                 Thereafter                                                 581,533
                 Total Future Minimum Lease Payments                   $	 917,605


The commitments shown above relate primarily to the operating lease for the USPTO headquarters in Alexandria,
Virginia, beginning in FY 2004 and extending to FY 2024.



NOTE 9.       P O S T- E M P L O Y M E N T B E N E F I T S

For the years ended September 30, 2009 and 2008, the post-employment benefit expenses were as follows:

                 (Dollars in Thousands)                2009                   2008
                 CSRS                              $    14,790         $        14,405
                 FERS                                   97,778                  83,486
                 FEHB                                   50,389                  42,116
                 FEGLI                                     155                     138
                 FICA                                   63,857                  58,281
                 Total Cost                        $   226,969         $      198,426




www.uspto.gov	                                                                                                       77
Financial Section




      NOTE 10.                        E armarked F unds

      Earmarked funds are financed by specifically identified revenues, which remain available over time. These specifically
      identified revenues are required by statute to be used for designated activities, benefits, or purposes, and must be
      accounted for separately from the Government’s general revenues. At the USPTO, earmarked funds include the salaries
      and expenses fund and the special fund receipts. Non-entity funds, as disclosed in Note 3, are not earmarked funds
      and are therefore excluded from the below amounts.

      The following tables provide the status of the USPTO’s earmarked funds as of and for the years ended September 30,
      2009 and 2008.

      (Dollars in Thousands)                                       Salaries and            Surcharge      Total Earmarked
                                                                  Expenses Fund              Fund               Funds
      Balance Sheet as of September 30, 2009	
              	   Fund Balance with Treasury                       $     979,154       $        233,529    $    1,212,683
              	   Cash                                                     2,277            	       —               2,277
              	   Accounts Receivable, Net                                   438            	       —                 438
              	   Other Assets                                           218,864            	       —             218,864
              	   Total Assets                                     $    1,200,733      $        233,529    $    1,434,262

              	   Total Liabilities                                $    1,058,468      $ 	          —      $    1,058,468
              	   Cumulative Results of Operations                       142,265                233,529           375,794
              	   Total Liabilities and Net Position               $    1,200,733      $        233,529    $    1,434,262

      Statement of Net Cost For the Year
      Ended September 30, 2009
              	   Total Program Cost                               $    1,981,940      $ 	          —      $    1,981,940
              	   Less Earned Revenue                                  (1,927,130)          	       —           (1,927,130)

      	           Net Cost of Operations                           $      54,810       $ 	          —      $       54,810

      Statement of Changes in Net Position
      For the Year Ended September 30, 2009
          	        Net Position, Beginning of Year                 $     199,075       $        233,529    $      432,604
          	        Budgetary Financing Sources                     $       (2,000)     $ 	          —      $        (2,000)
          	        Net Cost of Operations                                 (54,810)          	       —             (54,810)
          	        Change in Net Position                          $      (56,810)     $ 	          —      $      (56,810)
          	        Net Position, End of Year                       $     142,265       $        233,529    $      375,794




78	                                                        PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                             F inancial Section




NOTE 10.                        E armarked F unds (Continued)



(Dollars in Thousands)                                         Salaries and             Surcharge      Total Earmarked
                                                              Expenses Fund               Fund               Funds
Balance Sheet as of September 30, 2008	
        	   Fund Balance with Treasury                         $    1,085,288       $        233,529     $     1,318,817
        	   Cash                                                        3,399            	       —                3,399
        	   Accounts Receivable, Net                                     517             	       —                  517
        	   Other Assets                                              212,173            	       —              212,173
        	   Total Assets                                       $    1,301,377       $        233,529     $     1,534,906

        	   Total Liabilities                                  $    1,102,302       $ 	          —       $     1,102,302
        	   Cumulative Results of Operations                          199,075                233,529            432,604
        	   Total Liabilities and Net Position                 $    1,301,377       $        233,529     $     1,534,906

Statement of Net Cost For the Year
Ended September 30, 2008
        	   Total Program Cost                                 $    1,892,590       $ 	          —       $     1,892,590
        	   Less Earned Revenue                                    (1,862,174)           	       —            (1,862,174)

	           Net Cost of Operations                             $       30,416       $ 	          —       $       30,416

Statement of Changes in Net Position
For the Year Ended September 30, 2008
    	        Net Position, Beginning of Year                   $      230,491       $        233,529     $      464,020
    	        Budgetary Financing Sources                       $       (1,000)      $ 	          —       $        (1,000)
    	        Net Cost of Operations                                   (30,416)           	       —               (30,416)
    	        Change in Net Position                            $      (31,416)      $ 	          —       $       (31,416)
    	        Net Position, End of Year                         $      199,075       $        233,529     $      432,604

The Salaries and Expenses Fund contains moneys used for the administering of the laws relevant to patents and
trademarks and advising the Secretary of Commerce, the President of the United States, and the Administration on
patent, trademark, and copyright protection, and trade-related aspects of intellectual property. This fund is used for the
USPTO’s three core business activities – granting patents, registering trademarks, and intellectual property protection
and enforcement – that promote the use of intellectual property rights as a means of achieving economic prosperity.
These activities give innovators, businesses, and entrepreneurs the protection and encouragement they need to turn
their creative ideas into tangible products, and also provide protection for their inventions and trademarks. The USPTO
may use moneys from this account only as authorized by Congress via appropriations.

The Surcharge Fund was created in FY 1992 through the Patent and Trademark Office Surcharge provision in the
OBRA of 1990 (Section 10101, Public Law 101-508). This required that the USPTO impose a surcharge on certain
patent fees and set in statute the amounts of money that the USPTO should deposit in a special fund receipt account
at the U.S. Department of the Treasury. This surcharge was eliminated in FY 1999. The USPTO may use moneys from
this account only as authorized by Congress, and only as made available by the issuance of a Treasury warrant.




www.uspto.gov	                                                                                                               79
Financial Section




      N O T E 1 1 . I ntragovernmental C osts and E x change R evenue

      Total intragovernmental costs and exchange revenue, by Strategic Goal, for the years ended September 30, 2009 and
      2008 were as follows:

      (Dollars in Thousands)                                                                            2009
                                                                          Patent          Trademark            Intellectual       Total
                                                                                                                 Property
                                                                                                                Protection

      Strategic Goal 1: Optimize Patent
      	 Quality and Timeliness
      	 Intragovernmental Gross Cost                                  $         356,328   $ 	­—            $ 	­—              $     356,328
      	 Gross Cost with the Public                                            1,388,348     	­—              	­—                  1,388,348
      		     Total Program Cost                                               1,744,676       	­—                	­—              1,744,676

      	   Intragovernmental Earned Revenue                                    (7,163)         	­—                	­—                  (7,163)
      	   Earned Revenue from the Public                                  (1,690,269)         	­—                	­—              (1,690,269)
      		     Total Program Earned Revenue                                 (1,697,432)         	­—                	­—              (1,697,432)
      		     Net Program Cost                                         $         47,244    $ 	­—            $ 	­—              $      47,244

      Strategic Goal 2: OptimizeTrademark
      	 Quality and Timeliness
      	 Intragovernmental Gross Cost                                  $ 	           —     $    39,456      $ 	­—              $     39,456
      	 Gross Cost with the Public                                      	           —         153,731        	­—                   153,731
      		     Total Program Cost                                           	         —         193,187            	­—               193,187

      	   Intragovernmental Earned Revenue                                	         —             (280)          	­—                   (280)
      	   Earned Revenue from the Public                                  	         —         (229,418)          	­—               (229,418)
      		     Total Program Earned Revenue                                 	         —         (229,698)          	­—               (229,698)
      		     Net Program Income                                       $ 	           —     $    (36,511)    $ 	­—              $     (36,511)

      Strategic Goal 3: Improve Intellectual Property Protection
      	 and Enforcement Domestically and Abroad
      	 Intragovernmental Gross Cost                                  $ 	           —     $ 	­—            $         9,002    $       9,002
      	 Gross Cost with the Public                                      	           —       	­—                     35,075           35,075
      		     Total Program Cost                                           	         —         	­—                   44,077           44,077
      Net Cost/(Income) from Operations                               $         47,244    $    (36,511)    $        44,077    $      54,810

      Total Entity
      	 Total Program Cost (Notes 12 and 13)                          $    1,744,676      $    193,187     $      44,077      $    1,981,940
      	 Total Earned Revenue                                              (1,697,432)         (229,698)          	­—              (1,927,130)
      Net Cost/(Income) from Operations                               $         47,244    $    (36,511)    $        44,077    $      54,810




80	                                                                PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                                   F inancial Section




N O T E 1 1 . I ntragovernmental C osts and E x change R evenue (Continued)


(Dollars in Thousands)                                                                       2008
                                                                 Patent        Trademark            Intellectual       Total
                                                                                                      Property
                                                                                                     Protection

Strategic Goal 1: Optimize Patent
	 Quality and Timeliness
	 Intragovernmental Gross Cost                               $     314,108     $ 	­—            $ 	­—              $     314,108
	 Gross Cost with the Public                                     1,341,548       	­—              	­—                  1,341,548
		     Total Program Cost                                        1,655,656         	­—                	­—              1,655,656

	   Intragovernmental Earned Revenue                                 (7,145)       	­—                	­—                  (7,145)
	   Earned Revenue from the Public                               (1,617,848)       	­—                	­—              (1,617,848)
		     Total Program Earned Revenue                              (1,624,993)       	­—                	­—              (1,624,993)
		     Net Program Cost                                      $      30,663     $ 	­—            $ 	­—              $      30,663

Strategic Goal 2: OptimizeTrademark
	 Quality and Timeliness
	 Intragovernmental Gross Cost                               $ 	­—             $    36,537      $ 	­—              $     36,537
	 Gross Cost with the Public                                   	­—                 156,050        	­—                   156,050
		     Total Program Cost                                        	­—               192,587            	­—               192,587

	   Intragovernmental Earned Revenue                             	­—                   (282)          	­—                   (282)
	   Earned Revenue from the Public                               	­—               (236,899)          	­—               (236,899)
		     Total Program Earned Revenue                              	­—               (237,181)          	­—               (237,181)
		     Net Program Income                                    $ 	­—             $    (44,594)    $ 	­—              $     (44,594)

Strategic Goal 3: Improve Intellectual Property Protection
	 and Enforcement Domestically and Abroad
	 Intragovernmental Gross Cost                               $ 	­—             $ 	­—            $         8,414    $       8,414
	 Gross Cost with the Public                                   	­—               	­—                     35,933           35,933
		     Total Program Cost                                        	­—               	­—                   44,347           44,347
Net Cost/(Income) from Operations                            $      30,663     $    (44,594)    $        44,347    $      30,416

Total Entity
	 Total Program Cost (Notes 12 and 13)                       $    1,655,656    $    192,587     $      44,347      $    1,892,590
	 Total Earned Revenue                                           (1,624,993)       (237,181)          	­—              (1,862,174)
Net Cost/(Income) from Operations                            $      30,663     $    (44,594)    $        44,347    $      30,416


Intragovernmental expenses relate to the source of the goods or services, not the classification of the related revenue.




www.uspto.gov	                                                                                                                       81
Financial Section




      NOTE 12.              P rogram C osts

      Program costs consist of both costs related directly to the individual business lines and overall support costs
      allocated to the business lines. All costs are assigned to specific programs. Total program or operating costs
      for the years ended September 30, 2009 and 2008 by cost category were as follows:

      (Dollars in Thousands)                                                             2009
                                                                         Direct        Allocated     Total
      Personnel Services and Benefits                                   $	1,224,763    $	 96,794    $	1,321,557
      Travel and Transportation                                               2,230          641          2,871
      Rent, Communications, and Utilities                                    83,643       34,631        118,274
      Printing and Reproduction                                              58,688          312         59,000
      Contractual Services                                                  224,999      131,952        356,951
      Training                                                                3,350        1,048          4,398
      Maintenance and Repairs                                                 2,374       32,912         35,286
      Supplies and Materials                                                  7,980          799          8,779
      Equipment not Capitalized                                               3,584        7,622         11,206
      Insurance Claims and Indemnities                                          198           75            273
      Depreciation, Amortization, or Loss on Asset Dispositions              39,044       24,301         63,345
      Total Program Costs                                               $	1,650,853    $	 331,087   $	1,981,940


      (Dollars in Thousands)                                                             2008
                                                                         Direct        Allocated     Total
      Personnel Services and Benefits                                   $	1,113,181    $	 85,490    $	1,198,671
      Travel and Transportation                                               3,756        1,022          4,778
      Rent, Communications, and Utilities                                    82,505       33,768        116,273
      Printing and Reproduction                                              59,886          403         60,289
      Contractual Services                                                  252,198      134,796        386,994
      Training                                                                5,036        2,215          7,251
      Maintenance and Repairs                                                 3,117       20,768         23,885
      Supplies and Materials                                                  9,348        1,325         10,673
      Equipment not Capitalized                                               7,392        8,433         15,825
      Insurance Claims and Indemnities                                          134          181            315
      Depreciation, Amortization, or Loss on Asset Dispositions              41,702       25,934         67,636
      Total Program Costs                                               $	 1,578,255   $	 314,335   $	1,892,590


      The unfunded portion of personnel services and benefits for the years ended September 30, 2009
      and 2008 was $2,540 thousand and $11,255 thousand, respectively.




82	                                                               PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                            F inancial Section




NO T E 1 3 . P rogram Costs by Category and Responsibility Segment

The program costs for the years ended September 30, 2009 and 2008 by cost category and
business line were as follows:

(Dollars in Thousands)                                                  2009
                                            Patent          Trademark         Intellectual        Total
                                                                                Property
                                                                               Protection

Direct Costs
	 Personnel Services and Benefits       $	 1,098,854   $	 107,900         $	    18,009       $	 1,224,763
	 Travel and Transportation                      325           87                1,818              2,230
	 Rent, Communications, and Utilities         73,424        7,631                2,588             83,643
	 Printing and Reproduction                   58,249          430                    9             58,688
	 Contractual Services                       202,956       13,252                8,791            224,999
	 Training                                     3,002          306                   42              3,350
	 Maintenance and Repairs                      1,735          562                   77              2,374
	 Supplies and Materials                       7,441          246                  293              7,980
	 Equipment not Capitalized                    2,296        1,049                  239              3,584
	 Insurance Claims and Indemnities               167           31         	         —                 198
	 Depreciation, Amortization, or 		
		 Loss on Asset Dispositions                34,409           4,183                452            39,044
Subtotal Direct Costs                   $	 1,482,858   $	 135,677         $	    32,318       $	 1,650,853

Allocated Costs
	 Automation                            $	 126,254     $	    31,612       $	      2,812      $	 160,678
	 Resource Management                       135,564          25,898               8,947          170,409
Subtotal Allocated Costs                $	 261,818     $	    57,510       $	    11,759       $	 331,087

Total Program Costs                     $	 1,744,676   $	 193,187         $	    44,077       $	 1,981,940


The unfunded portion of personnel services and benefits for the year ended September 30, 2009
was $2,540 thousand.




www.uspto.gov	                                                                                                             83
Financial Section




      NOTE 13. Program Costs by Category and Responsibility Segment (Continued)


      (Dollars in Thousands)                                                  2008
                                                  Patent          Trademark         Intellectual        Total
                                                                                      Property
                                                                                     Protection

      Direct Costs
      	 Personnel Services and Benefits       $	 993,585     $	 101,728         $	    17,868       $	 1,113,181
      	 Travel and Transportation                    756            190                2,810              3,756
      	 Rent, Communications, and Utilities       72,608          7,311                2,586             82,505
      	 Printing and Reproduction                 59,378            435                   73             59,886
      	 Contractual Services                     226,180         19,411                6,607            252,198
      	 Training                                   4,475            279                  282              5,036
      	 Maintenance and Repairs                    2,400            616                  101              3,117
      	 Supplies and Materials                     8,620            478                  250              9,348
      	 Equipment not Capitalized                  5,867          1,340                  185              7,392
      	 Insurance Claims and Indemnities             134     	       —          	         —                 134
      	 Depreciation, Amortization, or 		
      		 Loss on Asset Dispositions                35,787           5,410                505            41,702
      Subtotal Direct Costs                   $	 1,409,790   $	 137,198         $	    31,267       $	 1,578,255

      Allocated Costs
      	 Automation                            $	 121,704     $	    28,118       $	      3,750      $	 153,572
      	 Resource Management                       124,162          27,271               9,330          160,763
      Subtotal Allocated Costs                $	 245,866     $	    55,389       $	    13,080       $	 314,335

      Total Program Costs                     $	 1,655,656   $	 192,587         $	    44,347       $	 1,892,590


      The unfunded portion of personnel services and benefits for the year ended September 30, 2008
      was $11,255 thousand.




84	                                                          PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                         F inancial Section




NOTE 14.         C ommitments and C ontingencies


Commitments

In addition to the future lease commitments discussed in Note 8, the USPTO is obligated for the purchase of goods
and services that have been ordered, but not yet received. Total undelivered orders for all of the USPTO’s activities
were $192,549 thousand and $341,794 thousand as of September 30, 2009 and 2008, respectively. Of these amounts,
$179,487 thousand and $333,805 thousand, respectively, were unpaid.


Contingencies

The USPTO is a party to various routine administrative proceedings, legal actions, and claims brought by or against
it, including threatened or pending litigation involving labor relations claims, some of which may ultimately result in
settlements or decisions against the Federal Government.

As of September 30, 2009, management expects it is reasonably possible that approximately $82,676 thousand may
be owed for awards or damages involving labor relations claims. As of September 30, 2008, management expects
it is reasonably possible that approximately $78,200 thousand may be owed for awards or damages involving labor
relations claims.

The USPTO is subject to suits where adverse outcomes are probable and claims are $1,400 thousand as of September
30, 2009 and 2008, respectively.

For the year ended September 30, 2009, the USPTO was required to make one payment totaling $5 thousand to the
Judgment Fund. For the year ended September 30, 2008, the USPTO was required to make two payments totaling
$45 thousand to the Judgment Fund.

An investigation was completed in FY 2009 into the validity of certain refund transactions processed in previous fiscal
years. The investigation identified the misappropriation of funds by an employee. Thirty-two transactions totaling
$534 thousand were identified. In the event of a valid claim by a customer deposit account holder, the USPTO will be
liable to replenish the appropriate accounts.




www.uspto.gov	                                                                                                            85
Financial Section




      NOTE 15.           F iduciary A ctivities

      Fiduciary activities are the collection or receipt, and the management, protection, accounting, and disposition by the
      Federal Government of cash or other assets in which non-Federal individuals or entities have an ownership interest
      that the Federal Government must uphold. Fiduciary cash and other assets are not assets of the Federal Government
      and accordingly are not recognized on the proprietary financial statements.

      The Patent Cooperation Treaty authorized the USPTO to collect patent filing and search fees on behalf of the WIPO,
      EPO, Korean Intellectual Property Office, and the Australian Patent Office from U.S. citizens requesting an international
      patent. The Madrid Protocol Implementation Act authorized the USPTO to collect trademark application fees on behalf
      of the International Bureau of the WIPO from U.S. citizens requesting an international trademark.

      The following tables provide the USPTO’s fiduciary activity and fiduciary net assets as of and for the year ended
      September 30,2009.



      (Dollars in Thousands)                                Patent Cooperation          Madrid Protocol
                                                                  Treaty
      Schedule of Fiduciary Activity
      For the Year ended September 30, 2009
        Fiduciary Net Assets, Beginning of Year                $      11,598            $         311
        Contributions                                                116,818                    8,618
        Disbursements To and on Behalf of Beneficiaries              (119,282)                 (8,477)
        (Decrease)/Increase in Fiduciary Net Assets                    (2,464)                   141
        Fiduciary Net Assets, End of Year                      $        9,134           $        452




      (Dollars in Thousands)                                 Patent Cooperation         Madrid Protocol
                                                                   Treaty
      Fiduciary Net Assets
      As of September 30, 2009
        Cash and Cash Equivalents                             $        9,134            $        452
        Total Fiduciary Net Assets                            $        9,134            $        452




86	                                                         PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                            F inancial Section




NOTE 16.            R econciliation of N et C ost of O perations to B udget

Most entity transactions are recorded in both budgetary and proprietary accounts. However, because different
accounting bases are used for budgetary and proprietary accounting, some transactions may appear in only one set
of accounts. The following reconciliation provides a means to identify the relationships and differences that exist
between the aforementioned budgetary and proprietary accounts.

The reconciliation of net cost of operations to budget for the years ended September 30, 2009 and 2008 is as follows:

(Dollars in Thousands)                                                                    2009               2008

RESOURCES USED TO FINANCE ACTIVITIES
	 Budgetary Resources Obligated:
		    Obligations Incurred                                                            $    1,862,512    $     1,852,541
		    Spending Authority from Offsetting Collections and Recoveries                       (1,911,125)        (1,897,584)
		    Net Obligations                                                                       (48,613)           (45,043)
Total Resources Used to Finance Activities                                                  (48,613)           (45,043)

RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF OPERATIONS
	 Change in Budgetary Resources Obligated for Goods, Services and Benefits                  149,246             41,314
		 Ordered but not yet Provided
	 Resources that Fund Costs Recognized in Prior Periods                                      (4,913)            (1,232)
	 Budgetary Offsetting Collections that do not Affect Net Cost of Operations                (47,128)            23,026
	 Resources that Finance the Acquisition of Assets Capitalized on the Balance Sheet         (64,963)           (67,243)
Total Resources Used to Finance Items not Part of the Net Cost of Operations                 32,242              (4,135)

COMPONENTS OF NET COST OF OPERATIONS THAT WILL NOT REQUIRE OR
	 GENERATE RESOURCES IN THE CURRENT PERIOD
	 Components Requiring or Generating Resources in Future Periods:
		 Costs that will be Funded by Resources in Future Periods                                   7,615             12,052
		 Net Decrease in Revenue Receivables not Generating Resources
			 until Collected                                                                              77                 123
		 Total Components of Net Cost of Operations that will Require or Generate
			 Resources in Future Periods                                                               7,692             12,175
	 Components not Requiring or Generating Resources:
		 Depreciation, Amortization, or Loss on Asset Dispositions                                 63,345             67,636
		 Other Costs that will not Require Resources                                                  144               (217)
		 Total Components of Net Cost of Operations that will not Require or
			 Generate Resources                                                                       63,489             67,419
Total Components of Net Cost of Operations that will not Require or Generate
	 Resources in the Current Period                                                            71,181             79,594
Net Cost of Operations                                                                $      54,810     $       30,416




www.uspto.gov	                                                                                                             87
Financial Section




88	                 PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
Independent
Auditors’ Report




                  global
                                          results

     innovation

                                  creativity



                  intellectural
                  property
I ndependent Auditors’ R eport




          November 10, 2009


          MEMORANDUM FOR:               David Kappos
                                        Under Secretary of Commerce for Intellectual Property and
                                         Director of the U.S. Patent and Trademark Office



          FROM:                         Todd J. Zinser


          SUBJECT:                      FY 2009 Financial Statements
                                        Final Audit Report No. FSD-19650-0-0002


          I am pleased to provide you with the attached audit report, which presents an unqualified opinion on
          the U.S. Patent and Trademark Office’s FY 2009 financial statements. The audit results indicate that
          USPTO has established an internal control structure that facilitates the preparation of reliable
          financial and performance information.

          KPMG LLP, an independent public accounting firm, performed the audit of USPTO’s financial
          statements for the fiscal year ended September 30, 2009. The contract with KPMG required that the
          audit be performed in accordance with U.S. generally accepted government auditing standards and
          Office of Management and Budget Bulletin 07-04, Audit Requirements for Federal Financial
          Statements, as amended.

          In its audit of USPTO, KPMG found that

          •   the financial statements were fairly presented, in all material respects and in conformity with
              U.S. generally accepted accounting principles;

          •   there was one significant deficiency related to controls over general information technology,
              which was not considered a material weakness in internal control as defined in the audit report;

          •   there were no instances of material noncompliance with laws, regulations, and contracts; and

          •   there were no instances in which the USPTO’s financial management systems did not
              substantially comply with the requirements of the Federal Financial Management Improvement
              Act of 1996.




90	                                                       PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                       I ndependent Auditors’ R eport




             My office oversaw the audit’s performance and delivery. We reviewed KPMG’s report and related
             documentation, and made inquiries of its representatives. Our review disclosed no instances where
             KPMG did not comply, in all material respects, with generally accepted government auditing
             standards. However, our review cannot be construed as an audit in accordance with U.S. generally
             accepted government auditing standards. It was not intended to enable us to express—and we do not
             express—any opinion on USPTO’s financial statements, conclusions about the effectiveness of
             internal controls, or conclusions on compliance with laws, regulations, and contracts. KPMG is
             solely responsible for the attached audit report dated November 5, 2009, and the conclusions
             expressed in the report.

             An audit action plan is not required to address the significant deficiency reported by KPMG.
             However, we ask that you provide a plan addressing the related specific recommendations included
             in the separate, limited-distribution information technology general controls report (FSD-19650-0-
             0001) in accordance with Department Administrative Order 213-5, Audit Resolution and Follow-up.

             If you wish to discuss the contents of this report, please call me at (202) 482-4661, or Dr. Brett M.
             Baker, assistant inspector general for audit, at (202) 482-2600.

             We appreciate the cooperation and courtesies USPTO extended to KPMG and my staff during the
             audit.


             Attachment


             cc:    Mark J. Olechowski
                    Acting Chief Financial Officer
                    U.S. Patent and Trademark Office

                    John F. Charles
                    Acting Chief Financial Officer and Acting Assistant Secretary for Administration
                    Department of Commerce




www.uspto.gov	                                                                                                       91
I ndependent Auditors’ R eport




                                         KPMG LLP
                                         2001 M Street, NW
                                         Washington, DC 20036




                                                    Independent Auditors’ Report


          Inspector General, U.S. Department of Commerce and
          Under Secretary of Commerce for Intellectual Property and
             Director of the U.S. Patent and Trademark Office:


          We have audited the accompanying consolidated balance sheets of the U.S. Patent and Trademark Office
          (USPTO), an agency within the U.S. Department of Commerce, as of September 30, 2009 and 2008, and
          the related consolidated statements of net cost, changes in net position, cash flows, and combined
          statements of budgetary resources (hereinafter referred to as “financial statements”) for the years then
          ended. The objective of our audits was to express an opinion on the fair presentation of these financial
          statements. In connection with our fiscal year 2009 audit, we also considered the USPTO’s internal control
          over financial reporting and tested the USPTO’s compliance with certain provisions of applicable laws,
          regulations, and contracts that could have a direct and material effect on these financial statements.

          Summary
          As stated in our opinion on the financial statements, we concluded that the USPTO’s financial statements
          as of and for the years ended September 30, 2009 and 2008, are presented fairly, in all material respects, in
          conformity with U.S. generally accepted accounting principles.

          Our consideration of internal control over financial reporting resulted in one matter related to weaknesses
          in the USPTO’s general information technology controls being identified as a significant deficiency.
          However, this significant deficiency is not considered to be a material weakness.

          The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
          no instances of noncompliance or other matters that are required to be reported under Government Auditing
          Standards, issued by the Comptroller General of the United States, and Office of Management and Budget
          (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.

          The following sections discuss our opinion on the USPTO’s financial statements; our consideration of the
          USPTO’s internal control over financial reporting; our tests of the USPTO’s compliance with certain
          provisions of applicable laws, regulations, and contracts; and management’s and our responsibilities.

          Opinion on the Financial Statements
          We have audited the accompanying consolidated balance sheets of the U.S. Patent and Trademark Office as
          of September 30, 2009 and 2008, and the related consolidated statements of net cost, changes in net
          position, cash flows, and the combined statements of budgetary resources for the years then ended.

          In our opinion, the financial statements referred to above present fairly, in all material respects, the
          financial position of the U.S. Patent and Trademark Office as of September 30, 2009 and 2008, and its net
          costs, changes in net position, budgetary resources, and cash flows for the years then ended, in conformity
          with U.S. generally accepted accounting principles.



                                           KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                           member firm of KPMG International, a Swiss cooperative.




92	                                                                            PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                              I ndependent Auditors’ R eport




         U.S. Patent and Trademark Office
         November 5, 2009
         Page 2 of 8




         The information in the Management’s Discussion and Analysis section is not a required part of the
         financial statements, but is supplementary information required by U.S. generally accepted accounting
         principles. We have applied certain limited procedures, which consisted principally of inquiries of
         management regarding the methods of measurement and presentation of this information. However, we did
         not audit this information and, accordingly, we express no opinion on it.

         Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
         whole. The information in the Other Accompanying Information section on pages 110 through 141 are
         presented for purposes of additional analysis and are not required as part of the financial statements. This
         information has not been subjected to auditing procedures and, accordingly, we express no opinion on it.

         Internal Control Over Financial Reporting
         Our consideration of the internal control over financial reporting was for the limited purpose described in
         the Responsibilities section of this report and would not necessarily identify all deficiencies in the internal
         control over financial reporting that might be significant deficiencies or material weaknesses.

         A deficiency in internal control exists when the design or operation of a control does not allow
         management or employees, in the normal course of performing their assigned functions, to prevent, or
         detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
         combination of deficiencies, in internal control that is less severe than a material weakness, yet important
         enough to merit attention by those charged with governance. A material weakness is a deficiency, or
         combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
         misstatement of the USPTO’s financial statements will not be prevented, or detected and corrected on a
         timely basis.

         In our fiscal year 2009 audit, we identified the following matter related to the USPTO’s financial
         management systems, summarized below, and in more detail in Exhibit I, that we consider to be a
         significant deficiency. However, we do not believe this significant deficiency is a material weakness.

                 General information technology controls. We found that although the USPTO has taken corrective
                 actions to address certain information technology (IT) control weaknesses, general IT weaknesses
                 still exist. Despite the positive efforts made by the USPTO, the USPTO needs to make continued
                 improvement in its IT general control environment to fully ensure that financial data being
                 processed on the USPTO’s systems has integrity, is confidentially maintained, and is available
                 when needed.

         Exhibit II presents the status of the prior year significant deficiencies.

         We noted certain additional matters that we reported to management of the USPTO in two separate
         documents addressing the information technology and other internal control matters, respectively.

         Compliance and Other Matters
         The results of our tests of compliance as described in the Responsibilities section of this report, exclusive
         of those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA), disclosed no
         instances of noncompliance or other matters that are required to be reported herein under Government
         Auditing Standards or OMB Bulletin No. 07-04.




www.uspto.gov	                                                                                                             93
I ndependent Auditors’ R eport




          U.S. Patent and Trademark Office
          November 5, 2009
          Page 3 of 8




          The results of our tests of FFMIA disclosed no instances in which the USPTO’s financial management
          systems did not substantially comply with the (1) Federal financial management systems requirements, (2)
          applicable Federal accounting standards, and (3) the United States Government Standard General Ledger at
          the transaction level.

                                                          *******

          Responsibilities
          Management’s Responsibilities. Management is responsible for the financial statements; establishing and
          maintaining effective internal control; and complying with laws, regulations, and contracts applicable to the
          USPTO.

          Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2009 and 2008
          financial statements of the USPTO based on our audits. We conducted our audits in accordance with
          auditing standards generally accepted in the United States of America; the standards applicable to financial
          audits contained in Government Auditing Standards, issued by the Comptroller General of the United
          States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan
          and perform the audits to obtain reasonable assurance about whether the financial statements are free of
          material misstatement. An audit includes consideration of internal control over financial reporting as a
          basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose of
          expressing an opinion on the effectiveness of the USPTO’s internal control over financial reporting.
          Accordingly, we express no such opinion.

          An audit also includes:

          •	    Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
                statements;
          •	    Assessing the accounting principles used and significant estimates made by management; and
          •	    Evaluating the overall financial statement presentation.
          We believe that our audits provide a reasonable basis for our opinion.

          In planning and performing our fiscal year 2009 audit, we considered the USPTO’s internal control over
          financial reporting by obtaining an understanding of the USPTO’s internal control, determining whether
          internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
          basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
          statements. We did not test all controls relevant to operating objectives as broadly defined by the Federal
          Managers’ Financial Integrity Act of 1982. The objective of our audit was not to express an opinion on the
          effectiveness of the USPTO’s internal control over financial reporting. Accordingly, we do not express an
          opinion on the effectiveness of the USPTO’s internal control over financial reporting.

          As part of obtaining reasonable assurance about whether the USPTO’s fiscal year 2009 financial statements
          are free of material misstatement, we performed tests of the USPTO’s compliance with certain provisions
          of laws, regulations, and contracts, noncompliance with which could have a direct and material effect on
          the determination of the financial statement amounts, and certain provisions of other laws and regulations




94	                                                          PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                            I ndependent Auditors’ R eport




         U.S. Patent and Trademark Office
         November 5, 2009
         Page 4 of 8




         specified in OMB Bulletin No. 07-04, including the provisions referred to in Section 803(a) of FFMIA. We
         limited our tests of compliance to the provisions described in the preceding sentence, and we did not test
         compliance with all laws, regulations, and contracts applicable to the USPTO. However, providing an
         opinion on compliance with laws, regulations, and contracts was not an objective of our audit and,
         accordingly, we do not express such an opinion.

                                            ______________________________

         The USPTO’s response to the significant deficiency identified in our audit is presented in Exhibit I. We did
         not audit the USPTO’s response and, accordingly, we express no opinion on it.

         This report is intended solely for the information and use of the USPTO’s and the U.S. Department of
         Commerce’s management, the U.S. Department of Commerce’s Office of Inspector General, OMB, the
         U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should not be
         used by anyone other than these specified parties.




         November 5, 2009




www.uspto.gov	                                                                                                          95
I ndependent Auditors’ R eport




         U.S. Patent and Trademark Office
         Independent Auditors’ Report
         Exhibit I – Significant Deficiency




         Financial Management Systems Need Improvement (Repeat Condition)

         Effective Information Technology (IT) general controls add assurance that data used to prepare and report
         financial information and statements is complete, reliable, and has integrity. Our fiscal year 2009 IT
         assessment, performed in support of the fiscal year 2009 financial statement audit, was focused on the IT
         general controls over the USPTO’s major financial management systems and supporting network
         infrastructure, using GAO’s Federal Information System Controls Audit Manual (FISCAM) that was
         revised in February 2009, as a guide. The five FISCAM IT general control review areas, and our related
         findings, are as follows:

            Security management. These controls provide a framework and continuing cycle of activity for
             assessing risk, developing and implementing effective security procedures, assigning responsibilities,
             and monitoring the effectiveness of these procedures. Office of Management and Budget (OMB)
             Circular A-130, Management of Federal Information Resources, provides key guidance for establishing
             and maintaining an entity-wide information security program The Department of Commerce IT Security
             Program Policy and Minimum Implementation Standards, reiterates OMB Circular A-130 guidance,
             and implements key elements of such guidance as Department-wide policy.

             During our fiscal year 2009 audit, we did not identify weaknesses related to security management
             controls.

            Access controls. In close concert with an organization’s security management, access controls for
             general support systems and financial systems should provide reasonable assurance that computer
             resources such as data files, application programs, and computer-related facilities and equipment are
             protected against unauthorized modification, disclosure, loss, or impairment. Access controls are
             facilitated by an organization’s entity-wide security program. Such controls include physical controls
             and logical controls.

             The objectives of limiting access are to ensure that users have only the access needed to perform their
             duties; that access to very sensitive resources, such as security software programs, is limited to very
             few individuals; and that employees are restricted from performing incompatible functions or functions
             beyond their responsibility. This is reiterated by Federal guidelines. For example, OMB Circular A-
             130 and supporting NIST Special Publications provide guidance related to the maintenance of technical
             access controls. In addition, the Department of Commerce IT Security Program Policy and Minimum
             Implementation Standards contain many requirements for operating Department IT devices in a secure
             manner.

             During fiscal year 2009, we noted that USPTO should improve access controls by (1) appropriately
             removing and periodically re-certifying viewing data center access, (2) consistently tracking visitors’
             access to the data center, (3) strengthening network and financial database password controls, (4)
             preventing the use of shared user accounts and passwords, (5) disabling inactive network, financial
             application, and database user accounts, (6) disabling network, financial application, and database user
             permissions of terminated employees and contractors, (7) configuring audit settings so that they are
             consistent with approved baselines, (8) defining auditable events and activities and consistently



                                          KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                          member firm of KPMG International, a Swiss cooperative.


96	                                                                            PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                             I ndependent Auditors’ R eport




          U.S. Patent and Trademark Office
          Independent Auditors’ Report
          Exhibit I – Significant Deficiency, Continued




             monitoring audit logs, and (9) strengthening access authorizations and recertification efforts. We
             recognize that USPTO has certain compensating controls in place to help reduce the risk of the
             identified vulnerabilities, and we have considered such compensating controls as part of our financial
             statement audit.

            Configuration management. Configuration management involves the identification and management
             of security features for all hardware, software, and firmware components of an information system at a
             given point and systematically controls configuration changes throughout the system’s life cycle.
             Establishing controls over modifications to information system components and related documentation
             helps to ensure that only authorized systems and related program modifications are implemented. This
             is accomplished by instituting policies, procedures, and techniques to help ensure that hardware,
             software and firmware programs and program modifications are properly authorized, tested, and
             approved, and that access to and distribution of programs is carefully controlled. Without proper
             controls, there is a risk that security features could be inadvertently or deliberately omitted or turned
             off, or that processing irregularities or malicious code could be introduced into the IT environment.

             Effective configuration management prevents unauthorized changes to information system resources
             and provides reasonable assurance that systems are configured and operating securely and as intended.
             Without effective configuration management, users do not have adequate assurance that the system and
             network will perform as intended and to the extent needed to support missions.

             During fiscal year 2009, we noted that configuration management controls should be improved by (1)
             consistently applying patches and configuring devices for the protection against external and internal
             vulnerabilities, (2) implementing documented and approved configuration management policy and
             procedures, and (3) maintaining up-to-date hardware and software libraries.

            Segregation of duties. Work responsibilities should be segregated so that an individual does not
             control more than one critical function within a process. Inadequately segregated duties increase the
             risk that erroneous or fraudulent transactions could be processed, improper program changes could be
             implemented, and computer resources could be damaged or destroyed. Key areas of concern for
             segregation of duties involve duties among major operating and programming activities, including
             duties performed by users, application programmers, and data center staff. Policies outlining individual
             responsibilities should be documented, communicated, and enforced. The prevention and/or detection
             of unauthorized or erroneous actions by personnel require effective supervision and review by
             management, as well as formal operating procedures.

             During fiscal year 2009, we noted that segregation of duties controls should be improved by preventing
             developers and programmers from having conflicting access to the production environment.

            Contingency planning. Losing the capability to process, retrieve, and protect information maintained
             electronically can significantly affect an agency’s ability to accomplish its mission. For this reason, an
             agency should have: (1) procedures in place to protect information resources and minimize the risk of
             unplanned interruptions, and (2) a plan to recover critical operations should interruptions occur.




www.uspto.gov	                                                                                                            97
I ndependent Auditors’ R eport




         U.S. Patent and Trademark Office
         Independent Auditors’ Report
         Exhibit I – Significant Deficiency, Continued




            During fiscal year 2009, we noted that contingency planning controls should be improved by (1)
            maintaining up-to-date contingency plans that reflect the current processing environments, and (2)
            procuring an alternate processing site.

         Recommendations

         Specific recommendations are included in a separate limited distribution IT general controls report, issued
         as part of the fiscal year 2009 financial statement audit.

         Management’s Response

         We agreed with your findings, conclusions, and recommendations related to improving the USPTO’s
         financial management systems controls. The USPTO is in the process of developing corrective action
         plans to address the recommendations presented in the separate limited distribution IT general controls
         report.




98	                                                         PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                           I ndependent Auditors’ R eport




            U.S. Patent and Trademark Office
            Independent Auditors’ Report
            Exhibit II – Status of Prior Year Significant Deficiencies




                   Reported                                      Prior Year                                 Fiscal Year 2009
                    Issue                                     Recommendation                                     Status
            Financial Management Systems Need Improvement
            Weaknesses in general       The USPTO should monitor actions to ensure                        Still considered a
            controls were identified    effective implementation of our                                   significant deficiency
            in four FISCAM review       recommendations.                                                  (see comments in
            areas.                                                                                        Exhibit I).

            Receipts Accounting Segregation of Duties

            USPTO did not maintain      The USPTO should perform an internal                              During FY 2009, the
            adequate segregation of     review over responsibilities throughout the                       USPTO implemented
            duties over                 receipts accounting function, to ensure that                      corrective actions to
            responsibilities            appropriate segregation of duties is                              improve controls in the
            throughout the receipts     maintained.                                                       receipts accounting
            accounting function.                                                                          function. This is no
                                                                                                          longer considered to be
                                                                                                          a significant deficiency.
                                                                                                          This is partially
                                                                                                          repeated as a control
                                                                                                          deficiency (reported to
                                                                                                          management in a
                                                                                                          separate document).




www.uspto.gov	                              KPMG LLP, a U.S. limited liability partnership, is the U.S.                               99
                                            member firm of KPMG International, a Swiss cooperative.
I ndependent Auditors’ R eport




100	                             PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
Other
Accompanying
Information


                    Intellectual
                    Property




    innovation                     creativity


                                           results




                 accountability
GOAL 2    Top Management
          Challenges Facing
          the USPTO


          The Inspector General’s Statement
          of Management Challenges


          W
                    e are providing the management challenges for the U.S. Patent
                    and Trademark Office in accordance with the provisions
                    of the Reports Consolidation Act of 2000 (PL 106-531).
          Detailed information about our work is available on our web site at
          http://www.oig.doc.gov/

                                                        Inspector General
                                                        Todd J. Zinser




          Each year, the Department of Commerce’s Office of Inspector General (OIG)
          reviews the Department’s and its component bureaus’ program activities to
          ensure that the management, financial, and operational activities are sound
          and meet the requirements of the Chief Financial Officers Act, the Federal
          Information Security Management Act, and the Government Performance and
          Results Act.

          The emphasis by the President, the Office of Management and Budget,
          and Congress on improved government accountability underscores the
          Department’s resolve to enhance transparency within the Department
          while promoting improved efficiency and effectiveness. Progress in these
          endeavors requires strong commitment from the senior leadership and staff
          at all levels.



         102	             PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                       O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




The following is a description of the top challenges the U.S.    Our evaluations in the coming year will focus on
Patent and Trademark Office faces. The OIG identified these      these outstanding issues.
management challenges and key issues in November 2008
(early FY 2009), which were current as of that date, and thus    USPTO’s Long and Growing Patent
were used for this FY 2009 Performance and Accountability        Processing Times, and Its Financing
Report.                                                          Vulnerabilities

Strengthen Information Security:                                 The efficiency with which the USPTO processes
OIG Recommends Maintaining IT Security                           patent applications has a direct bearing on how well it
Material Weakness                                                achieves its mission of promoting U.S. competitiveness.
                                                                 Meeting the demand for new patents in a timely
The Federal Information Security Management Act (FISMA)          manner has been a long-standing challenge for USPTO.
requires that we annually assess USPTO’s efforts to safeguard    Increases in both the volume and complexity of patent
data processed by its computer systems and networks. At          applications have lengthened application processing
USPTO, IT security has been a material weakness under the        times and backlogs dramatically. In 2004, USPTO had
Federal Managers’ Financial Integrity Act because authorizing    a patent backlog of nearly a half million applications
officials had not been provided complete, accurate, and          and average processing times of 27 months. By
trustworthy information on a system’s security status so         2007, processing times averaged nearly 32 months,
they could make timely, credible, risk-based decisions on        with wait times for communications-related patents
whether to authorize operation. In FY 2008 we noted that         as long as 43 months. As of September 30, 2008,
USPTO improved and strengthened its security program             USPTO reported a backlog of 750,596 applications
and its certification and accreditation process, but these       and estimated that the backlog will exceed 860,000 by
improvements had not been demonstrated in the systems            September 2011. The 2010 President’s Budget reflects
we evaluated last year. However, we evaluated two USPTO          a backlog of 740,000 applications by the end of
systems this year (including one contractor-owned system)        FY 2009, which is a decrease of approximately 10,000
and found that both met FISMA requirements—although some         applications over end of FY 2008 numbers. USPTO
deficiencies were identified. These are the first systems we     needs to further decrease the backlog by continuing
found that met FISMA requirements since we recommended           to implement measures discussed in its 2007-2012
the material weakness in FY 2005.                                strategic plan that have a significant impact on
                                                                 reducing the backlog, such as shortening application
Despite improvements in USPTO’s security program, we do          review times; improving examiner error rates; and
not have sufficient evidence to recommend removal of its IT      continue its initiatives to improve the hiring, training,
security material weakness. We noted some deficiencies that      and retaining of skilled examiners.
will require management’s attention. In particular, USPTO
has not adequately assessed some of its more significant         USPTO’s unique financing structure also presents
common controls. Over the past three years, our evaluations      challenges. There is a complex relationship between
have noted and USPTO officials have confirmed that its           the number of patent applications filed, the size of the
computing environments rely increasingly on the use of           application backlog, the number of patents issued,
virtual servers. However, USPTO has yet to define secure         and the fees USPTO collects in connection with the
configurations for underlying virtual technologies or assess     patent process. The Agency uses fees collected today
controls on such components—issues we have previously            to pay for patent applications filed and examined in
pointed out. USPTO has made significant changes in defining      prior years. With the backlog growing, processing
its systems’ boundaries and plans to recertify and accredit at   times increasing, and the number of patents issued
least 20 of 31 operational systems, and certify and accredit     flattening, this method of financing could become
five new systems in FY 2010; this will significantly test the    increasingly risky. The current model for financing
bureau’s ability to manage IT security in accordance with        USPTO’s critical mission warrants attention to ensure
FISMA requirements.                                              that it will continue to provide sufficient funding to
                                                                 process all backlogged applications as well as any
                                                                 newly filed.


www.uspto.gov	                                                                                                                          103
  GOAL 2                                      Improper Payments
                                              Information Act (IPIA)
                                              Reporting Details

D
         uring FY 2009, the USPTO did not have any                       In FY 2008, the USPTO participated in the DOC Consolidated
         erroneous payments that exceeded the ten million                Risk Assessment. The USPTO was assessed as low risk in all
         dollar threshold. The USPTO continuously seeks to               categories: Program/Activity Inherent Risk, Program/Activity
identify overpayments and erroneous payments by reviewing                Specific Risk Factors, Corporate Control Environment, and
(1) credit memos and refund checks issued by vendors or                  Procurement Management Functions.
customers and (2) undelivered electronic payments returned
by financial institutions.


                                              Improper Payment Reduction Outlook (Dollars in Millions)
                                                      FY 2008                                 FY 2009                               FY 2010
                                          Outlays     Improper    Improper        Outlays     Improper    Improper     Estimated    Improper   Improper
                                                       Payment     Payment                     Payment     Payment      Outlays      Payment    Payment
                             Program                   Percent      Dollars                    Percent      Dollars                  Percent     Dollars
                           Patent         $	1,634     0.30%       $	4.88          $	 1,749        0.03%    $	 0.52     $	 1,652     0.01%      $	 0.17
                           Trademark         190      0.30%       	 0.57              192         0.03%    	    0.06          183   0.01%      	   0.02
                           Intellectual       44      0.30%       	 0.13               43         0.03%    	    0.01           42   0.01%      	   0.00
                           Property
                           Total          $	1,868     0.30%       $	5.58          $	 1,984        0.03%    $	 0.60     $	 1,877     0.01%      $	 0.19



                           Improper Payment Reduction Outlook (Dollars in Millions) continued
                                                       FY 2011                                       FY 2012
                                          Estimated    Improper      Improper        Estimated       Improper     Improper
                                           Outlays      Payment       Payment         Outlays         Payment      Payment
                             Program                    Percent        Dollars                        Percent       Dollars
                           Patent         $	 1,697      0.01%        $	 0.17         $	1,746         0.01%        $	   0.17
                           Trademark          188       0.01%        	     0.02             193      0.01%        	    0.02
                           Intellectual         43      0.01%        	     0.00              44      0.01%        	    0.01
                           Property
                           Total          $	 1,928      0.01%        $	 0.19         $	1,984         0.01%        $	   0.20




104	                                                              PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                     O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




During FY 2005, the USPTO entered into an agreement            During FY 2008, the USPTO initiated an internal recovery
with the DOC to use an existing contract for recovery          audit program. Under this program, a letter similar to that
audit services. The audit was limited to closed obligations    sent by our recovery audit contractor is sent to vendors on a
greater than $0.1 million. Further excluded were grants,       rotational basis. There were no items identified as recoverable.
travel payments, purchase card transactions, inter-agency      This program excludes grants, travel payment, purchase card
agreements, government bills of lading, and gift and bequest   transactions, inter-agency agreements, government bills of
transactions.                                                  lading, and gift and bequest transactions. This program
                                                               continued through FY 2009.
The audit was completed in FY 2006 and resulted in three
invoices that were identified as recoverable improper          In FY 2009, the USPTO continued its reporting procedures to
payments, which are insignificant. The improper payments       senior management and to the DOC on improper payments,
identified of $0.1 million were recovered during FY 2006.      identifying the nature and magnitude of any improper
No recovery audit services were conducted during FY 2007,      payments, along with any necessary control enhancements
FY 2008, or FY 2009.                                           to prevent further occurrences of the types of improper
                                                               payments identified.
           Summary of Recovery Audit Effort
                 (Dollars in Millions)
 Amount subject to review                       $	159.4
 # of invoices                                  	 4,433
 Actual amount reviewed                         $	107.3
 # of invoices                                  	 985




www.uspto.gov	                                                                                                                        105
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                                                             Summary of Financial
                                                             Statement Audit and
                                                             Management Assurances
         Table 1. - Summary of Financial Statement Audit
          Audit Opinion                             Unqualified
          Restatement                               No
                 Material Weaknesses                Beginning Balance           New             Resolved           Consolidated       Ending Balance
                NONE                                          0                  0                   0                   0                    0
          Total Material Weaknesses                           0                  0                   0                   0                    0

         Table 2. - Summary of Management Assurances

                                      Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
          Statement of Assurance                         Unqualified
                   Material Weaknesses                   Beginning Balance     New      Resolved    Consolidated       Reassessed     Ending Balance
              NONE                                                0              0         0               0                 0                0
          Total Material Weaknesses                               0              0         0               0                 0                0
                                            Effectiveness of Internal Control over Operations (FMFIA § 2)
          Statement of Assurance                         Unqualified
                   Material Weaknesses                   Beginning Balance     New      Resolved    Consolidated       Reassessed     Ending Balance
              Information Technology Security                     1              0         1               0                 0                0
          Total Material Weaknesses                               1              0         1               0                 0                0
                                 Conformance with Financial Management System Requirements (FMFIA § 4)
          Statement of Assurance                         Systems conform to financial management system requirements
                    Non-Conformances                     Beginning Balance     New      Resolved    Consolidated       Reassessed     Ending Balance
              NONE                                                0              0         0               0                 0                0
          Total non-conformances                                  0              0         0               0                 0                0
                                  Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                                               Agency                               Auditor
          Overall Substantial Compliance                                                           Yes                                Yes
          1. System Requirements                                                                   Yes                                Yes
          2. Accounting Standards                                                                  Yes                                Yes
          3. USSGL at Transaction Level                                                            Yes                                Yes



106	                                                                          PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                      O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




The Nature of the Training
Provided to USPTO
Examiners


A
        chieving organizational excellence demands a high performance
        workforce that delivers high quality work products and provides
        customer service excellence. Training is a critical component in achieving
consistently high quality products and services. Patent examiners and Trademark
examining attorneys received extensive legal, technical, and automation training
in FY 2009. The USPTO has a comprehensive training program for new patent
examiners and trademark examining attorneys, embedding a well-established
curriculum including initial legal training, automation training, and training in
examination practice and procedure. Automation training is provided to all
examiners as new systems are deployed and existing systems are enhanced. New
technology-specific legal and technical training was conducted throughout the
examining operations. This specific training either focuses on practices particular
to a technology or was developed to address training needs identified through
patent and trademark examination reviews or staff requests.

The USPTO training staff works with the Patent and Trademark organizations
to address specific training concerns and serve as consultants to design specific
internal programs to fit the education needs of each business unit. Training is
reviewed and evaluated on an ongoing basis to ensure it is up-to-date and that
coursework reflects developments and changes that have taken place in the
industry. In FY 2009, the Agency was forced to reduce training opportunities in
response to patent funding shortfalls.




www.uspto.gov	                                                                107
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                                                                 PATENT EXAMINER TRAINING

            U.S. Patent Training Academy                 Training in the Academy
            –	 Mandatory training for first year         This Program provides training for new examiners in Legal, Procedural, Automation, Life Skills, Technical,
               examiners                                 and Professional Development. Participants attend an eight-month training curriculum. Each class is
                                                         composed of up to 160 new examiners, starting at specific dates during the year. The training is delivered
                                                         in large group lectures or a small group workshop. The class is then split into groups of approximately
                                                         16 examiners for labs, small group discussions, and tailored training in their specific fields of study.
                                                         Examiners have access to tutors, library and search assistance, and automation guidance. In addition
                                                         to extensive lecture and lab training, attendees spend considerable time learning their jobs through the
                                                         examination of real patent applications in a setting that provides immediate assistance when needed.
                                                         The training is structured to provide new examiners with advanced entry-level competencies, as well as
                                                         providing instruction in a variety of skills that will produce well-rounded, motivated employees.

                                                         ■■   Curriculum
                                                              Training in the Academy includes the legal and procedural training, plus enhanced instruction in
                                                              areas such as: Classification Systems, Searching (classification, text), Claim Interpretation, Advanced
                                                              Text Searching, Writing an Effective Examiner’s Answer, Appeal Procedure and Practice (Appeal
                                                              Conference & Pre-Conference; Prevent Administrative Remand).

                                                              Technical training in the Academy encompasses: Introduction to examining applications in specific
                                                              areas of technology, the current state of specific technologies, ongoing technology topics, etc.

                                                              Examiners attending the Academy receive extensive training in automation, including classes in
                                                              more than a dozen specialized applications used in patent examination, multiple search systems,
                                                              databases, and commonly used office applications.

                                                              The Academy provides new examiners training in life skills such as: time management, physical
                                                              security, ethics, stress management, balancing quality and production, professionalism, balancing
                                                              work and personal life, diversity training, dealing with conflict and difficult situations, and benefits
                                                              and financial planning basics.

                                                         ■■   Individual Development Plan
                                                              The Academy training program includes creating an Individual Development Plan (IDP) for each
                                                              examiner. The IDP is composed of formal training courses, development assignments, and on-the-job
                                                              training. The IDP is designed to assist the examiner from day one, through the first 24 months of
                                                              employment. When the examiner graduates from the Academy, and is transferred to a Technology
                                                              Center, the IDP will continue to enable the examiner to acquire the competencies essential to perform
                                                              assigned duties and to prepare for further development.




108	                                                                              PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                                     O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                                                PATENT EXAMINER TRAINING (Continued)

  Programs for all Examiners                       ■■   Continuing Education
                                                        Continuing education courses are for patent examiners. Courses include: Federal Circuit Court
                                                        Decisions Affecting USPTO Practice - Key Cases of the Past Year and mastery of updated automation
                                                        tools.

                                                   ■■   Legal Training
                                                        TC Level courses taught by TC personnel, some developed within the TC’s. Examples include: 101
                                                        Training, 102/103 Training, Obviousness Type Double Patenting, Patent Law & Evidence.

                                                   ■■   Non-Duty Legal Studies program*
                                                        This is a voluntary program established to provide reimbursement for additional legal training.

                                                   ■■   Non-Duty Technical Training Program*
                                                        This is a voluntary program established to provide reimbursement for additional technical training.

                                                   ■■   Examiner Technical Training (Technology Center Focused)*
                                                        Includes attendance at technology fairs; seminars and lectures in the fields of biotechnology,
                                                        computer software and hardware technology, semiconductors, communication technology, and
                                                        knowledge management.

                                                   ■■   Automation Training
                                                        TC-Focused Classes: EAST Databases, EAST, Automated Searching for Design Examiners, EAST
                                                        and Optical Character Recognition, OACS Basics for Design Examiners, Non-Patent Literature Web
                                                        Resources in Your Art Area, Classification and Security Review.
  *	   These programs were suspended in FY 2009 due to reductions in fee collections.




www.uspto.gov	                                                                                                                                                        109
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                                                    TRADEMARK EXAMINING ATTORNEY TRAINING

              In FY 2009, in the Trademark organization, using data gathered from the results of quality reviews that were analyzed were used to prepare
              the content of on-line e-learning training materials for trademark examining attorneys. Live and Webcast Training Sessions and Modules were
              developed and released covering the following list of topics.

                     ■■   Evidence for Refusals/Requirements - When Needed, Types Available, and Strategies for Gathering
                     ■■   Examination Procedures for Section 2(a) and Section 2(e)(3) Deceptiveness Refusals for Geographic Marks
                     ■■   Examination Procedures for Section 2(a) Deceptiveness Refusals for Non-Geographic Marks
                     ■■   46 Separate Discussions on Classification (Reflecting International Classes 1 through 45)
                     ■■   Evidentiary Issues in Ex Parte Appeals to the TTAB
                     ■■   Scope Considerations in Relation to Amendments to an Applicant’s Identification of Goods or Services
                     ■■   Fraud in Trademark Prosecution and the Medinol line of Cases
                     ■■   Discussion of Revisions in the TMEP
                     ■■   Letters of Protest in Trademark Applications
                     ■■   Panel discussion on the federal trademark registration process from the perspective of a law firm attorney or in-house counsel
                          representing a client before the USPTO
                     ■■   Industry training on trademark issues in the online industry sponsored by the International Trademark Association (INTA)

              Law Office Presentations and Computer-Based Training Modules were developed and released covering the following list of topics.

                     ■■ Evidence for Refusals/Requirements - When Needed, Types Available, and Strategies for Gathering
                     ■■ Top Amendment Entry Issues in Trademark Examination
                     ■■ X-SEARCH - Truncation, Pattern Matching and Limiting by Class
                     ■■ Genericness issues


              Four Exam Guides and Two Exam Notes were published.

                     ■■   Updated Exam Guide 2-08 (originally released May 2008, but updated May 2009) - Examination Procedures for the Description of the
                          Mark Requirement in Trademark Rule 2.37
                     ■■   Examination Guide 4-08 - Letters of Protest in Pending Trademark Applications
                     ■■   Examination Guide 1-09 - Examination Procedures for Section 2(a) Deceptiveness Refusals for Non-Geographic Marks
                     ■■   Examination Guide 2-09 - Examination Procedures for Section 2(a) and Section 2(e)(3) Deceptiveness Refusals for Geographic Marks
                     ■■   Exam Note Regarding TEAS-Filed Responses
                     ■■   Exam Note: When to Suspend Action on an Application Pending Receipt of the Foreign Registration Where Section 44(d) is Claimed

              Other Guidance covering two topics were also published and released.

                     ■■   Summary of Miscellaneous Changes to Trademark Rules Effective January 16, 2009
                     ■■   List of Countries that Have Standard Character Marks or Equivalent




110	                                                                            PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
Fiscal Year 2009 USPTO
Workload Tables
Index of Tables                                                                       Page
Table 1       Summary of Patent Examining Activities                                   112
Table 2       Patent Applications Filed                                                113
Table 3       Patent Applications Pending Prior to Allowance                           114
Table 4       Patent Pendency Statistics                                               115
Table 5       Summary of Total Pending Patent Applications                             115
Table 6       Patents Issued                                                           116
Table 7       Patent Applications Filed by Residents of the United States              117
Table 8       Patents Issued to Residents of the United States                         118
Table 9       United States Patent Applications Filed by Residents of Foreign          119
              Countries
Table 10      Patents Issued by the United States to Residents of Foreign Countries    121
Table 11      Statutory Invention Registrations Published                              122
Table 12      United States Government Agency Patents                                  123
Table 13A     Ex Parte Reexamination                                                   124
Table 13B     Inter Partes Reexamination                                               124
Table 14      Summary of Contested Patent Cases                                        125
Table 15      Summary of Trademark Examining Activities                                126
Table 16      Trademark Applications Filed for Registration and Renewal and            127
              Trademark Affidavits Filed
Table 17      Summary of Pending Trademark Applications                                128
Table 18      Trademarks Registered, Renewed, and Published Under Section 12(C)        129
Table 19      Trademark Applications Filed by Residents of the United States           130
Table 20      Trademarks Registered to Residents of the United States                  131
Table 21      Trademark Applications Filed by Residents of Foreign Countries           132
Table 22      Trademarks Registered to Residents of Foreign Countries                  134
Table 23      Summary of Contested Trademark Cases                                     136
Table 24      Actions on Petitions to the Director of the U.S. Patent and Trademark    137
              Office
Table 25      Cases in Litigation                                                      138
Table 26      Patent Classification Activity                                           139
Table 27      Scientific and Technical Information Center Activity                     139
Table 28      End of Year Personnel                                                    140
Table 29A     Top 50 Trademark Applicants                                              141
Table 29B     Top 50 Trademark Registrants                                             141




www.uspto.gov	                                                                        111
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                                                         SUMMARY OF PATENT EXAMINING ACTIVITIES
                 TA B L E 1
                                                                   (FY 2005 - FY 2009)
                                                                     (PRELIMINARY FOR FY 2009) 1
           Patent Examining Activity                                                                  2005             2006            2007            2008              2009

           Applications filed, total1,2                                                              409,532         445,613          468,330        496,886           485,500
           	     Utility3                                                                            381,797         417,453          439,578        466,258           457,966
           	     Reissue                                                                               1,143           1,204            1,057          1,080               961
           	     Plant                                                                                 1,288           1,103            1,002          1,331               992
           	     Design                                                                               25,304          25,853           26,693         28,217            25,581

           Provisional Applications Filed2,4                                                         111,753         121,471          132,459        143,034           134,435

           First actions
           	     Design                                                                               20,108          23,291           29,029         28,756            27,858
           	     Utility, Plant, and Reissue                                                         297,287         320,349          367,953        422,065           469,946
           	     PCT/Chapter                                                                          22,795          25,034           24,741         51,300            20,797

           Patent application disposals, total                                                       298,838         332,535          362,227        396,228           487,140

           Allowed patent applications, total                                                        182,254         186,593          195,530        187,607           214,523
           	     Design                                                                               18,161          20,721           25,747         24,735            25,403
           	     Utility, Plant, and Reissue                                                         164,093         165,872          169,783        162,872           189,120

           Abandoned, total                                                                          116,564         145,912          166,690        208,610           272,607
           	     Design                                                                                1,332           2,125            2,661          2,936             3,840
           	     Utility, Plant, and Reissue                                                         115,232         143,787          164,029        205,674           268,767

           Statutory invention registration disposals, total                                               20              30                 7            11                 10

           PCT/Chapter II examinations completed                                                      12,594            7,295           5,336           2,937             3,468
           Applications Published5                                                                   291,221         291,259          302,678        309,194           325,988
           Patents issued2,6                                                                         165,483         183,187          184,376        182,556           190,121
           	     Utility                                                                             151,077         162,509          160,306        154,699           165,212
           	     Reissue                                                                                 195             500              548            662               398
           	     Plant                                                                                   816           1,106              979          1,179             1,096
           	     Design                                                                               13,395          19,072           22,543         26,016            23,415

           Pendency time of average patent application7                                                 29.1            31.1             31.9           32.2              34.6
           Reexamination certificates issued                                                             223             329              367            575               698
           PCT international applications received by USPTO as receiving office                       46,926          52,524           54,214         54,488            47,572
           National requirements received by USPTO as designated/elected office                       41,256          48,158           52,339         57,345            57,879
           Patents renewed under Public Law (Pub.L.) 102-204 8                                       268,935         324,913          343,894        353,923           304,096
           Patents expired under Pub.L. 102-204 8                                                     67,534          72,654           67,122         67,127            66,330

           1	   FY 2009 data are preliminary and will be finalized in the FY 2010 PAR.
           2	   FY 2008 application data has been updated with final end of year numbers.			
           3	   Utility patents include chemical, electrical and mechanical applications.
           4	   Provisional applications provided for in Pub.L. 103-465.	
           5	   Eighteen-month publication of patent applications provided for in the American Inventors Protection Act of 1999, Pub.L.106-113.		
           6	   Excludes withdrawn numbers. Past years’ data may have been revised from prior year reports.
           7	   Average time (in months) between filing and issuance or abandonment of utility, plant, and reissue applications. This average does not include design patents.	
           8	   The provisions of Pub.L.102-204 regarding the renewal of patents superseded Pub.L. 96-517 and Pub.L. 97-247.



112	                                                                                    PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                            O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




        TA B L E 2                                           PATENT APPLICATIONS FILED
                                                                 (FY 1989 - FY 2009)
                                                          (PRELIMINARY FOR FY 2009) 1
             Year                       Utility                     Design         Plant   Reissue                    Total

            1989                       150,418                      11,975          418       495                   163,306
            1990                       162,708                      11,140          395       468                   174,711
            1991                       166,765                      10,368          414       536                   178,083
            1992                       171,623                      12,907          335       581                   185,446
            1993                       173,619                      13,546          362       572                   188,099
            1994                       185,087                      15,431          430       606                   201,554
            1995                       220,141                      15,375          516       647                   236,679
            1996                       189,922                      15,160          557       637                   206,276
            1997                       219,486                      16,272          680       607                   237,045
            1998                       238,850                      16,576          658       582                   256,666
            1999                       259,618                      17,227          759       664                   278,268
            2000                       291,653                      18,563          786       805                   311,807
            2001                       324,211                      18,636          914       956                   344,717
            2002                       331,580                      19,706         1,134      974                   353,394
            2003                       331,729                      21,966          785       938                   355,418
            2004                       353,319                      23,457         1,212      996                   378,984
            2005                       381,797                      25,304         1,288    1,143                   409,532
            2006                       417,453                      25,853         1,204    1,103                   445,613
            2007                       439,578                      26,693         1,002    1,057                   468,330
            20082                      466,258                      28,217         1,331    1,080                   496,886
            20091                      457,966                      25,581          992       961                   485,500

  1	   FY 2009 data are preliminary and will be finalized in the FY 2010 PAR.
  2	   FY 2008 application data has been updated with final end of year numbers.




www.uspto.gov	                                                                                                                               113
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                  TA B L E 3                  PATENT APPLICATIONS PENDING PRIOR TO ALLOWANCE 1
                                                              (FY 1989 - FY 2009)
                                     Year                                     Awaiting Action by Examiner                               Total Applications Pending2

                                     1989                                                    92,377                                                   222,755
                                     1990                                                    104,179                                                  244,964
                                     1991                                                    104,086                                                  254,507
                                     1992                                                    112,201                                                  269,596
                                     1993                                                    99,904                                                   244,646
                                     1994                                                    107,824                                                  261,249
                                     1995                                                    124,275                                                  298,522
                                     1996                                                    139,943                                                  303,720
                                     1997                                                    112,430                                                  275,295
                                     1998                                                    224,446                                                  379,484
                                     1999                                                    243,207                                                  414,837
                                     2000                                                    308,056                                                  485,129
                                     2001                                                    355,779                                                  542,007
                                     2002                                                    433,691                                                  636,530
                                     2003                                                    471,382                                                  674,691
                                     2004                                                    528,685                                                  756,604
                                     2005                                                    611,114                                                  885,002
                                     2006                                                    701,147                                                 1,003,884
                                     2007                                                    760,924                                                 1,112,517
                                     2008                                                    771,529                                                 1,208,076
                                     2009                                                    735,961                                                 1,207,794

            1	   Includes patent applications pending at end of period indicated, and includes utility, reissue, plant, and design applications. Does not include allowed
                 applications.
            2	   Applications under examination, including those in preexamination processing.




114	                                                                                      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                                   O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




        TA B L E 4                                           PATENT PENDENCY STATISTICS
                                                                      (FY 2009)
                                                                                                 Average First Action               Total Average
  UPR Pendency Statistics by Technology Center (in months)                                            Pendency                        Pendency

  Total UPR Pendency                                                                                     25.8                             34.6
  Tech Center 1600 - Biotechnology & Organic Chemistry                                                   22.5                             35.1
  Tech Center 1700 - Chemical and Materials Engineering                                                  25.9                             37.4
  Tech Center 2100 - Computer Architecture, Software & Information Security                              29.4                             40.7
  Tech Center 2400 - Networks, Multiplexing, Cable & Security                                            28.6                             47.7
  Tech Center 2600 - Communications                                                                      33.0                             42.7
  Tech Center 2800 - Semiconductor, Electrical, Optical Systems & Components                             20.8                             29.7
  Tech Center 3600 - Transportation, Construction, Agriculture & Electronic Commerce                     24.4                             35.1
  Tech Center 3700 - Mechanical Engineering, Manufacturing & Products                                    26.5                             35.5




        TA B L E 5                    SUMMARY OF TOTAL PENDING PATENT APPLICATIONS
                                                                           (FY 2009)
                                                                             Utility, Plant and            Design                     Total Patent
  Stage of Processing                                                      Reissue Applications          Applications                 Applications

  Pending patent applications, total                                              1,249,764                     30,007                 1,279,771

  In preexamination processing, total                                                  110,420                   2,982                   113,402

  Under examination, total                                                        1,073,910                     19,704                 1,093,614
  	     Undocketed                                                                     205,637                   3,017                   208,654
  	     Awaiting first action by examiner                                              402,778                  11,127                   413,905
  	     Rejected, awaiting response by applicant                                       323,660                   4,205                   327,865
  	     Amended, awaiting action by examiner                                           106,468                   1,249                   107,717
  	     In interference                                                                   229                       3                         232
  	     On appeal, and other1                                                           35,138                    103                      35,241

  In post-examination processing, total                                                 65,434                   7,321                     72,755
  	     Awaiting issue fee                                                              48,751                   5,817                     54,568
  	     Awaiting printing2                                                              13,512                   1,503                     15,015
  	     D-10s (secret cases in condition for allowance)                                  3,171                      1                       3,172

  1	   Includes cases on appeal and undergoing petitions.	
  2	   Includes withdrawn cases.




www.uspto.gov	                                                                                                                                                      115
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                  TA B L E 6                                                     PATENTS ISSUED
                                                                                (FY 1989 - FY 2009) 1
                       Year                      Utility2                      Design             Plant           Reissue          Total

                      1989                        95,829                        5,844               728             309           102,710
                      1990                        88,972                        7,176               295             282            96,725
                      1991                        91,819                        9,387               318             334           101,858
                      1992                        99,406                        9,612               336             375           109,729
                      1993                        96,675                        9,946               408             302           107,331
                      1994                       101,270                       11,138               513             346           113,267
                      1995                       101,895                       11,662               390             294           114,241
                      1996                       104,900                       11,346               338             291           116,875
                      1997                       111,977                       10,331               400             267           122,975
                      1998                       139,297                       14,419               577             284           154,577
                      1999                       142,852                       15,480               436             393           159,161
                      2000                       164,486                       16,718               453             561           182,218
                      2001                       169,571                       17,179               563             504           187,817
                      2002                       160,839                       15,096               912             465           177,312
                      2003                       171,493                       16,525             1,178             394           189,590
                      2004                       169,295                       16,533               998             343           187,169
                      2005                       151,077                       13,395               816             195           165,483
                      2006                       162,509                       19,072             1,106             500           183,187
                      2007                       160,306                       22,543               979             548           184,376
                      2008                       154,699                       26,016             1,179             662           182,556
                      20093                      165,212                       23,415             1,096             398           190,121

            1	   Past years’ data may have been revised from prior year reports.
            2	   Includes chemical, electrical, and mechanical applications.
            3	   FY 2009 data is preliminary.




116	                                                                                    PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                                              O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




        TA B L E 7              PATENT APPLICATIONS FILED BY RESIDENTS OF THE UNITED STATES 1
                                                   (FY 2005 - FY 2009) 2
  State/Territory                  2005       2006        2007          2008     20093   State/Territory               2005       2006       2007       2008       20093

  Total                          218,472 236,012 247,898 257,818                 N/A     Nebraska                        555         532        689       592      N/A
                                                                                         Nevada                         1,400      1,426      1,629      1,996     N/A
  Alabama                             884        837         886          996    N/A     New Hampshire                  1,384      1,474      1,450      1,564     N/A
  Alaska                               93           86        82           88    N/A     New Jersey                     7,994      8,973      8,649      9,428     N/A
  Arizona                           4,090      4,123       4,486         4,460   N/A     New Mexico                      949         802        960       857      N/A
  Arkansas                            381        365         406          420    N/A     New York                      13,482     14,595     15,518     16,838     N/A
  California                      52,401      57,608     63,027         66,370   N/A     North Carolina                 4,827      5,427      5,841      7,008     N/A
  Colorado                          4,794      4,889       4,918         4,898   N/A     North Dakota                    200         217        218       178      N/A
  Connecticut                       3,872      4,368       4,281         4,326   N/A     Ohio                           6,836      7,508      8,104      7,791     N/A
  Delaware                            873        897         954          922    N/A     Oklahoma                       1,071      1,079      1,129      1,048     N/A
  District of Columbia                192        223         250          262    N/A     Oregon                         4,912      5,197      4,841      4,487     N/A
  Florida                           7,309      7,896       8,184         8,480   N/A     Pennsylvania                   6,812      7,448      7,811      7,951     N/A
  Georgia                           3,966      4,906       4,818         4,946   N/A     Rhode Island                    697         652        716       740      N/A
  Hawaii                              206        245         294          300    N/A     South Carolina                 1,255      1,541      1,506      1,585     N/A
  Idaho                             2,783      3,114       2,495         1,905   N/A     South Dakota                    168         170        198       193      N/A
  Illinois                          8,471      9,108       9,323         9,340   N/A     Tennessee                      2,063      2,357      2,320      2,010     N/A
  Indiana                           3,209      3,085       3,178         3,345   N/A     Texas                         13,903     14,803     15,886     17,339     N/A
  Iowa                              1,428      1,580       1,490         1,641   N/A     Utah                           1,987      2,304      2,391      2,516     N/A
  Kansas                            1,270      1,355       1,475         1,587   N/A     Vermont                         866         983      1,001      1,309     N/A
  Kentucky                          1,198      1,184       1,129         1,215   N/A     Virginia                       2,993      3,242      3,554      3,532     N/A
  Louisiana                           777        808         838          709    N/A     Washington                    10,149     10,444     11,163     12,602     N/A
  Maine                               348        382         415          411    N/A     West Virginia                   292         309        294       274      N/A
  Maryland                          3,450      3,731       3,840         3,694   N/A     Wisconsin                      4,127      4,453      4,631      4,341     N/A
  Massachusetts                     9,990     10,506     11,218         11,534   N/A     Wyoming                         128         147        198       183      N/A
  Michigan                          7,764      7,964       8,249         8,447   N/A     Puerto Rico                      84           75        70        70      N/A
  Minnesota                         6,871      7,755       7,997         8,164   N/A     Virgin Islands                       9          7       10        10      N/A
  Mississippi                         347        367         329          320    N/A     U.S. Pacific Islands4                3          2          3          -   N/A
  Missouri                          2,010      2,166       2,273         2,335   N/A     United States5                       3          6          2          3   N/A
  Montana                             346        291         281          258    N/A

  -	   Represents zero.
  1	   Data include utility, plant, design, and reissue applications.
  2	   Finalized data for FY 2005 to 2008 provided.
  3	   FY 2009 preliminary data should be available January 2010 at www.uspto.gov, and finalized in the FY 2010 PAR.
  4	   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.
  5	   State/Territory information not available.




www.uspto.gov	                                                                                                                                                                 117
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                                                     PATENTS ISSUED TO RESIDENTS OF THE UNITED STATES 1
                   TA B L E 8
                                                                   (FY 2008 - FY 2009)
             State/Territory                                  20084            20095             State/Territory         20084        20095

             Total                                           91,843           93,726            Nebraska                   222          231
                                                                                                Nevada                     484          408
             Alabama                                             365              345           New Hampshire              541          567
             Alaska                                               28               48           New Jersey               3,172        3,273
             Arizona                                           1,847            1,853           New Mexico                 292          309
             Arkansas                                            168              132           New York                 5,942        6,217
             California                                      22,122           22,973            North Carolina           2,163        2,277
             Colorado                                          1,848            1,932           North Dakota                74           82
             Connecticut                                       1,586            1,645           Ohio                     3,085        2,989
             Delaware                                            369              335           Oklahoma                   512          426
             District of Columbia                                 68               64           Oregon                   2,130        2,094
             Florida                                           2,904            2,804           Pennsylvania             2,823        3,020
             Georgia                                           1,560            1,616           Rhode Island               302          314
             Hawaii                                              109               94           South Carolina             517          572
             Idaho                                             1,245            1,044           South Dakota               56            54
             Illinois                                          3,577            3,567           Tennessee                  769          791
             Indiana                                           1,268            1,205           Texas                    6,106        6,417
             Iowa                                                634              692           Utah                       713          829
             Kansas                                              537              519           Vermont                    512          545
             Kentucky                                            481              435           Virginia                 1,165        1,153
             Louisiana                                           316              288           Washington               4,059        4,632
             Maine                                               137              129           West Virginia              90            93
             Maryland                                          1,458            1,420           Wisconsin                1,983        1,830
             Massachusetts                                     3,908            3,880           Wyoming                    42            59
             Michigan                                          3,537            3,525           Puerto Rico                21            18
             Minnesota                                         2,903            2,902           Virgin Islands              5             3
             Mississippi                                         162              126           U.S. Pacific Islands2       4             0
             Missouri                                            785              850           United States3              2             1
             Montana                                             135               99

             1	   Data include utility, design, plant, and reissue patents.
             2	   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.
             3	   No State indicated in database.
             4	   Finalized data for FY 2008 provided.
             5	   FY 2009 data is preliminary.




118	                                                                                    PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                                 O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




      TA B L E 9              UNITED STATES PATENT APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES1
                               	                    (FY 2005 - FY 2009)
  Residence                     2005      2006      2007      20082     20093   Residence                 2005      2006       2007     20082      20093

  Total                         191,060   209,601   220,432   239,068   N/A     Cyprus                        13         11         5         8     N/A
                                                                                Czech Republic                87        102       129       180     N/A
  Afghanistan                         1         -         -         -   N/A     Denmark                    1,167      1,259     1,232     1,654     N/A
  Albania                             1         -         -         -   N/A     Dominican Republic             5          8         7         9     N/A
  Algeria                             3         2         3         1   N/A     Ecuador                        5         12         5         5     N/A
  Andorra                             2         -         5         8   N/A     Egypt                         17         17        33        53     N/A
  Anguilla                            -         1         -         -   N/A     El Salvador                    -          -         3         -     N/A
  Antigua & Barbuda                   2         -         2         1   N/A     Estonia                       20         14        18        35     N/A
  Argentina                          92       133       166       139   N/A     Ethiopia                       -          1         1         -     N/A
  Armenia                             3        10         3         9   N/A     Finland                    2,096      2,310     2,517     2,782     N/A
  Aruba                               1         -         -         -   N/A     French Polynesia               2          1         -         -     N/A
  Australia                       3,339     3,078     3,612     4,194   N/A     France                     7,515      7,228     8,204     9,281     N/A
  Austria                         1,119     1,200     1,417     1,785   N/A     Georgia                        5         10        14         5     N/A
  Azerbaijan                          3         4         1         1   N/A     Germany                   21,598     22,263    23,535    26,331     N/A
  Bahamas                            16        18        13        20   N/A     Ghana                          3          -         3         1     N/A
  Bahrain                             -         1         1         -   N/A     Gibraltar                      7         10         3         3     N/A
  Bangladesh                          1         -         -         1   N/A     Greece                        65         81        86       128     N/A
  Barbados                            9         2         6         7   N/A     Greenland                      -          -         3         4     N/A
  Belarus                             4        13        15        11   N/A     Guatemala                      1          7         3         2     N/A
  Belgium                         1,539     1,578     1,700     1,748   N/A     Haiti                          -          -         1         -     N/A
  Belize                              -         -         -         4   N/A     Honduras                       3          1         1         1     N/A
  Benin                               1         -         -         1   N/A     Hungary                      128        172       193       203     N/A
  Bermuda                             7         8         4         8   N/A     Iceland                       52         47        37        41     N/A
  Bolivia                             2         2         2         3   N/A     India                      1,444      1,862     2,280     2,869     N/A
  Bosnia & Herzegovina                1         -         3         6   N/A     Indonesia                     24         31        37        25     N/A
  Brazil                            340       333       385       499   N/A     Iran                           4         10        18        28     N/A
  British Virgin Islands              5         7        11        10   N/A     Iraq                           -          1         -         1     N/A
  Brunei                              -         -         1         -   N/A     Ireland                      507        528       561       740     N/A
  Bulgaria                           67        52        49        83   N/A     Israel                     3,191      3,617     4,114     4,916     N/A
  Burkina Faso                        -         -         1         -   N/A     Italy                      3,685      3,691     3,832     4,273     N/A
  Burundi6                            -         -         -         1           Jamaica                        5          4         4        12     N/A
  Cameroon                            2         1         3         1   N/A     Japan                     73,250     76,940    79,725    84,473     N/A
  Canada                          9,114    10,243    10,788    11,436   N/A     Jordan                         2          7        12         8     N/A
  Cayman Islands                     14         2         4         6   N/A     Kazakhstan                     3          4         1         2     N/A
  Chad4                               -         1         -         -   N/A     Kenya                          7          7         9         4     N/A
  Chile                              56        50       105        63   N/A     Korea, Dem. Republic of        -          -         1         2     N/A
  China (Hong Kong)               1,319     1,318     1,447     1,419   N/A     Korea, Republic of        16,643     21,963    23,589    25,507     N/A
  China (Macau)6                      3         5         3         5   N/A     Kuwait                        23         36        25        18     N/A
  China (People's Republic)       2,330     3,838     4,422     5,148   N/A     Kyrgyzstan                     1          -         -         -     N/A
  Colombia                           15        15        27        35   N/A     Latvia                         6          8        10         6     N/A
  Cook Islands                        -         -         -         -   N/A     Lebanon                        7         14        12        11     N/A
  Costa Rica                         47        25        33        20   N/A     Liechtenstein                 25         27        26        35     N/A
  Croatia                            42        37        32        39   N/A     Lithuania                      9         10        11        13     N/A
  Cuba                               16         9        16        38   N/A     Luxembourg                    78         84       118       102     N/A




www.uspto.gov	                                                                                                                                                    119
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                    TA B L E 9           UNITED STATES PATENT APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES1
                     C O N T.             	                    (FY 2005 - FY 2009)

            Residence                         2005       2006        2007       20082     20093        Residence                       2005       2006       2007       20082      20093
            Madagascar                              -          -           1          -     N/A        Serbia                               -          7          12         16     N/A
            Macedonia                               1          -           1          -     N/A        Serbia & Montenegro                  6          -           -          -     N/A
            Malaysia                              341        392         378        326     N/A        Seychelles                           2          1           -          1     N/A
            Malta                                   6         13           5         10     N/A        Singapore                          949      1,183       1,192      1,376     N/A
            Mauritius                               -          -           2          1     N/A        Slovakia                            18         29          32         36     N/A
            Mexico                                217        229         216        269     N/A        Slovenia                            50         47          53         71     N/A
            Moldova                                 -          1           1          1     N/A        South Africa                       241        243         280        319     N/A
            Monaco                                 18         21          15         16     N/A        Spain                              855        868       1,080      1,294     N/A
            Morocco                                 4          2           2         11     N/A        Sri Lanka                            6          9           9         16     N/A
            Namibia                                 -          -           -          1     N/A        Sweden                           2,371      2,793       3,132      3,508     N/A
            Netherlands                         3,637      4,098       4,249      4,240     N/A        Switzerland                      2,651      2,968       3,138      3,681     N/A
            Netherlands Antilles                    1          -           1          1     N/A        Syria Arab Rep                       2          -           -          1     N/A
            New Zealand                           416        449         474        580     N/A        Taiwan                          17,933     21,165      20,447     19,733     N/A
            Nigeria                                 3          2           5          1     N/A        Thailand                            79         82         111        127     N/A
            Norway                                583        593         662        856     N/A        Trinidad & Tobago                    6          3           4          6     N/A
            Oman                                    5          1           2          5     N/A        Tunisia                              1          3           7          9     N/A
            Pakistan                               12         12          10         21     N/A        Turkey                              62         68          86        103     N/A
            Panama                                  3          6           7         12     N/A        Turks and Caicos Islands             2          1           5          2     N/A
            Paraguay                                -          1           -          1     N/A        Ukraine                             34         32          35         46     N/A
            Peru                                    3          3           9          9     N/A        United Arab Emirates                15         22          22         30     N/A
            Philippines                            60         85          87         72     N/A        United Kingdom                   8,603      9,127       9,185     10,795     N/A
            Poland                                122         93         104        122     N/A        Uruguay                             11         18           8         13     N/A
            Portugal                               55         43          66         91     N/A        Uzbekistan                           -          1           -          -     N/A
            Qatar                                   1          -           4          -     N/A        Vanuatu (New Hebrides)4              -          1           -          4     N/A
            Romania                                16         31          39         47     N/A        Venezuela                           31         33          37         27     N/A
            Russian Federation                    361        377         443        531     N/A        Vietnam                              6          4           3         13     N/A
            Samoa4                                  -          5           -          4     N/A        West Bank/Gaza4                      -          1           -          -     N/A
            San Marino                              -          -           1          -     N/A        Zimbabwe                             1          -           3          2     N/A
            Saudi Arabia                           41         51          69         90     N/A        Other5                               -          -           -          -     N/A

             -	 Represents zero.	
             1	    Data includes utility, design, plant, and reissue applications. Country listings include possessions and territories of that country unless listed separately in the
                   table. Data is subject to minor revisions.
             2	    FY 2008 data is updated and final.
             3 	   FY 2009 preliminary data should be available January 2010 at www.uspto.gov, and finalized in the FY 2010 PAR.
             4	    Countries/Territories not previously reported.
             5	    Country of origin information not available.
             6	    New entry.
             Note: Deleted Czechoslvakia, Macau, Soviet Union and Yugoslavia as provided in previous reports.




120	                                                                                        PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                        O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




     TA B L E 1 0            PATENTS ISSUED BY THE UNITED STATES TO RESIDENTS OF FOREIGN COUNTRIES1
                                                       (FY 2005 - FY 2009) 2,3
  Residence                  2005     2006     2007     2008     2009     Residence              2005       2006       2007       2008       2009

  Total                      80,245   87,014   89,760   90,713   96,395   French Polynesia            -          -          1          -          1
                                                                          Gabon                       -          -          1          -          -
  Algeria                         -        1        -        -        -   Georgia                     2          2          7          3          1
  Andorra                         2        -        1        1        2   Germany                10,502     10,083     10,256      9,794     10,279
  Anguilla                        -        -        1        -        1   Ghana                       -          -          1          -          -
  Antigua and Barbuda             -        -        -        1        -   Gibralter                   -          -          1          3          1
  Argentina                      37       39       52       46       47   Greece                     18         22         26         25         26
  Armenia                         -        3        1        1        1   Greenland 4                 -          -          -          -          3
  Australia                   1,091    1,413    1,493    1,485    1,717   Guatemala                   1          1          -          4          1
  Austria                       546      575      553      572      729   Honduras                    1          -          2          -          -
  Azerbaijan                      -        1        2        2        -   Hungary                    48         41         55         68         53
  Bahamas                         9        7        3        5        6   Iceland                    23         22         20         23         26
  Bangladesh                      -        -        -        1        -   India                     405        470        560        650        678
  Barbados                        -        2        2        2        3   Indonesia                  36         11         16         21         20
  Belarus                         2        3        7        8        6   Iran                        1          -          4          3          6
  Belgium                       629      665      629      602      677   Iraq                        -          -          -          1          -
  Belize 4                        -        -        -        -        1   Ireland                   192        186        174        174        180
  Benin                           -        -        1        -        -   Israel                  1,000      1,231      1,218      1,322      1,426
  Bermuda                         2        -        6        1        -   Italy                   1,706      1,817      1,791      1,890      1,842
  Bolivia                         -        -        -        1        -   Jamaica                     1          -          1          2          4
  Bosnia and Herzegovina 4        -        -        -        -        2   Japan                  34,079     36,482     36,658     35,847     37,879
  Brazil                         93      152      112      131      146   Jordan                      -          1          1          1          1
  British Virgin Islands          7        5        1        1        4   Kazakhstan                  2          1          3          -          2
  Brunei 4                        -        -        -        -        1   Kenya                      10          4          1          2          6
  Bulgaria                        6        4        3       18       31   Korea, Republic of      4,811      5,835      6,882      8,410      9,401
  Burkina Faso 4                  -        -        -        -        1   Kuwait                      3          6          7         12         12
  Cameroon                        -        -        1        -        1   Kyrgyzstan                  -          -          -          1          -
  Canada                      3,368    3,743    3,974    4,052    4,361   Latvia                      2          2          2          2          4
  Cayman Islands                  2        -       12        2        1   Lebanon                     1          2          2          5          4
  Chad                            -        -        -        1        -   Liechtenstein              16         13         14         15         20
  Chile                          15       12       25       19       28   Lithuania                   5          6          9         13          4
  China (Hong Kong)             627      717      733      738      576   Luxembourg                 49         48         58         40         55
  China (Macau) 4                 1        3        -        2        -   Macedonia 4                 -          -          -          -          1
  China (Mainland)              583      868    1,139    1,684    2,196   Macedonia, Former           -          -          -          -        173
  Colombia                        9        7        8        9       11   Malaysia                   95        124        154        179          7
  Costa Rica                     12       29       14       17       14   Malta                       1          1          1          2          -
  Croatia                        10       17       15       14       19   Mauritius                   -          -          -          1         82
  Cuba                            3        2        2        6        5   Mexico                     88         93         89         78          -
  Cyprus                          6        4        4        1        2   Moldova, Republic           1          -          -          -          8
  Czech Republic                 28       28       39       58       48   Monaco                      8          9         13          9          4
  Denmark                       463      547      494      573      512   Morocco                     -          4          1          3          -
  Dominican Republic              1        3        2        3        5   Namibia                     -          -          -          1      1,634
  Ecuador                         3        2        5        3        3   Netherlands             1,268      1,504      1,594      1,670          -
  Egypt                           7        3       10        6        2   Netherlands Antilles        -          -          1          -          -
  El Salvador                     2        2        -        -        -   New Guinea                  -          -          -          -        179
  Estonia                         3        4       10        2        4   New Zealand               163        159        157        180          -
  Ethiopia                        -        -        1        -        -   Nigeria                     -          -          1          1        303
  Fiji                            1        -        1        -        -   Norway                    245        250        285        288          4
  Finland                       778      946      967      894      974   Oman                                   1          -          2          5
  France                      3,355    3,542    3,757    3,683    3,836   Pakistan                      4          3          4          6          -



www.uspto.gov	                                                                                                                                           121
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                 TA B L E 1 0              PATENTS ISSUED BY THE UNITED STATES TO RESIDENTS OF FOREIGN COUNTRIES1
                  C O N T.                                           (FY 2005 - FY 2009) 2,3

            Residence                       2005       2006        2007       2008       2009         Residence                      2005       2006           2007     2008         2009

            Palau                                 -          -           -          -          3     Sri Lanka                             3          1             5        1        1,230
            Panama                                1          -           -          1          -     Sweden                            1,269      1,255         1,298    1,249        1,428
            Paraguay                              -          1           -          -          8     Switzerland                       1,214      1,295         1,283    1,340            -
            Peru                                  4          2           2          1         24     Syrian Arab Rep                       -          3             1        -        7,958
            Philippines                          18         30          26         22         50     Taiwan                            6,311      7,356         7,569    7,424            -
            Poland                               29         26          37         64         18     Tanzania                              -          -             -        -           32
            Portugal                             14         18          16         30          1     Thailand                             28         38            29       38            3
            Qatar                                 2          2           -          1          7     Trinidad & Tobago                     -          3             1        -            -
            Romania                               6         11          11         11        206     Tunisia                               1          1             1        2           32
            Russian Federation                  160        169         183        186          -     Turkey                               11         24            19       35            -
            Saint Kitts & Nevis                   -          -           -          1          -     Turks and Caicos Islands              7          1             1        1            -
            Samoa                                 -          -           4          -         20     Uganda                                -          -             -        -           21
            Saudi Arabia                         16         21          23         28          5     Ukraine                              18         27            14       16           10
            Serbia 2                              -          2           6          2          -     United Arab Emirates                  4          7             5        6        3,904
            Serbia and Montenegro 2               5          -           -          -          -     United Kingdom                    3,744      3,978         4,100    3,882            5
            Seychelles                            -          -           2          1        496     Uruguay                               1          1             3        3            -
            Singapore                           420        424         457        426         13     Uzbekistan                            -          1             -        -           11
            Slovakia                              1          2           8         13         27     Venezuela                            14         14            13       19            2
            Slovenia                             17         21          23         17        148     Vietnam                               2          -             1        -            4
            South Africa                        115        123         117        111        415     Zimbabwe                              2          1             1        -            -
            Spain                               320        373         350        386          6
            -	 Represents zero.	
            1	   Data includes utility, design, plant, and reissue patents. Country listings include possessions and territories of that country unless separately listed in the table.
            2	   FY 2009 Numbers are preliminary. Past years’ data may have been revised from prior year reports to reflect patent withdrawal information that was updated
                 during the year. It is not uncommon for the withdrawal status of patents issued in prior years to change.
            3	   Each patent grant is listed under only one country of residence.
            4	   New entry.
            Note: Deleted Macau as provided in previous reports.




                                                   STATUTORY INVENTION REGISTRATIONS PUBLISHED
                 TA B L E 1 1
                                                                  (FY 2005 - 2009)
            Assignee                                                                 2005                  2006                  2007                  2008                    2009

            Air Force                                                                   6                    8                     7                       3                     2
            Army                                                                        -                    -                     -                       -                     -
            Energy                                                                      -                    -                     -                       -                     -
            Navy                                                                        3                   13                     4                       6                     3
            Health & Human Services                                                     -                    -                     -                       -                     -
            USA1,2                                                                      -                    -                     -                       -                     -
            Other Than U.S. Government                                                  5                   20                    16                      12                     4
            	     Total                                                                 14                  41                    27                      21                     9

            -	 Represents zero.
            1	   United States of America - no agency indicated in database.
            2	   Past year’s data may have been revised from prior year reports.



122	                                                                                         PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                                                 O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




       TA B L E 1 2                        UNITED STATES GOVERNMENT AGENCY PATENTS 1
                                                        (FY 2005 - FY 2009) 3
  Activity                                            2005                 2006                  2007                 2008                  2009             TOTAL

  Agriculture                                           25                   35                    30                    27                   24                141
  Air Force                                             38                   58                    33                    36                   45                210
  Army                                                 124                  167                   155                   134                  119                699
  Attorney General                                       -                    1                     -                     -                    -                  1
  Commerce                                               8                    5                     2                     3                    5                 23
  Energy                                                22                   23                    22                    20                   17                104
  EPA                                                    7                   11                     9                     9                    9                 45
  FCC                                                    -                    -                     -                     -                    -                  -
  HEW/HHS                                               77                  108                   116                   100                  105                506
  Interior                                              12                    2                     6                     1                    4                 25
  NASA                                                  78                   74                    65                    72                   86                375
  Navy                                                 257                  267                   255                   241                  230              1,250
  NSA                                                   10                   16                    11                    16                   15                 68
  NSF                                                    -                    0                     -                     -                    -                  -
  Postal Service                                         7                   14                    15                    19                   14                 69
  State Department                                       1                    -                     -                     -                    -                  1
  Transportation                                         2                    -                     -                     -                    -                  2
  TVA                                                    1                    1                     -                     1                    -                  3
  USA2                                                   -                    2                     1                     3                    2                  8
  VA                                                     6                    2                     5                     8                   10                 31
  Total                                                675                  786                   725                   690                  685              3,561

  -	 Represents zero.
  1	   Data in this table represent utility patents assigned to agencies at the time of patent issue. Data is subject to minor revisions.
  2	   United States of America - no agency indicated in database.
  3	   FY 2009 Numbers are preliminary. Past years’ data may have been revised from prior year reports to reflect patent withdrawal information that was updated
       during the year. It is not uncommon for the withdrawal status of patents issued in prior years to change.




www.uspto.gov	                                                                                                                                                                    123
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




               TA B L E 1 3 A                              EX PARTE REEXAMINATION
                                                               (FY 2005 - FY 2009)
            Activity                                            2005           2006         2007        2008        2009

            Requests filed, total                               524             511         643          680        658
            	 By patent owner                                   166             129         124           87         67
            	 By third party                                    358             382         519          593        591
            	 Commissioner ordered                                -               -           -            -          -

            Determinations on requests, total                   537             458         594          666        614
            	 Requests granted:
            		 By examiner                                      509             422         575          626        574
            		 By petition                                        2               5           2            -          -
            	 Requests denied                                    26              31          17           40         40

            Requests known to have related litigation           176             229         369          316        372

            Filings by discipline, total                        524             511         643          680        658
            	 Chemical                                          138             118         133          138        120
            	 Electrical                                        188             228         275          305        335
            	 Mechanical                                        198             165         235          237        203

            -	 Represents zero.




              TA B L E 1 3 B                             INTER PARTES REEXAMINATION
                                                               (FY 2005 - FY 2009)
            Activity                                            2005           2006        2007         2008        2009

            Requests filed, total                                59             70          126         168         258

            Determinations on requests, total                    57             47          119         150         229
            	 Requests granted:                                  54             43          118         142         218
            		 By examiner                                       54             43          118         142         217
            		 By petition                                        -              -            -           -           1
            	 Requests denied                                     3              4            1           8          11

            Requests known to have related litigation            29             32           81         115         220

            Filings by discipline, total                         59             70          126         168         258
            	 Chemical                                           17             17           30          38          35
            	 Electrical                                         20             27           53          67         153
            	 Mechanical                                         22             26           43          63          70

            -	 Represents zero.




124	                                                                  PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                    O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




      TA B L E 1 4                            SUMMARY OF CONTESTED PATENT CASES
                                             (Within the USPTO, as of September 30, 2009)
  Item                                                                                                     Total

  Ex parte cases
  Appeals
  	 Cases pending as of 9/30/08                                                                            3,956
  	 Cases filed during FY 2009                                                                            15,483

  	 Disposals during FY 2009, total
  	 Decided, total
  		 Affirmed                                                                                              3,574
  		 Affirmed-in-Part                                                                                        961
  		 Reversed                                                                                              1,732
  		 Dismissed/Withdrawn                                                                                     131
  		 Remanded                                                                                                464

  	   Cases pending as of 9/30/09                                                                         12,577


  Rehearings
  	 Cases pending as of 9/30/09                                                                               32


  Inter partes cases
  	 Cases pending as of 9/30/08                                                                               52
  	 Cases declared or reinstituted during FY 2009                                                             55
  		 Inter partes cases, FY 2009 total                                                                       107

  	   Cases terminated during FY 2009                                                                         63
  	   Cases pending as of 9/30/09                                                                             44




www.uspto.gov	                                                                                                                       125
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                  TA B L E 1 5                            SUMMARY OF TRADEMARK EXAMINING ACTIVITIES
                                                                      (FY 2005 - FY 2009)
            Item                                                                                                 2005                2006                2007                2008               2009

            Applications for Registration:
            	 Applications including Additional Classes                                                         323,501             354,775              394,368             401,392           352,051
            	 Applications Filed                                                                                258,527             275,790              298,796             302,253           266,939

            Disposal of Trademark Applications:
            	 Registrations including Additional Classes                                                        143,396             188,899              194,327             274,250           241,637
            	 Abandonments including Additional Classes                                                         108,879             126,884              129,200             156,093           189,687
            Trademark First Actions including Additional Classes                                                317,757             405,998              455,802             415,896           372,830
            Applications Approved for Publication including Additional Classes                                  211,624             288,042              344,617             345,067           320,246

            Certificates of Registration Issued:1
            	 1946 Act Principal Register                                                                         63,088              95,188              98,564             120,173           102,607
            	 Principal Register
            		 ITU-Statements of Use Registered                                                                  43,930              45,720               44,108              81,387            69,920
            	 1946 Act Supplemental Register                                                                      5,477               6,210                7,392               8,344             7,993
            Total Certificates of Registration                                                                  112,495             147,118              150,064             209,904           180,520

            Renewal of Registration:*
            	 Section 9 Applications Filed                                                                        39,354              36,939              40,786              42,388            43,953
            	 Section 8 Applications Filed**                                                                      39,659              36,952              40,798              42,395            43,868
            	 Registrations Renewed                                                                               32,279              37,305              47,336              42,159            42,282
            Affidavits, Sec. 8/15:
            	 Affidavits Filed                                                                                   47,752              48,444               49,241              68,470            65,322
            	 Affidavits Disposed                                                                                41,466              45,676               55,888              65,222            63,483
            Amendments to Allege Use Filed                                                                        9,497              10,007                9,646               9,140             8,633
            Statements of Use Filed                                                                              54,182              67,543               76,866              96,415            90,493
            Notice of Allowance Issued                                                                          108,268             164,752              172,422             220,333           181,702

            Total Active Certificates of Registration                                                         1,255,570           1,322,155           1,380,150           1,497,131          1,547,168

            Pendency - Average Months:
            	 Between Filing and Examiner’s First Action                                                              6.3                  4.8                 2.9                 3.0               2.7
            	 Between Filing, Registration (Use Applications)
            	 Abandonments and NOAs - including suspended and inter                                                  19.6                18.0                15.1                 13.9              13.5
            		 partes proceedings
            	 Between Filing, Registration (Use Applications)
            		 Abandonments and NOAs - excluding suspended and                                                       17.2                15.5                13.4                 11.8              11.2
            			 inter partes proceedings

            1	    With the exception of Certificates of Registration, Renewal of Registration, Affidavits filed under Section 8/15 and 12(c), the workload count includes extra classes.
            	     “Applications filed” refers simply to the number of individual trademark applications received by the USPTO. There are, however, 47 different classes of items in which a trademark may
                  be registered. An application must request registration in at least one class, but may request registration in multiple classes. Each class application must be individually researched
                  for registerability. “Applications filed, including additional classes” reflects this fact, and therefore more accurately reflects the Trademark business workload. With the exception of
                  Certificates of Registration, Renewal of Registration, Affidavits filed under Section 8/15 and 12(c), the workload count includes extra classes.
            *	    Renewal of registration is required beginning 10 years following registration concurrent with 20 - year renewals coming due.
            **	   Section 8 Affidavit is required for filing a renewal beginning October 30, 1999 (FY 2000) with the implementation of the Trademark Law Treaty.




126	                                                                                                 PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                                       O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                TA B L E 1 6         TRADEMARK APPLICATIONS FILED FOR REGISTRATION
                                      AND RENEWAL AND TRADEMARK AFFIDAVITS FILED
                                                   (FY 1989 - FY 2009)
                   Year                             For Registration                          For Renewal1                         Section 8 Affidavit

                   1989                                   83,169                                    6,127                                  17,986
                   1990                                  127,294                                    6,602                                  20,636
                   1991                                  120,365                                    5,634                                  25,763
                   1992                                  125,237                                    6,355                                  20,982
                   1993                                  139,735                                    7,173                                  21,999
                   1994                                  155,376                                    7,004                                  20,850
                   1995                                  175,307                                    7,346                                  23,497
                   1996                                  200,640                                    7,543                                  22,169
                   1997                                  224,355                                    6,720                                  20,781
                   1998                                  232,384                                    7,413                                  33,231
                   1999                                  295,165                                    7,944                                  33,104
                   2000                                  375,428                                   24,435                                  28,920
                   2001                                  296,388                                   24,174                                  33,547
                   2002                                  258,873                                   34,325                                  39,484
                   2003                                  267,218                                   35,210                                  43,151
                   2004                                  298,489                                   32,352                                  41,157
                   2005                                  323,501                                   39,354                                  47,752
                   2006                                  354,775                                   36,939                                  48,444
                   2007                                  394,368                                   40,786                                  49,241
                   2008                                  401,392                                   42,388                                  68,470
                   2009                                  352,051                                   43,953                                  65,322

  1	   Renewal of registration term changed with implementation of the Trademark Law Reform Act (Pub.L. 100-667) beginning November 16, 1989 (FY1990).




www.uspto.gov	                                                                                                                                                          127
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                  TA B L E 1 7                            SUMMARY OF PENDING TRADEMARK APPLICATIONS
                                                                           (FY 2009)
             Stage of Processing                                                                                    Application Files   Classes

             Pending applications, total                                                                                 411,818        581,177

             In preexamination processing                                                                                 54,944         67,835

             Under examination, total                                                                                    278,542        405,512
             	 Applications under initial examination                                                                     82,827        123,924
             		 Amended, awaiting action by Examiner                                                                      81,145        121,771
             		 Awaiting first action by Examiner                                                                          1,682          2,153
             	 Intent-To-Use applications pending Use                                                                    150,484        212,627
             	 Applications under second examination                                                                      10,024         13,487
             		 Administrative processing of Statements of Use                                                                82             98
             		 Undergoing second examination                                                                              3,016          3,903
             		 Amended, awaiting action by Examiner                                                                       6,926          9,486
             	 Other pending applications1                                                                                35,207         55,474

             In post-examination processing                                                                               78,332        107,830
              (Includes all applications in all phases of publication and issue and registration)

             1	   Includes applications pending before the Trademark Trial and Appeal Board, and suspended cases.




128	                                                                                   PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                                        O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




       TA B L E 1 8                  Trademarks Registered, Renewed, and Published
                                                 Under Section 12(c) 1
                                                   (FY 1989 - FY 2009)
         Year              Certificates of Regis. Issued             Renewed2           Published Under 12(c)                Registrations (Incl. Classes)

         1989                           51,802                           9,209                      84                                          -
         1990                           56,515                           7,122                      19                                          -
         1991                           43,152                           6,416                      19                                          -
         1992                           62,067                           5,733                      13                                          -
         1993                           74,349                           6,182                      21                                    86,122
         1994                           59,797                           6,136                      11                                    68,853
         1995                           65,662                           6,785                        4                                   75,372
         1996                           78,674                           7,346                      11                                    91,339
         1997                           97,294                           7,389                      11                                   112,509
         1998                           89,634                           6,504                        8                                  106,279
         1999                           87,774                           6,280                        3                                  104,324
         2000                          106,383                           8,821                      15                                   127,794
         2001                          102,314                          31,477                      11                                   124,502
         2002                          133,225                          29,957                      26                                   164,457
         2003                          143,424                          34,370                        5                                  185,182
         2004                          120,056                          34,735                        4                                  155,991
         2005                          112,495                          32,279                        3                                  143,396
         2006                          147,118                          37,305                        1                                  188,899
         2007                          150,064                          47,336                      13                                   194,327
         2008                          209,904                          42,159                        3                                  274,250
         2009                          180,520                          42,282                        4                                  241,637

  -	 Represents zero.
  1	   Includes withdrawn numbers.
  2	   Includes Renewal of registration term changed with implemention of the Trademark Law Reform Act (Pub.L. 100-667) beginning November 16, 1989 (FY 1990).




www.uspto.gov	                                                                                                                                                           129
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                 TA B L E 1 9           TRADEMARK APPLICATIONS FILED BY RESIDENTS OF THE UNITED STATES
                                                                   (FY 2009)
            State/Territory                        2009                  State/Territory                 2009     State/Territory         2009

            Total                                274,603                 Kentucky                         1,671   Oklahoma                 1,321
                                                                         Louisiana                        1,491   Oregon                   3,135
            Alabama                                 1,495                Maine                             680    Pennsylvania             7,769
            Alaska                                    238                Maryland                         4,668   Rhode Island             1,020
            Arizona                                 4,941                Massachusetts                    7,213   South Carolina           1,912
            Arkansas                                  986                Michigan                         5,733   South Dakota              408
            California                            58,643                 Minnesota                        5,412   Tennessee                3,878
            Colorado                                5,853                Mississippi                       608    Texas                   15,933
            Connecticut                             3,932                Missouri                         3,638   Utah                     3,071
            Delaware                                2,857                Montana                           614    Vermont                   518
            District of Columbia                    2,250                Nebraska                         1,104   Virginia                 6,530
            Florida                               18,730                 Nevada                           4,745   Washington               5,719
            Georgia                                 7,624                New Hampshire                    1,038   West Virginia             337
            Hawaii                                    932                New Jersey                      10,794   Wisconsin                3,625
            Idaho                                     840                New Mexico                        743    Wyoming                   394
            Illinois                              12,327                 New York                        28,383   Puerto Rico               349
            Indiana                                 2,864                North Carolina                   5,150   Virgin Islands             43
            Iowa                                    1,337                North Dakota                      263    U.S. Pacific Islands1      55
            Kansas                                  1,603                Ohio                             7,119   United States2             67

            1	   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.
            2	   No state indicated in database, includes APO filings.




130	                                                                                       PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                                              O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




       TA B L E 2 0                TRADEMARKS REGISTERED TO RESIDENTS OF THE UNITED STATES 1
                                                          (FY 2009)
  State/Territory                        2009                  State/Territory                  2009               State/Territory                     2009

  Total                                145,872                 Kentucky                            566             Oklahoma                               662
                                                               Louisiana                           522             Oregon                               1,488
  Alabama                                   564                Maine                               334             Pennsylvania                         3,026
  Alaska                                    134                Maryland                          1,782             Rhode Island                           368
  Arizona                                 2,023                Massachusetts                     2,364             South Carolina                         663
  Arkansas                                  274                Michigan                          2,447             South Dakota                           230
  California                            16,326                 Minnesota                         2,543             Tennessee                            1,309
  Colorado                                2,269                Mississippi                         210             Texas                                5,459
  Connecticut                             1,145                Missouri                          1,667             Utah                                 1,263
  Delaware                              28,292                 Montana                             267             Vermont                                216
  District of Columbia                      960                Nebraska                            559             Virginia                             2,193
  Florida                                 6,782                Nevada                            3,370             Washington                           2,620
  Georgia                                 2,703                New Hampshire                       367             West Virginia                          112
  Hawaii                                    329                New Jersey                        3,246             Wisconsin                            1,862
  Idaho                                     315                New Mexico                          308             Wyoming                                246
  Illinois                                4,406                New York                          8,303             Puerto Rico                              96
  Indiana                                 1,553                North Carolina                    1,848             Virgin Islands                           13
  Iowa                                      774                North Dakota                        128             U.S. Pacific Islands2                      8
  Kansas                                    664                Ohio                              3,219             United States3                      20,475

  1	   When a trademark is registered, the trademark database is corrected to indicate the home state of the entity registering the trademark.
  2	   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.				
  3	   No state indicated in database, includes APO filings.




www.uspto.gov	                                                                                                                                                                 131
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                TA B L E 2 1                   TRADEMARK APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES
                                                                    (FY 2005 - FY 2009)
            Residence                   2005       2006     2007     2008     2009     Residence                 2005     2006     2007     2008     2009

            Total                        60,995    71,551   84,072   86,882   77,448     Dominica                     3        6        2        9        -
                                                                                         Dominican Republic          47       64       70       77       50
            Afghanistan                       -         3        2        2        9     Ecuador                     18       15       28       24       32
            Albania                           1        19        1        3        -     Egypt                       17        8       11       11       14
            Algeria                           -         -        1        -        -     El Salvador                 50       31       69       56       34
            Andorra                           3         7        2        1        8     Estonia                     16       24       26       35       48
            Angola                            2         -        -        -        -     Ethiopia                     4        -        -        2        1
            Anguilla                          4         8        4        7       23     Faroe Islands                -        -        -       12        1
            Antarctica                        -         -        -        1        -     Fiji                        12        1        3        1        -
            Antigua & Barbuda                26        97        2       20        4     Finland                    374      476      548      526      547
            Argentina                       225       228      253      266      223     France                   4,555    4,843    5,460    6,254    5,620
            Armenia                           2        22        5        4       10     French Polynesia            16        9        9        3        2
            Aruba                            24         -       18        1        3     Georgia                      6        4        2        3       11
            Australia                     2,204     2,593    3,685    3,164    3,025     Germany                  8,146    9,896   11,455   12,686   11,345
            Austria                         696     1,125    1,187    1,344    1,181     Ghana                        -        -        -        2        1
            Azerbaijan                        -         -        2        3        -     Gibraltar                   65       50       59       32       52
            Bahamas                         207       192      218      152      121     Greece                      64      120      126      244      137
            Bahrain                           3         7       17       11       19     Greenland                    -        5        -        -        -
            Bangladesh                        -         -       10        3        4   Grenada                        1        1        1        -        -
            Barbados                        213       177      322      310      164   Guadeloupe                     3        -        2        -        -
            Belarus                          18         3       16       20       10   Guatemala                     42       31       56       39       29
            Belgium                         581       606      804      869      997   Guinea                         -        -        -        1        -
            Belize                           12        52       30       19       20   Guyana                         6        5        2        7        1
            Benin                             2         -        -        -        -   Haiti                          4        3        2        1        -
            Bermuda                         251       234      353      296      178   Honduras                       4       19        5        9       17
            Bhutan                            -         -        1        -        -   Hong Kong                  1,130    1,113    1,305    1,211    1,162
            Bolivia                           4         -        3        5        8   Hungary                       88      115      135       77      155
            Bosnia & Herzegovinia             -         -        2        -        1   Iceland                       42       74      140      240       87
            Botswana                          -         -        -        -        3   India                        275      346      412      697      461
            Brazil                          495       445      525      517      477   Indonesia                     55       32       35       62       64
            British Virgin Islands          389       665      625      623      498   Iran                          12       13        9       39       27
            Brunei                            1         2        3        3        8   Iraq                           -        -        -        -        4
            Bulgaria                         84        81      145      101       95   Ireland                      392      488      634      724      441
            Cambodia                          -         1        -        -        2   Isle of Man                   56       59       82      101       36
            Cameroon                          -         8        -        -        -   Israel                       534      614      761      764      679
            Canada                        7,730     8,337    9,127    9,614    8,354   Italy                      2,894    4,057    4,912    4,395    4,203
            Cape Verde                        -         1        1        -        -   Jamaica                       55       55       32       49       53
            Cayman Islands                  188       134      296      360      390   Japan                      4,824    4,705    5,258    4,764    4,832
            Channel Islands                  73        67      104       68       37   Jordan                         7       14       15       23       21
            Chile                           217       161      201      206      185   Kazakhstan                     -        -        5        7        -
            China (mainland)              1,246     1,784    2,364    2,262    2,096   Kenya                          9       13        1        3        2
            Colombia                        156       185      249      187      183   Korea, Dem. Republic of        1        3        2        -        1
            Cook Islands                      2         6        -        -        5   Korea, Republic of           614    1,207    1,599    1,566    1,554
            Costa Rica                       58        73       68      100       66   Kuwait                         2       12       37       37       16
            Croatia                          47        34       12       22       42   Kyrgyzstan                     2        -        -        -        -
            Cuba                             26        11        3       13        6   Latvia                        29       29       29       20       30
            Cyprus                           73       115       88      101      115   Lebanon                       22       14        7       22       24
            Czechoslovakia                   93       164      212      256      266   Liberia                        -        -        -        2        -
            Denmark                         637       886      922    1,197      997   Liechtenstein                165      180      202      247      240




132	                                                                           PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                                                O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




       TA B L E 2 1                      TRADEMARK APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES
        C O N T.                                              (FY 2005 - FY 2009)
  Residence                       2005       2006       2007       2008       2009        Residence                      2005        2006      2007      2008     2009
  Lithuania                             9         21          6         25        17      Saint Christ-Nevis                  12         10         26       31       16
  Luxembourg                          294        403        403        550       499      Saint Lucia                          8          4          5       17       12
  Macao                                 1          4          2         20        12      Saint Vincent/Grenadines             3          2          -        -        6
  Macau                                 -          -          1          -         -      Samoa                                2         11          6       11        5
  Macedonia                             -          2          8          7         -      San Marino                           2          4          4        3       17
  Madagascar                            -          1          -          -         7      Saudi Arabia                        27         50         71       61       49
  Malaysia                             97         81         93        119       126      Scotland                            66        105         93       73       18
  Malta                                 8         50         24         48        81      Senegal, Republic of                 -          2          -        1        -
  Marshall Islands                      2          4          -          5         4      Serbia/Montenegro                    3          -         42       11       14
  Martinique                            -          -          1          -         -      Seychelles                           5         23         24       27       26
  Mauritania                            2          -          -          -         1      Sierra Leone                         1          -          -        -        -
  Mauritius                            27         61         63         32        28      Singapore                          311        355        503      479      526
  Mexico                            1,403      1,487      1,592      1,484     1,393      Slovakia                            24         31         67       82       46
  Micronesia                            2          2          1          7         2      Slovenia                            53         67        171      105      152
  Monaco                               81        147        158        113        81      South Africa                       208        285        241      218      183
  Mongolia                              -          -          1          4         7      Russian Federation                 276        380        441      733      676
  Morocco                              18         33         26         60        35      Spain                            1,136      1,735      1,742    1,864    1,798
  Mozambique                            1          -          4          -         -      Sri Lanka                           12         21         16       33       15
  N. Mariana Island                     2          7          -          -         5      Swaziland                            2          -          -        -        -
  Namibia                               -          -          -          3         2      Sweden                           1,123      1,127      1,521    1,482    1,222
  Nepal                                 -          -          -          1         2      Switzerland                      3,346      3,687      4,692    4,772    3,883
  Netherlands                       1,725      2,133      2,367      2,618     2,220      Syria                                3          3          1        6        7
  Netherlands Antilles                 41         56        130         76        68      Taiwan                           1,196      1,427      1,257    1,283    1,221
  New Zealand                         510        513        648        534       486      Tanzania                             -          -          -        2        -
  Nicaragua                             9          2          4          7         5      Thailand                           114         80        155      206      146
  Nigeria                               1          5         12          1        25      Togo                                 -          1          -        5        -
  Niue                                  2          -          -          -         -      Trinidad & Tobago                    7         11         37        1       23
  Norway                              331        354        616        630       835      Tunisia                              5          3          6        2        7
  Oman                                  5          2          1          2        11      Turkey                             349        461        632      602      511
  Pakistan                             12         20         25         27        19      Turks and Caicos Islands             -         24          4       13       10
  Palau                                 -          -          -          -         1      Uganda                               -          -          -        3        1
  Panama                              125        131         88        149       114      Ukraine                             59         61         81       90       63
  Papua New Guinea                      1          -          -          3         1      United Arab Emirates                48        150        171      307      212
  Paraguay                             11         18          7         11         7      United Kingdom                   6,273      7,557      9,431    9,463    7,624
  Peru                                 50         40         46        101        49      Uruguay                             47         37         57       35       35
  Philippines                          56         86         55         62        66      Uzbekistan                           -          -          -        1        3
  Poland                              148        189        196        273       300      Vanuatu                              7          9         30        -        -
  Portugal                            198        309        268        372       318      Venezuela                           53         61         77      120       35
  Qatar                                 6         10         34         16        10      Vietnam                             39         41         40       61      101
  Republic Moldova                     22         16         18          6         9      Yemen                                3          6          3        4        -
  Romania                              48         24         53         73        37      Yugoslavia                           9         36          8        4        -
  Rwanda                                -          -          -          -         1      Zimbabwe                             -          -          -        1        1
  St. Kitts & Nevis                     -          3          -          -         -      Other1                             261        183         35       16       33
  - 	 Represents zero.
  1	   Country of Origin information not available or not indicated in database, includes African Regional Industrial Property Organization filings.




www.uspto.gov	                                                                                                                                                                   133
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                TA B L E 2 2                        TRADEMARKS REGISTERED TO RESIDENTS OF FOREIGN COUNTRIES
                                                                      (FY 2005 - FY 2009)
             Residence                   2005       2006       2007       2008       2009       Residence                 2005     2006     2007     2008     2009
             Total                       19,968     27,592     27,798     38,800     34,648     Cyprus                       11       21       19       41       37
                                                                                                Czechoslovakia               13       26       37       79       69
             Afghanistan                        2          3          3          5          2   Denmark                      193      326      349      424     424
             Albania                          1          2          7          6          6     Djibouti                       -        -        -        1       -
             Algeria                          -          1          4          3          3     Dominica                       1        -        4        2       1
             Andorra                          -          6          2          2          1     Dominican Republic            27       18       29       32      25
             Angola, Republic of              -          1          -          1          2     East Timor                     -        -        2        -       -
             Anguilla                         5          5          2          8          5     Ecuador                       10       18       17       17      17
             Antarctica                       -          1          1          -          -     Egypt                          3       10        8        5       6
             Antigua & Barbuda                4         16         20         18         13     El Salvador                   20       26       22       64      38
             Argentina                       92        123        130        182        131     Eritrea                        -        -        1        -       -
             Armenia                          1          7          7         19          6     Estonia                        4        5       12        9      13
             Aruba                            -          1          2         18          5     Ethiopia                       -        1        1        3       1
             Australia                      709      1,030      1,076      1,609      1,383     Faroe Islands                  -        -        -        -       1
             Austria                        178        267        273        397        367     Fiji                           2        2        3        1       2
             Bahamas                         39         32         52         61         56     Finland                      130      173      203      218     221
             Bahrain                          4          2          1          -          2     France                     1,360    2,055    2,046    2,638   2,278
             Bangladesh                       1          3          3          4          1     French Guiana                  -        -        1        1       -
             Barbados                        78         94         84        115         92     French Polynesia               -       20        7       10       2
             Belarus                          2          2          6         10         10     Georgia                        -        1        1        -       -
             Belgium                        152        243        283        399        337     Germany                    2,583    3,866    3,708    4,674   4,409
             Belize                           3          7         11         14          5     Ghana                          -        1        1        5       2
             Benelux Convention               6          7          5          9         13     Gibraltar                      2       15       11       32      30
             Bermuda                        148        130        129        164        197     Greece                        18       27       40       68      53
             Benin                            -          -          -          2          1     Greenland                      -        -        1        -       -
             Bhutan                           -          -          -          1          -     Grenada                        -        -        1        -       -
             Bolivia                          1          4          4          4          5     Guatemala                      5       15       30        -       -
             Bosnia & Herzegovina             -          -          -          1          1     Guyana                         1        4        2        4       5
             Brazil                         152        195        164        235        227     Haiti                          -        8        1        6       2
             British Virgin Islands         182        211        242        381        323     Honduras                       1        2        2       12       8
             Brunei Darussalam                -          -          1          8          -     Hong Kong                    290      373      424      633     521
             Bulgaria                         7         30         46         47         26     Hungary                       27       38       39       45      36
             Burundi                          1          -          -          1          -     Iceland                       11       15       32       62      66
             Cambodia                         -          -          1          1          -     India                        104      126      129      186     213
             Cameroon                         1          1          1          -          2     Indonesia                     17       22       23       36      29
             Canada                       2,917      3,562      3,168      4,396      4,084     Iran                           5        5       12       16      13
             Cape Verde                       -          -          1          -          3     Ireland                      117      175      165      264     260
             Cayman Islands                  53         86        129        146        170     Isle of Man                    5       11       12       10       7
             Channel Islands                 14         22         25          5          2     Israel                       218      233      240      392     319
             Chile                           92        109         86        145         84     Italy                        899    1,542    1,693    2,281   1,819
             China (mainland)               364        697      1,020      1,601      1,459     Jamaica                       23       28       26       41      23
             Colombia                        85         91         79        114        115     Japan                      1,821    2,197    2,216    2,941   2,453
             Congo                            2          -          1          -          -     Jordan                        11        1        3        4      13
             Cook Islands                     1          -          1          3          1     Kazakhstan                     -        2        -        1       1
             Costa Rica                      17         18         16         24         27     Kenya                          4        3        2        2       4
             Cote D'Ivoire                    1          1          -          -          1     Korea, Dem. Republic of        2        2        4        1       7
             Croatia                          4          9          8         22          8     Korea, Republic of           395      409      496      849     760
             Cuba                             -         10          3         16          6     Kuwait                         1        -        1        3       6



134	                                                                                  PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                                 O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




       TA B L E 2 2                          TRADEMARKS REGISTERED TO RESIDENTS OF FOREIGN COUNTRIES
        C O N T.                                               (FY 2005 - FY 2009)

  Residence                       2005       2006     2007    2008     2009    Residence                  2005       2006     2007       2008      2009
  Latvia                               2          6      10       17       6   Saint Lucia                     1          2         2         4         8
  Lebanon                              6          6       7        7       6   Saint Vincent/Grenadines        4          4         -         1         2
  Liberia                              5          2       4        8      22   San Marino                      4          1         3         4         2
  Liechtenstein                       44         62      49       85      75   Saudi Arabia                   12         11        10        19        13
  Lithuania                            3          -       7        7       8   Scotland                       12         10         8        30        50
  Luxembourg                          71        103     131      168     184   Senegal                         -          -         1         -         -
  Macao                                -          3       1        -       -   Serbia/Montenegro               -          3         2         -         -
  Macau                                3          -       -        -       2   Seychelles                      9          1         5        11         8
  Macedonia                            -          -       1        6       1   Sierra Leone                    -          1         -         -         -
  Malaysia                            27         37      52       58      57   Singapore                     100        110       134       199       174
  Mali                                 -          -       1        -       -   Slovakia                        2         11        12         9        26
  Malta                                5          6       3       12       5   Slovenia                        3         10        14        27        33
  Marshall Islands                     1          1       2        3       3   South Africa                    -          -         -       125       104
  Mauritius                           16         10      13       33      25   Russian Federation             37        132       118       168       162
  Mexico                             433        544     589      952     830   Spain                         432        687       709     1,000       821
  Micronesia                           -          -       1        4       1   Sri Lanka                       5         10        13         7        21
  Monaco                              19         22      25       32      24   Sudan                           -          -         1         -         -
  Mongolia                             1          -       -        1       1   Swaziland                       1          1         5         1         4
  Morocco                              2          2       1        3       7   Sweden                        381        486       441       644       603
  Mozambique                           -          -       1        2       -   Switzerland                   932      1,427     1,345     1,953     1,672
  Namibia                              -          -       1        -       -   Syria                           3          1         3         2         2
  Nauru                                -          1       -        2       -   Taiwan                        683        768       820     1,096       845
  N. Mariana Island                    4          4       7        2       -   Tajikistan                      -          -         -         1         -
  Netherlands                        610        879     788    1,001     931   Thailand                       52         65        57        82        71
  Netherlands Antilles                17         30      33       47      32   Togo                            -          -         -         -         1
  Nepal                                1          -       -        -       1   Trinidad & Tobago               8         10         8        13         7
  New Zealand                        136        228     194      333     265   Tunisia                         -          -         -         3         3
  Nicaragua                            2          4       2        7       5   Turkey                         57        127       169       206       169
  Nigeria                              2          5       4       16      10   Turks and Caicos Islands        -          1         1         5         2
  Niue                                 -          1       -        -       -   Uganda                          1          -         -         1         3
  Norway                              71         90     142      192     175   Ukraine                         3         22        19        33        18
  Oman                                 2          -       1        -       -   United Arab Emirates           12         14        21        27        36
  Pakistan                             7          5       7       19      11   United Kingdom              1,777      2,384     2,246     3,136     3,098
  Panama                              42         45      63       98      58   Uruguay                        23         20        17        21        20
  Papua New Guinea                     -          -       -        1       1   Uzbekistan                      1          -         1         -         2
  Paraguay                             3          5       -        6       4   Vanuatu                         1          3         1         4         1
  Peru                                16         13      26       49      57   Vatican City                    -          -         -         1         -
  Philippines                         16         34      27       42      50   Venezuela                      28         34        26        49        45
  Poland                              36         62      60      104     103   Vietnam                        35         50        32        42        34
  Portugal                            48         70      89      147     136   Western Samoa/Samoa             1          1         4         -         -
  Qatar                                -          1       1        9       6   Yemen                           -          -         -         2         1
  Republic Moldova                     3         11       4        8       3   Yugoslavia                      -          -         -         2         3
  Romania                              8         18      13       23      20   Zimbabwe                        -          -         -         2         2
  Saint Christ & Nevis                18         10      10       16      26   Other1                         15         11         3        40        55
  St. Kitts & Nevis                    -          3       4        -       -

  - 	 Represents zero.
  1	   Country of origin information not available.



www.uspto.gov	                                                                                                                                                    135
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                 TA B L E 2 3                            SUMMARY OF CONTESTED TRADEMARK CASES
                                                          (Within the USPTO, as of September 30, 2009)
            Activity                                         Ex Parte   Cancellations   Use   Interference   Opposition   Total

            Cases pending as of 9/30/08, total                2,176         1,731        92        -            7,730     11,729

            Cases filed during FY 2009                        3,321         1,392        42        -            5,307     10,062

            Disposals during FY 2009, total                   3,964         1,605        56        -            6,912     12,537
            	 Before hearing                                  3,454         1,573        56        -            6,748     11,831
            	 After hearing                                     510            32         -        -              164        706

            Cases pending as of 9/30/09, total                1,533         1,518        78        -            6,125      9,254
            	 Awaiting decision                                  41             2                  -               24         67
            	 In process before hearing1                      1,492         1,516        78        -            6,101      9,187

            Requests for extension of time                        -             -         -        -                -     17,305
            	 to oppose FY 2009

            -	 Represents zero.
            1	   Includes suspended cases.




136	                                                                    PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                                                              O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                                         Actions on Petitions to the director of the
     TA B L E 2 4
                                              U.s. Patent and Trademark office
                                                       (FY 2005 - FY 2009)
  Nature of Petition                                                                    2005              2006              2007              2008             2009
  Patent matters
  	 Actions on patent petitions, total                                                 44,361           41,271            51,420            51,774            51,482
  	 Acceptance of:
  		 Late assignments                                                                     432              477               619              621                628
  		 Late issue fees                                                                      938            1,195             1,787            1,819              1,792
  		 Late priority papers                                                                  27               16                 7               10                 13
  	 Access                                                                                 10                5                12               12                 42
  	 Certificates of correction                                                         27,763           23,129            28,715           26,878             25,527
  	 Deferment of issue                                                                     21               13                20               21                 20
  	 Entity Status Change                                                                1,289              963             1,389            1,263              1,246
  	 Filing date                                                                         1,815            1,129             1,090              975                723
  	 Maintenance fees                                                                    2,208            2,038             2,355            2,774              1,949
  	 Revivals                                                                            5,190            6,075             8,279           10,339             11,478
  	 Rule 47 (37 CFR 1.47)                                                               2,055            1,492             1,864            1,837              2,583
  	 Supervisory authority                                                                 131              163               137              183                347
  	 Suspend rules                                                                         290              272               214              228                301
  	 Withdrawal from issue                                                               1,950            1,996             1,476            1,642              1,423
  	 Withdrawals of holding of aband./pat. lapse                                           242            2,308             3,456            3,172              3,410
  Late Claim for Priority                                                                 843               788               981             986              1,121
  Withdraw as Attorney                                                                      -             3,030             5,246           6,164              6,133
  Matters Not Provided For (37 CFR 1.182)                                               1,270               961               994           1,009              1,334
  To Make Special                                                                           -             2,018             3,913           4,653              4,797
  Patent Term Adjustment/Extension                                                        684               687               608             476              1,613
  Trademark matters
  	 Actions on trademark petitions, total                                              22,377           17,590            21,755           29,703             24,747
  		 Filing date restorations1                                                            211               65                72               28                 20
  		 Inadvertently issued registrations                                                   181              217               173              178                134
  		 Letters of Protest                                                                   811              722               735              876              1,011
        Madrid Petitions                                                                    -               13                19               13                 21
  		 Make special                                                                         208              185               205              121                 94
  		 Reinstatements2                                                                    1,964              552               575            1,249                851
  		 Revive (reviewed on paper)                                                        18,134            4,379             4,275             6,524             2,526
        Revive (granted electronically)3                                                    -           10,689            14,850            19,654            18,967
  		 Waive fees/refunds                                                                    24                7                11                30                18
  		 Miscellaneous Petitions to the Director4                                             731              580               749               940             1,008
  		 Board Matters5                                                                        10               16                13                 9                11
  		 Post Registration Matters6                                                           103              165                78                81                86
  Petitions awaiting action as of 9/30
  	 Trademark petitions awaiting response                                                 222               275               166                56                72
  	 Trademark petitions awaiting action                                                   379               177               117                95                 3
  	 Trademark pending filing date issues                                                    7                22                 2                 -                 -
  -	 Represents zero.
  1	 Trademark Applications entitled to a particular filing date; based on clear evidence of Trademark organization error.
  2	 Trademark Applications restored to pendency; inadvertently abandoned by the Trademark organization.
  3 	 The petition to revive numbers were not separated into two categories (paper versus electronic) in previous years.
  4	 Not reported in previous years as a consolidation line item. Represents a consolidation of Affidavits of Use and Extensions, Decision by examiner, Grant application
      filing date, Interferences, Record documents affecting title, Restore jurisdiction to examiner, Section 44(e) Amendment and Review Letter of Protest Decision.
  5	 Not reported in previous years as a consolidation line item. Represents a consolidation of review board decisions and oppositions and extensions.
  6	 Not reported in previous years as a consolidation line item. Represents a consolidation of Section 7 correction/amendment, Section 9 renewal and Section 8 or 15.




www.uspto.gov	                                                                                                                                                                 137
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                  TA B L E 2 5                                       CASES IN LITIGATION
                                                         (Selected Courts of the United States, FY 2009)
                                                                                    Patents   Trademarks     OED         Total

             United States District Courts
             	 Civil actions pending as of 9/30/08, total                              14           1          1           16
             	 Filed during FY 2009                                                    94           1          3           98
             	 Disposals, total                                                        16           1          1           18
             		 Affirmed                                                                4           -          -            4
             		 Reversed                                                                -           -          -            -
             		 Remanded                                                                1           -          -            1
             		 Dismissed                                                              11           1          1           13
             		 Amicus/intervene                                                        -           -          -            -
             		 Transfer                                                                -           -          -            -
             Civil actions pending as of 9/30/09, total                                92           1          3           96

             United States Courts of Appeals1
             	 Ex parte cases
             		 Cases pending as of 9/30/08                                            36           4          -           40
             		 Cases filed during FY 2009                                             55          15          4           74
             		 Disposals, total                                                       61          12          2           75
             			 Affirmed                                                              26           4          1           31
             			 Reversed                                                               1           -          -            1
             			 Remanded                                                              12           2          -           14
             			 Dismissed                                                             20           6          1           27
             			 Vacated                                                                4           -          -            4
             			 Transfer                                                               2           -          -            2
             			 Writs of mandamus:
             				 Granted                                                                -           -         -             -
             				 Granted-in-part                                                        -           -         -             -
             				 Denied                                                                 -           -         -             -
             				 Dismissed                                                              -           -         -             -
             	 Total ex parte cases pending as of 9/30/09                              30           7          2           39
             	 Inter partes cases
             		 Cases pending as of 9/30/08                                             6          18          -           24
             		 Cases filed during FY 2009                                              8          29          -           37
             		 Disposals, total                                                        6          35          -           41
             			 Affirmed                                                               3           5          -            8
             			 Reversed                                                               1           -          -            1
             			 Remanded                                                               -           2          -            2
             			 Dismissed                                                              3          27          -           30
             			 Transferred                                                            -           1          -            1
             	     Total inter partes cases pending as of 9/30/09                       8          12          -           20
             Total United States Courts of Appeals cases pending as of 9/30/09         38          19          -           59

             Supreme Court
             	 Ex parte cases
             		 Cases pending as of 9/30/08                                             2           -          -            2
             		 Cases filed during FY 2009                                              3           1          -            4
             		 Disposals, total                                                        3           -          -            3
             	     Cases pending as of 9/30/09, total                                   2           1          -            3
             Notices of Suit filed in FY 2009                                        6,111       6,710         -        12,821
             -	 Represents zero.
             1	   Includes Federal Circuit and others.



138	                                                                       PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                           O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




     TA B L E 2 6                                PATENT CLASSIFICATION ACTIVITY
                                                        (FY 2005 - FY 2009)
  Activity                                                            2005      2006     2007            2008              2009

  Original patents professionally reclassified - completed projects   12,170    6,264    14,875         13,727              9,955

  Subclasses established                                                496      498      1,466           1,037              631

  Reclassified patents clerically processed, total                    50,932   33,376   192,898        111,507           60,778
  	 Original U.S. patents                                             16,572    9,740     4,991         25,903           18,765
  	 Cross-reference U.S. patents                                      34,360   23,636   187,907         85,604           42,013




     TA B L E 2 7           SCIENTIFIC AND TECHNICAL INFORMATION CENTER ACTIVITY
                                                   (FY 2009)
  Activity                                                                                                      Quantity

  Prior Art Search Services Provided:
  	 Automated Prior Art Searches Completed                                                                         35,745
  	 Genetic Sequence Searches Completed                                                                             8,553
  	 Number of Genetic Sequences Searched                                                                           27,544
  	 CRF Submissions Processed                                                                                      20,515
  	 PLUS Searches Completed                                                                                        69,928
  	 Foreign Patent Searches Completed                                                                               6,553

  Document Delivery Services Provided:
  	 Document Delivery/Interlibrary Loan Requests Processed                                                         29,270
  	 Copies of Foreign Patents Provided                                                                             10,492

  Information Assistance and Automation Services:
  	 One-on-One Examiner Information Assistance                                                                     18,093
  	 One-on-One Examiner Automation Assistance                                                                      22,347
  	 Patents Employee Attendance at Automation Classes                                                              27,687
  	 Foreign Patents Assistance for Examiners and Public                                                             2,249
  	 Examiner Briefings on STIC Information Sources and Services                                                    12,735

  Translation Services Provided for Examiners:
  	 Written Translations of Documents                                                                              6,211
  	 Number of Words Translated (Written)                                                                      21,766,778
  	 Documents Orally Translated                                                                                    2,372

  Total Number of Examiner Service Contacts                                                                       300,294

  Collection Usage and Growth:
  	 Print/Electronic (NPL) Collection Usage                                                                     1,636,852
  	 Print Books/Subscriptions Purchased                                                                            65,778
  	 Full Text Electronic Journal Titles Available                                                                  21,762
  	 Full Text Electronic Book Titles Available                                                                     41,418
  	 NPL Databases Available for Searching (est.)                                                                    1,573




www.uspto.gov	                                                                                                                              139
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




                  TA B L E 2 8                           END OF YEAR PERSONNEL 1
                                                             (FY 2005 - FY 2009)
             Activity                                                 2005      2006      2007       2008      2009

             Business
             	 Patent Business Line                                   6,494     7,283      7,959     8,582     8,786
             	 Trademark Business Line                                  869       906        954       936       930
             		 Total USPTO                                           7,363     8,189      8,913     9,518     9,716

             Examination Staff
             	 Patent Examiners
             		 UPR Examiners                                         4,177     4,779      5,376     5,955     6,143
             		 Design Examiners                                         81       104        101       100        99
             			 Total UPR and Design Examiners                       4,258     4,883      5,477     6,055     6,242
             	 Trademark Examining Attorneys                            357       413        404       398       388

             1	   Number of positions.




140	                                                            PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                                                           O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




       TA B L E 2 9 A                 Top 50 Trademark         TA B L E 2 9 B              Top 50 Trademark
                                         Applicants                                          Registrants
                                           (FY 2009)                                            (FY 2009)
  Name of Applicant                               Classes1   Name of Applicant                                  Registrations
  MATTEL, INC.                                      671      MATTEL, INC.                                             340
  Disney Enterprises, Inc.                          541      Disney Enterprises, Inc.                                 258
  JOHNSON & JOHNSON                                 541      The Procter & Gamble Company                             174
  NOVARTIS AG                                       324      Deutsche Telekom                                         159
  Bristol-Myers Squibb Company                      311      Deutsche Telekom AG                                      120
  LG Electronics Inc.                               271      Novartis AG                                               90
  IGT                                               264      IGT                                                       85
  FPL Group, Inc.                                   253      Philip Morris USA Inc.                                    84
  Lidl Stiftung & Co. KG                            237      THE CARTOON NETWORK, INC.                                 81
  Harvey Ball Smile Limited                         231      Manheim Auctions, Inc.                                    80
  Glaxo Group Limited                               222      Johnson & Johnson                                         79
  DSM IP Assets B.V.                                202      Microsoft Corporation                                     74
  Sears Brands, LLC                                 202      L'Oreal                                                   70
  THE CARTOON NETWORK, INC.                         188      AMERICAN INTERNATIONAL GROUP, INC.                        69
  Bath & Body Works Brand Management, Inc.          186      Illinois Tool Works Inc.                                  69
  Twentieth Century Fox Film Corporation            182      Lidl Stiftung & Co. KG                                    68
  The Procter & Gamble Company                      170      philosophy, inc.                                          68
  LF, LLC                                           168      Kohler Co.                                                66
  T-Mobile USA, Inc.                                163      Boehringer Ingelheim International GmbH                   65
  HASBRO, INC.                                      156      WMS GAMING INC.                                           65
  Samsung Electronics Co., Ltd.                     156      Moshe INC                                                 63
  S. C. Johnson & Son, Inc.                         154      Samsung Electronics Co., Ltd.                             63
  sanofi-aventis                                    153      Twentieth Century Fox Film Corporation                    63
  Home Box Office, Inc.                             152      JOHNSON & JOHNSON                                         62
  Humana Inc.                                       151      Bath & Body Works Brand Management, Inc.                  61
  Warner Bros. Entertainment Inc.                   149      Mars, Incorporated                                        61
  PEPSICO, INC.                                     148      HASBRO, INC.                                              60
  L'Oreal USA Creative, Inc.                        143      Abercrombie & Fitch Trading Co.                           59
  American Specialty Health Incorporated            134      Columbia Insurance Company                                59
  Wal-Mart Stores, Inc.                             133      Hershey Chocolate & Confectionery Corpor                  59
  Victoria's Secret Stores Brand Managemen          129      Marriott International, Inc.                              59
  United Football League, LLC                       126      Televisa, S.A. de C.V.                                    59
  Nintendo Co., Ltd.                                125      Aristocrat Technologies Australia Pty Lt                  57
  Ferguson Enterprises, Inc.                        124      Conair Corporation                                        57
  Reckitt Benckiser Inc.                            118      MeadWestvaco Corporation                                  56
  Abbott Laboratories                               117      VIACOM INTERNATIONAL INC.                                 56
  Aldi Inc.                                         116      Tyler Candle Company, L.L.C.                              55
  Fédération Internationale de Football As          115      World Wrestling Entertainment, Inc.                       54
  Bayer Aktiengesellschaft                          114      Wal-Mart Stores, Inc.                                     50
  Church & Dwight Co., Inc.                         111      American Specialty Health Incorporated                    49
  Target Brands, Inc.                               110      Bank of America Corporation                               49
  Tyler Candle Company, L.L.C.                      110      Societe des Produits Nestle S.A.                          49
  Aristocrat Technologies Australia Pty Lt          106      Tupperware Products S.A.                                  49
  Ford Motor Company                                106      Glaxo Group Limited                                       48
  Jakks Pacific, Inc.                               106      L'Oreal USA Creative, Inc.                                48
  Sony Corporation                                  106      Ford Motor Company                                        47
  Bally Gaming, Inc.                                105      Unilever Supply Chain, Inc.                               47
  Koninklijke Philips Electronics N.V.              105      Cargill, Incorporated                                     46
  Koshigi AG                                        105      HEB GROCERY COMPANY, LP                                   46
  Martha Stewart Living Omnimedia, Inc.             104      Konami Gaming, Inc.                                       45
  1	   Applications with Additional Classes.



www.uspto.gov	                                                                                                                              141
O T H E R A C C O M P A N Y I N G I N F O R M AT I O N




142	                                                     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
Glossary of
Acronyms and
Abbreviation List

                   transparency




                                  innovation
     performance

                                        results




                   leadership
GOAL 2          Glossary of Acronyms
                and Abbreviation List
                AAO	     Agency Administrative Order

                ABC	     Activity Based Cost

                AIPA	    American Inventors Protection Act

                AIS	     Automated Information System

                APEC	    Asian-Pacific Economic Cooperation

                ASEAN	   Association of South East Asian Nations

                BPAI	    Board of Patent Appeals and Interferences

                C&A	     Certification and Accreditation

                CIPO	    Canadian Intellectual Property Office

                CAO	     Chief Administrative Officer

                COOP	    Continuity of Operations Plan

                CPIC	    Capital Planning and Investment Control

                CS	      Commercial Service

                CSAM	    Cyber Security Assessment and Management

                CSRS	    Civil Service Retirement System

                CSSC	    Competitive Sourcing Steering Committee

                DEA	     Delegated Examining Authority

                DKPTO	   Danish Patent and Trademark Office

                DOC	     Department of Commerce

                DOL	     Department of Labor

                DOO	     Departmental Organization Order




         144	              PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                            G lossary of A cronyms and A bbre v iation L ist




                 EAMS	     Enterprise Asset Management System

                 EEO	      Equal Employment Opportunity

                 EEOC	     Equal Employment Opportunity Commission

                 EFS	      Electronic Filing System

                 EFT	      Electronic Funds Transfer

                 ENS	      Emergency Notification System

                 EPO	      European Patent Office

                 eRF	      eRed Folder

                 ESU	      Examination Support Unit

                 EVM	      Earned Value Management

                 FAIR	     Federal Activities Inventory Reform

                 FASAB	    Federal Accounting Standards Advisory Board

                 FAST	     First Action System for Trademarks

                 FCIP	     Federal Career Intern Program

                 FECA	     Federal Employees’ Compensation Act

                 FEGLI	    Federal Employees Group Life Insurance

                 FEHB	     Federal Employees Health Benefit Program

                 FEIR	     Foreign Examiner in Residence

                 FERS	     Federal Employees Retirement System

                 FFMIA	    Federal Financial Management Improvement Act

                 FICA	     Federal Insurance Contributions Act

                 FHCS	     Federal Human Capital Survey

                 FIRST	    For Inspiration and Recognition of Science and Technology

                 FISMA 	   Federal Information Security Management Act

                 FMFIA	    Federal Managers’ Financial Integrity Act

                 FMS	      Financial Management Services

                 FTA	      Free Trade Agreement

                 FY	       Fiscal Year




www.uspto.gov	                                                                                          145
G lossary of A cronyms and A bbre v iation L ist




                                  G8	      Group of Eight Countries

                                  GAAP	    Generally Accepted Accounting Principles

                                  GAO	     Government Accountability Office

                                  GDP	     Gross Domestic Product

                                  GIPA	    Global Intellectual Property Academy

                                  GPRA 	   Government Performance and Results Act

                                  GSA 	    U.S. General Services Administration

                                  HCSP	    Human Capital Strategic Plan

                                  HR 	     Human Resources

                                  IACB	    Indian Arts Crafts Board (Interior)

                                  IDP	     Individual Development Plan

                                  IEIR	    International Examiners In Residence

                                  IG	      Inspector General

                                  IIPI	    International Intellectual Property Institute

                                  INTA 	   International Trademark Association

                                  IP	      Intellectual Property

                                  IPAU	    IP Australia

                                  IPIA	    Improper Payments Information Act

                                  IPR 	     Intellectual Property Rights

                                  ISO	     International Organization for Standardization

                                  IT 	      Information Technology

                                  ITA 	    Internal Trade Administration

                                  ITU	     Intent-To-Use/Division Unit

                                  JPO 	    Japanese Patent Office

                                  KIPO	    Korean Intellectual Property Office

                                  MBDA	    Minority Business Development Agency

                                  MTS	     Metric Tracking System

                                  NAMM	    International Music Products Association




146	                                                       PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                                                               G lossary of A cronyms and A bbre v iation L ist




                 NIST	     National Institute of Standards and Technology

                 OBRA	     Omnibus Budget Reconciliation Act

                 OCAO	     Office of the Chief Administration Officer

                 OCFO 	    Office of Chief Financial Officer

                 OCIO	     Office of Chief Information Officer

                 OCR	      Office of Civil Rights

                 OCS 	     Office of Corporate Services

                 OGA 	     Office of Governmental Affairs

                 OGC 	     Office of General Counsel

                 OHIM	     Office for Harmonization in the Internal Market

                 OHR	      Office of Human Resources

                 OIG	      Office of the Inspector General

                 OIPPE	    Office of Intellectual Property Policy and Enforcement

                 OMB	      Office of Management and Budget

                 OPM	      Office of Personnel Management

                 PALM	     Patent Application Location and Monitoring

                 PAOs	     Property Accountability Officers

                 PART 	    Program Assessment Rating Tool

                 PC	       Property Custodians

                 PCT 	     Patent Cooperation Treaty

                 PDF 	     Portable Document Format

                 PELP	     Patent Examiner Laptop Program

                 PFW 	     Patent File Wrapper

                 PIF 	     Pacific Island Forum

                 PMA	      President’s Management Agenda

                 PPAC	     Patent Public Advisory Committee

                 PPH	      Patent Prosecution Highway

                 Pub.L.	   Public Law




www.uspto.gov	                                                                                             147
G lossary of A cronyms and A bbre v iation L ist




                            RAM	       Revenue Accounting and Management System

                            SFFAC 	    Statements of Federal Financial Accounting Concepts

                            SFFAS	     Statements of Federal Financial Accounting Standards

                            SIPO 	     State Intellectual Property Office of the People’s Republic
                                       of China

                            SITP 	     Strategic Information Technology Plan (USPTO)

                            SM 	       Service Mark

                            SMEs 	     Small and Medium-sized Enterprises

                            SOP 	      Standard Operating Procedure

                            STOP!	     Strategy Targeting Organized Piracy!

                            TAC	       Trademark Assistance Center

                            TARR 	     Trademarks Application and Retrieval (TARR) System

                            TEAS 	     Trademark Electronic Application System

                            TI	        Transfer Inquiry

                            TLT 	      Trademark Law Treaty (WIPO)

                            TRAM 	     Trademark Reporting and Application Monitoring

                            TTAB	      Trademark Trial and Appeal Board

                            U.S. 	     United States

                            U.S.C. 	   United States Code

                            UK 	       United Kingdom

                            UK-IPO 	   United Kingdom Intellectual Property Office

                            UNECE 	    United Nations Economic Commission for Europe

                            USPTO 	    United States Patent and Trademark Office

                            USTR 	     United States Trade Representative

                            WIPO 	     World Intellectual Property Organization

                            WTO 	      World Trade Organization




148	                                                          PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
                 o wledgm
               n          e                                        n
          k                                                             t
     c                                                                      S
 A


               This Performance and Accountability Report was produced
               with the energies and talents of the USPTO staff. To these
               individuals we would like to offer our sincerest thanks and
               acknowledgement.

               In particular, we would like to recognize the following
               organizations and individuals for their contributions:

                 Office of the Under Secretary and Director – Norma Rose;
                 Office of the Chief Administrative Officer – Karen Smith; Office
                 of Corporate Planning – Ali Emgushov, and Joy Fulton; Office of
                 Finance – Shana Willard, Dennis Detar, and Mark Krieger; Office
of Public Affairs – Ruth Nyblod, Jennifer Rankin Byrne, and Dennis Forbes; Office
of External Affairs – Judy Grundy, Kristine Schlegelmilch, Cherie Kazenske, and
Janette Brown; Office of the Chief Information Officer – Scott Williams, Keith
VanderBrink, and Maureen Brown; Office of the General Counsel – Mary Kelly
and Kord Basnight; Office of the Commissioner for Patents – Jack Buie and
David Fitzpatrick; Office of the Commissioner for Trademarks – Debbie Cohn,
Robert Allen, and Karen Strohecker.

We would also like to acknowledge the Office of the Inspector General and
KPMG LLP for the professional manner in which they conducted the audit of the
FY 2009 Financial Statements.

We offer special thanks to AOC Solutions, Inc. and The DesignPond for their
outstanding contributions in the design and production of this report.

To send comments or get additional information
about this report, please contact:

Office of Corporate Planning
600 Dulany Street
Alexandria, VA 22314
2009PARmail@uspto.gov
Phone: 571-272-3333
Fax: 571-273-0127
     leadership



                                                 opportunity



                      United States Patent
                      and Trademark Office

                        600 Dulany Street
                    Alexandria, Virginia 22314




vision                                           creativity



         results
                   www.uspto.gov
